<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-201, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                         APRIL 25 AND 26, 2007


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2008--Part 4  AIRLAND

                                                  S. Hrg. 110-201 Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                         APRIL 25 AND 26, 2007


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
39-438 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

DANIEL K. AKAKA, Hawaii              JOHN CORNYN, Texas
EVAN BAYH, Indiana                   JOHN WARNER, Virginia
HILLARY RODHAM CLINTON, New York     JAMES M. INHOFE, Oklahoma
MARK L. PRYOR, Arkansas              JEFF SESSIONS, Alabama
JIM WEBB, Virginia                   JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           SAXBY CHAMBLISS, Georgia

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
    Testimony on Whether the Army is Properly Sized, Organized, and 
   Equipped to Respond to the Most Likely Missions Over the Next Two 
     Decades While Retaining Adequate Capability to Respond to All 
               Contingencies Along the Spectrum of Combat
                             april 25, 2007

                                                                   Page
Geren, Hon. Preston M. ``Pete'' III, Acting Secretary, United 
  States Army....................................................     6
Casey, GEN George W., Jr., USA, Chief of Staff, United States 
  Army; Accompanied by LTC Paul Haddon, Deputy Director for 
  Operations for the Program Manager Future Combat System 
  Program, Brigade Combat Team; SGM Thomas W. Coleman, PEO 
  Soldier; and MSG Richard Haddad, Future Force Warrior, 
  Technology Program Office, Natick Soldier Research Development, 
  Engineering Center, Natick, MA.................................    11

                  Air Force and Navy Aviation Programs
                             april 26, 2007

Balderson, William, Deputy Assistant Secretary, Air Programs, 
  Office of the Assistant Secretary of the Navy for Research, 
  Development, and Acquisition, Department of the Navy...........    57
Chandler, Lt. Gen. Carrol H., USAF, Deputy Chief of Staff for 
  Air, Space, and Information Operations, Plans and Requirements, 
  Vice Chief of Staff, Department of the Air Force...............    66
Hoffman, Lt. Gen. Donald J., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition, 
  Department of the Air Force....................................    75
Castellaw, Lt. Gen. John G., USMC, Deputy Commandant for 
  Aviation, United States Marine Corps...........................    76
Clingan, RADM Bruce W., USN, Director, Air Warfare, Vice Chief of 
  Naval Operations, Department of the Navy.......................    83

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

    TESTIMONY ON WHETHER THE ARMY IS PROPERLY SIZED, ORGANIZED, AND 
   EQUIPPED TO RESPOND TO THE MOST LIKELY MISSIONS OVER THE NEXT TWO 
     DECADES WHILE RETAINING ADEQUATE CAPABILITY TO RESPOND TO ALL 
               CONTINGENCIES ALONG THE SPECTRUM OF COMBAT

    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Webb, 
Warner, Inhofe, Sessions, and Cornyn.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Creighton 
Greene, professional staff member; Michael J. Kuiken, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; and Gregory T. Kiley, professional staff member.
    Staff assistants present: Fletcher L. Cork and Micah H. 
Harris.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Gordon I. Peterson, assistant 
to Senator Webb; Sandra Luff, assistant to Senator Warner; 
Jeremy Shull, assistant to Senator Inhofe; and Todd Stiefler, 
assistant to Senator Sessions.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. Good morning. The hearing will come to 
order. Thanks very much to all of you for being here, 
particularly to Secretary Geren and General Casey.
    The U.S. Army is the best in the world, but, as the full 
Senate Armed Services Committee heard at a hearing last week, 
it is under severe stress because of the demands our country 
has placed on the Army since the global war on terrorism began 
on September 11, 2001. That is why this hearing is going to be 
different from the typical Airland Subcommittee hearing, where 
we focus primarily on Army acquisition programs and issues 
related to those programs. I want to talk, today, about Army 
acquisition programs, but we have to go beyond that and expand 
our view to raise some of the critical questions that come out 
of the conclusion I stated in the first sentence. How can we 
relieve the stress that the Army is under? How large should the 
Army be? How should it be organized and equipped for the 
missions it will be called on to carry out over the next two 
decades? What do we need to do now, as we are involved in the 
preparation of the fiscal year 2008 budget, to make sure that 
the Army will be better able to be all we ask it to be in the 
years ahead?
    I'm very grateful that Acting Secretary Geren and Chief of 
Staff Casey are here with us this morning to help our 
subcommittee answer these questions, and, in some measure, to 
respond to the concerns expressed at the full committee hearing 
last week about the stress on the Army.
    This year, one of the most consequential issues confronting 
Congress is increasing the size of U.S. ground combat forces. 
While there have been attempts for several years to increase 
the force size, including a bill that I submitted with several 
colleagues to increase the Army by 100,000, until recently, the 
Army has not advocated that course, concluding that a temporary 
manpower increase of no more than 30,000 to permit conversion 
to brigade combat teams (BCTs) would suffice, and that, in due 
course, the Army might actually revert to the permanent end 
strength authorization of 482,400.
    To support this argument, the Army asserted that it could 
find enough additional manpower for this temporary increase by 
significantly decreasing uniformed positions in the 
institutional Army by as much as 60,000, and handing their 
duties to private contractors. Many people were skeptical that 
this was possible or desirable. I will say, now, that it seems 
to me that those questions are moot, because the President has, 
at the Army's request now, proposed a permanent Active Army end 
strength increase over a 5-year period to 547,400. This is 
clearly, in my opinion, a big step in the right direction, but 
there is really little on record to enable us to decide if that 
number is the right number or the right schedule. I'd like to 
explore those questions with the Secretary and the General this 
morning.
    Some people believe that number is not enough. Some are 
concerned that the Army may not be able to recruit, train, and 
equip the envisioned force on that schedule and within the 
budget that is proposed. Some doubt that the Army can attain 
and maintain the increase without substantially lowering the 
quality of personnel. Those are important questions that I want 
to pursue this morning.
    As I see it, the Army has four great challenges if we're 
going to keep it the best in the world that it is and we know 
it will be.
    First, deploying, supporting, and sustaining an increased 
troop commitment in Iraq. The Army's been asked now to provide 
five additional brigades in Iraq, perhaps for an extended 
deployment, and prepare to replace them with an equal number in 
the future. That's going to be a challenge. But the challenge 
is compounded by the fact that none of the brigades in the 
United States are rated fully combat ready, principally because 
of shortages in equipment. In addition, troop protection 
equipment is short, and there may be no way to fix those 
shortages quickly. That's challenge number one.
    Second is to correctly size an Army that is currently too 
small. Many troops are returning to Iraq for the third time, 
and a few for the fourth time. That's bound to have an effect 
on our soldiers, and perhaps even more on their families, on 
recruiting and retention, potentially. The President has 
decided to increase the number of soldiers now in the Army, and 
that surely will relieve some of the stress. Now we have to 
determine if the proposed increase yields the correct size soon 
enough.
    The third challenge is adequately and appropriately 
equipping the force we have now and, at the same time, 
equipping the force of the future that we want to have. Before 
the end strength increase was announced, General Schoomaker was 
asking for $138 billion in fiscal year 2008 to keep 19 brigades 
deployed, reset the force, transition to the new brigade 
structure, begin to recapitalize equipment, and keep the Future 
Combat System (FCS) on schedule. That's $20 billion more than 
Congress appropriated in fiscal year 2007. So, it's a 
significant increase. But I'm concerned that the Army still 
will not have enough to keep those 19 brigades deployed, make 
up attrition losses, raise the readiness rates for next-to-
deploy forces, and retain enough in reserve for adequate 
training of nondeployed brigades.
    I'm also concerned that, at this point, the budget for 
2008, 2009, and 2010 is not adequate to meet those 
requirements. In fact, the Army's unfunded priority list (UPL) 
is of concern to me, because it shows how many programs needed 
in the irregular wars we are fighting, and will fight, are 
unfunded in the President's budget, programs not withstanding 
the $20 billion increase, programs like upgraded protection 
vehicles, aircraft survivability equipment, counter-improvised 
explosive device (IED) jammers, weapons, radios, night-vision 
equipment, and combat training centers. We must give these 
questions close attention in this subcommittee during the 
current authorization, and beyond that, appropriations process, 
to ensure that the procurement accounts are sufficient to equip 
the current, as well as the projected, force, and that the Army 
is buying the right equipment.
    The fourth and final challenge that I want to note this 
morning is properly organizing and equipping the Army for the 
future. We have to determine the correct structure for the Army 
to deal with the most probable missions we will ask it to take 
on over the next couple of decades, to determine the correct 
balance between the operational and institutional Army, and to 
find the money to adjust the program to equip both a larger and 
potentially differently-organized force. Again, I'm encouraged 
that the Army will grow in end strength, but I personally 
believe that the currently-planned increase is too small, and 
will take too long to implement.
    General Schoomaker, in his last appearance before our 
committee, said that the 547,000 is actually a conservative 
number, that a less conservative number would be 565,000. I 
personally believe we need an Army of at least 600,000, and 
that we must make sure we build the right kind of units and 
capabilities for what the Army must be ready to do over the 
next 20 years. I know that will cost us a lot of money, but 
this, to me, is an investment in our security and our freedom.
    I'm concerned that if the Army isn't big enough, the 
institutional Army will continue to be cut in order to increase 
the number of brigades. As many respected former Army leaders 
pointed out to us in the hearing we had last week, it is the 
institutional Army that is the keeper of Army values and 
skills, and that passes those values and skills on to new 
recruits.
    General Schoomaker testified before our committee in his 
last appearance, and I quote--because I think it's right on 
point--he said, ``I'm concerned about whether or not we have 
enough going towards building the institutional part of the 
Army that's required, because I think that's fundamental to 
some of the problems we have in things like training, and 
Walter Reed. The Army, right now, of all the Services, has the 
smallest percentage of its personnel end strength committed to 
the institution.'' That's an important point. He went on to say 
that, ``I worry that we've taken too much risk in the important 
aspects of the Army, like the medical system, like the 
education and training system, the kinds of things that support 
and are so important, because we've taken a lot of efficiencies 
there, and where we have overreached.''
    As General Schoomaker pointed out that day, the Army has 
about 27 percent of its strength in the institutional Army. 
Compare that to the Navy and Air Force, which have about 50 
percent invested in the institutional side. To me, that's an 
unacceptable balance for the service of our military that we 
are depending on most in the global war on terrorism, and why I 
hope this subcommittee can do everything possible to make sure 
that the end strength that we give you, Secretary Geren and 
General Casey, is enough to maintain a good institutional Army, 
as well as a great operational Army.
    We are a nation at war with an enemy that is brutal, smart, 
and despises our way of life. We cannot, in our national 
interest, put the Army in a position where its leaders are 
forced to shape our strategy with inadequate resources. The 
danger is, those resources will determine the strategy, rather 
than the strategy determining what resources you need.
    In my opinion, we have to work together to give our Army 
everything it needs to achieve victory for us and our country 
in the war on terrorism.
    I'm delighted and honored to be working with my friend and 
colleague, Senator Cornyn, as ranking member of this committee. 
We've worked on many matters together on the floor of the 
Senate, and he becomes, now, the ranking member of this 
subcommittee, replacing Senator McCain, who apparently has gone 
on to better things.
    So, Senator Cornyn, I call on you now for your opening 
statement.

                STATEMENT OF SENATOR JOHN CORNYN

    Senator Cornyn. Senator Lieberman, Mr. Chairman, thank you 
very much. It's a pleasure to serve with somebody who I admire 
and respect a great deal. I'm confident this subcommittee will 
be a hardworking one, and from your opening statement, I can 
tell you that you and I see things much the same way. Thank 
you.
    I want to thank our witnesses for being here today, and 
also for their service to our Nation, and congratulate General 
Casey upon assuming his new responsibilities as the 36th Army 
Chief of Staff.
    I'd like to convey to you my personal word of commendation 
and my deep admiration for the dedicated men and women who 
serve in our Army. Soldiers in our Army, which certainly 
includes all members of the Army Reserve and National Guard, 
have performed magnificently and with the highest degree of 
courage and professionalism that reflects on the very best 
traditions of the Army's heritage.
    No one would disagree that the Army's increased operational 
tempo and multiple combat tours in Iraq and Afghanistan have 
put the Army under heightened burden. The announcement last 
week that combat tours would be lengthened to 15 months 
reflects the complexity of the current circumstances.
    In recent months, there have been reports that warn of 
costs on the troops and the readiness of the Army as a result 
of multiple deployments. The subcommittee will look forward to 
your response to issues in this ongoing public debate, which 
include the declining readiness of nondeployed units, the 
extremely high equipment usage rates, the departure of mid-
grade officers and noncommissioned officers (NCOs) leaving the 
service at higher rates, the over-reliance on the National 
Guard and Reserves as Active Force augmentees, and the impact 
of the high operational tempo on Army families.
    In addition, you should be prepared to respond to concerns 
that the planned expansion of the Army cannot be accomplished 
soon enough to mitigate the impact of the current pace of the 
force, subsequently averting the hollow Army that some suggest 
may be looming.
    Turning to Army modernization, the subcommittee will want 
to examine whether the Army's modernization and transformation 
programs will provide the country with the capability to 
provide relevant land power to full-spectrum combat missions, 
stability and support missions, and be prepared for other 
uncertain and complex threats to our homeland defense and 
national interests.
    With regard to specific modernization programs, the 
subcommittee will want to better understand the progress being 
attained in the development of the FCS and the status of 
project technology spinouts.
    Further, the subcommittee will want to know if you expect 
the Army can concurrently modernize, transform, and restation 
the force under the demands of ongoing operations and rotation 
cycles.
    In closing, we should not forget that our ground forces are 
more than a collection of battalions and brigades. It is, at 
its core, about the people who wear the uniform and their 
families. Our military forces, volunteers, all, are America's 
sons and daughters, who each and every day put themselves in 
harm's way, away from those they love, and often on multiple, 
and now extended, combat tours. We'd also like to recognize, 
with our most sincere gratitude, the military families who 
sacrifice so much, especially those who have lost loved ones, 
and those who are caring for those wounded in service to our 
Nation.
    I look forward to hearing today's important testimony.
    Thank you very much, Senator Lieberman.
    Senator Lieberman. Senator Cornyn, thank you. Thank you for 
your kind words. We have a lot of good work I know we can do 
together.
    Again, Secretary Geren and General Casey, thanks for being 
here.
    General Casey, a particular thanks to you. You're just a 
couple of weeks into this latest assignment, in an 
extraordinary career of service to your country. I know you've 
just come back from an aggressive, energetic tour of Army 
installations around the country, and talked to a lot of our 
personnel out there. So, you have a very fresh perspective on 
some of the questions that we're going to ask.
    So, I appreciate that you both have come in here this 
morning.
    Secretary Geren, do you want to begin?

    STATEMENT OF HON. PRESTON M. ``PETE'' GEREN III, ACTING 
                 SECRETARY, UNITED STATES ARMY

    Mr. Geren. Thank you, Mr. Chairman and Senator Cornyn, 
Senator Inhofe, Senator Webb. Thank you for holding this 
hearing.
    In your letter of invitation, you asked us whether the Army 
is properly sized, organized, and equipped to respond to the 
most likely missions over the next 2 decades while retaining 
adequate capability to respond to all contingencies along the 
spectrum of combat. That question, and our answers, in a 
variety of forms, should drive everything we do, as your Army's 
leadership. It should drive our budget decisions, our 
acquisition and personnel decisions, and our policy decisions. 
I welcome the opportunity to work with this committee and with 
the new Chief of Staff of the Army and the full Congress to 
provide answers to that question, recognizing that the future 
we face is not static, nor can the answers be.
    As we reflect on the question, I'm humbled by my personal 
experience in seeing the future, looking over the horizon. I 
was in the House of Representatives from 1989 to 1997, and 
served on the House Armed Services Committee for much of that 
time. I shared in the euphoria when the Berlin Wall fell, and 
in the great triumph of our coalition forces in the first Gulf 
War. I served in the House, under Republican and Democratic 
majorities, with Armed Services Committee chairmen as 
philosophically diverse as Ron Dellums and Floyd Spence, and 
served with Republican and Democratic administrations.
    As a committee, as a Congress, and as a Nation, we made 
some decisions during that decade that do not hold up well when 
judged with 20-20 hindsight. Smart, hardworking, and dedicated 
people did their best to predict the future, but the future 
surprised us, nonetheless. I voted with the overwhelming 
majority of my colleagues to cash the peace dividend, 
participated in drawing the Active Army down from 781,000 to 
482,000. I supported policies that made the Army Reserve and 
National Guard together 55 percent of our total Army force; by 
necessity, changing the Reserve component from a strategic 
reserve into an integral part of the operational force. We 
built an Army that could not go to war without the Reserve 
component, yet we failed to develop policies or make the 
investments in the Reserve component commensurate with the new 
and expanded role we are asking of it.
    I'm reminded that Don Rumsfeld, in his confirmation hearing 
as Secretary of Defense, neither offered testimony, nor was 
asked, about Afghanistan. The same with Dick Cheney in Iraq, 
and Secretary McNamara in Vietnam. We were caught flatfooted by 
the North Korean attack of the South.
    In spite of our limitations, we must look into the future. 
It takes years to shape a 1.3-million-person organization of 
soldiers and civilians. It takes decades to design, build, and 
deploy new weapons systems. Whatever we plan and do now, we're 
going to live with for a long time. Our Abrams tanks, Bradley 
fighting vehicles, and our Black Hawk and Apache helicopters 
are the progeny of the 1970s, older than most of the soldiers 
who are operating them in combat today.
    What are the challenges of the next two decades? Certainly, 
counterinsurgency warfare, for which we organize the majority 
of our combat forces today. But the list of other threats is 
long: near-peer competitors muscling their way onto the world 
stage; a loose-nuke scenario; the proliferation of nuclear 
weaponry; chemical, biological, and nuclear attacks on the 
homeland; and increasing radicalism in regions of the world 
with a history of antagonism to the United States, just to name 
a few.
    How do we best plan for that uncertain future? A 
foundational principle for your current Army leadership is that 
the years ahead will be years of persistent conflict--years of 
persistent conflict--and we must organize our programs and 
policies to reflect that reality. We must prepare the total 
force, Active, Guard, and Reserve, as well as our Army families 
for that reality. For your Army to be prepared for whatever is 
out there, we must enhance our strategic depth and build full-
spectrum readiness. We will continue to work with Congress to 
accomplish that goal.
    You asked, can we transform and modernize our Army and 
fight a war at the same time? Yes, we can, and we are. The 
demands of the war and the threats over the horizon give us no 
choice in the matter. We fight an adaptive and a smart enemy. 
The demands of the war also give us opportunities to make hard 
decisions about the future we could never make in peacetime. We 
must grow the Army. We're working to do that, adding 65,000 to 
the Active-Duty Force, 8,000 to the Guard, and 1,000 to the 
Reserve over the next 5 years. But we must remain flexible to 
adjust the numbers and the rate of growth as circumstances in 
our vision of the future changes.
    We cannot allow the demands of the present to rob the 
future. We must modernize the Army. The FCS is spinning into 
the force now and over the next two decades, and you're going 
to see some examples of those incredible transformational 
concepts in just a moment. It will provide our soldiers the 
training, technology, and tools to remain the world's 
preeminent land power. The future is now. The soldier is the 
centerpiece of the FCS. We must not use the FCS as a billpayer 
for today's undeniably critical needs. We do not ever want to 
find ourselves, in the future, in a fair fight.
    We also must build the capacity of our international 
partners and allies. We cannot face the challenges of the 
future alone. Just as President Roosevelt invested in the 
arsenal of democracy to defeat the axis powers during World War 
II, enabling our partners to share the burdens of the global 
war on terrorism can produce the same results in the future we 
face. We must invest in partner nations who know the culture, 
language, and geography of our enemies. The President's budget 
includes vital funds for that effort.
    There is much about the next two decades we cannot predict, 
but let me close with a few facts and undeniable certainties.
    First, as Senator Warner reminded us a couple of weeks ago, 
our All-Volunteer Force is a national treasure. It is a 
treasure that must be protected. As Senator Warner cautioned 
us, we must be careful: it also can be squandered. Half of our 
soldiers today are married, and the health of the All-Volunteer 
Force depends on the health of those families. We must provide 
those Army families a quality of life commensurate with the 
quality of their service and reflective of their sacrifice. It 
is the right thing to do. Furthermore, our ability to recruit 
and retain soldiers depends on the health of those families, 
and our readiness requires it. The health of the All-Volunteer 
Force requires it. We are asking much of the Army family, and 
we must do more for them.
    Second, the Reserve component--the Guard and Reserve 
together--are no longer a strategic reserve, they are part of 
the operational force. We are one Army. We cannot go to war 
without the Reserve component. We must organize, train, and 
equip the Guard and Reserve so that we can train and fight as 
one Army. We must complete the transformation that has begun. 
The Reserve component must be ready to meet both the needs of 
our Governors and the needs of our combatant commanders. That's 
a high challenge. Policies and budgets must reflect that 
reality. That's a fact.
    Third, we have 134,000 soldiers in combat today in 
Afghanistan and Iraq. We must plan for the future, but we can 
never take our eye off of that ball. We owe those soldiers and 
those families everything we can do to help them succeed in the 
mission they're shouldering for our Nation. They are the best. 
They deserve our best.
    Secretary Harvey and Chief Schoomaker have led our Army 
well, modernizing business practices, transforming the Army 
from a division-based to a modular brigade-based organization, 
building a campaign quality expeditionary Army, and making 
needed investments in present and future readiness. Under their 
leadership, working with Congress, we built the best-trained, 
best-led, best-equipped Army our Nation has ever fielded. As 
the Acting Secretary of the Army, and with George Casey as our 
Chief of Staff, our job is to sustain the momentum that they 
created. As were they, we are part of a great Army team, and a 
strong Army team, and we look forward to working with this 
committee and this Congress to plan for the future.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Mr. Geren and General 
Casey follows:]

 Joint Prepared Statement by Hon. Pete Geren and GEN George W. Casey, 
                                Jr., USA

    Mr. Chairman and distinguished members of the subcommittee, on 
behalf of more than 1 million soldiers that comprise our Army--Active, 
Guard, and Reserve--their families and nearly 300,000 Army civilians, 
thank you for the opportunity to discuss the Army's plan to ensure it 
remains the world's preeminent land power.
    Our Nation is locked in a long war--potentially a multi-
generational conflict--against a global extremist network that is 
committed to destroying the United States and our way of life. The next 
decade likely will be one of persistent conflict against an enemy that 
is not bound by the concept of nation states, geography or laws of war. 
We must counter that threat and remain prepared to conduct major combat 
operations to deter and, if necessary, defeat the threats posed by 
traditional nation states who would challenge our interests and those 
of our allies and partners.
    As we increase our commitments in Iraq and Afghanistan, we also 
must face the challenges of meeting the requirements of our national 
defense strategy and demands of the Quadrennial Defense Review (QDR). 
Today, over 258,000 soldiers are deployed fighting the war on terror 
and forward-stationed deterring our Nation's adversaries. Our Army is 
approaching its sixth year of sustained combat. For the last 4 years we 
have maintained 15 to 21 Brigade Combat Teams (BCTs) deployed in 
Afghanistan and Iraq, which is above the 18 BCT commitment rate 
anticipated in the QDR. While engaged in this long war, we must 
maintain the health and quality of the All-Volunteer Force. We must 
also provide soldiers and their families a quality of life commensurate 
with the quality of their service.
    It is essential that we grow and transform the force in order to 
build an Army to sustain protracted campaigns and defeat adversaries in 
the 21st century, and we are doing so. To meet future challenges, 
continue to sustain the high demand for Army forces and to improve 
readiness and strategic depth, we must receive timely and sufficient 
resources in order to transform, reset, grow, and modernize the force.
    Over the last 4 years, we have made considerable progress 
transforming the Army from a Cold War structured organization into one 
best prepared to operate across the full spectrum of conflict--from 
full-scale combat to stability and reconstruction operations, including 
the irregular war that we face today. Converting all components of the 
Army--Active, Guard, and Reserve--from a division-based organization to 
brigade-centric modular formations is producing more units and 
increasing their expeditionary capabilities. This is enhancing our 
ability to execute protracted campaigns and support the demands of the 
combatant commanders around the globe.
    Concurrent with our modular conversion, we continue implementing 
the Army Force Generation model to ensure we deploy only fully manned, 
equipped, and trained forces into combat. This model provides improved 
predictability for soldiers, families, communities, and employers. Just 
as important, it synchronizes deployments with the preparations of our 
next-to-deploy forces and the reset of recently deployed forces.
    Last year we projected that our fiscal year 2008 reset requirements 
would be approximately $13.6 billion. Our reset requirements are 
increasing as we increase our commitments in Iraq and Afghanistan. 
Equipment is being used up at rates much faster than previously 
programmed. Resetting and recapitalizing this equipment and improving 
our strategic depth will require significant levels of funding for a 
minimum of 2 to 3 years beyond the duration of the current conflict.
    Recent decisions to grow the Army by 65,000 in the Active Force, 
8,200 in the Army National Guard, and 1,000 in the Army Reserve are 
clear recognition of the need to increase ground forces in light of the 
high level of demand and future strategic requirements. We are growing 
six new BCTs in the Active Force and the associated enabling 
organizations across all components. This will expand our rotational 
pool to 76 BCTs and more than 225 support organizations in the 
operational force of the Total Army. Through this growth, we will be 
able to provide a continuous supply of 20 to 21 BCTs to meet global 
commitments by 2013. Whether the Army will be properly sized cannot be 
answered with certainty as the future demand on the force is unknown--
although we believe it is unlikely to decrease for the foreseeable 
future.
    In the near-term, to field forces for victory in the long war, 
sustain the full range of our global commitments and defend our 
homeland, we must have all components of the Army ready and able to 
deploy together. With 55 percent of the Army's capabilities in the 
Reserve components, the recent changes in Reserve component 
mobilization policies are essential as we continue the transition of 
the Reserve component to an operational force. These new policies will 
improve predictability and facilitate the deployment of trained, ready, 
and cohesive units, while decreasing the overall burden on our soldiers 
and their families. We are working to implement these changes rapidly 
and will require continued congressional support to do so.
    In the decade prior to 2001, our investment accounts were under 
funded, resulting in $56 billion in equipment shortages across the 
force. To meet combatant commanders' immediate wartime needs, we are 
continuing to pool equipment from across the force to equip soldiers 
deploying into harm's way. This practice increases risk for our next-
to-deploy units, and limits our ability to respond to emerging 
strategic contingencies.
    With Congress' help, we have made great progress increasing soldier 
and unit effectiveness over the last 4 years. However, we still require 
considerable assistance to overcome the significant equipment shortages 
with which we entered this war and to ensure our soldiers--Active, 
Guard, and Reserve--are armed with the best equipment our Nation can 
provide. The pending fiscal year 2007 Supplemental request contains $16 
billion to increase critical force protection capabilities in our 
deployed forces and to fill critical equipment shortages that are 
degrading readiness in our next-to-deploy forces. For example, the 
supplemental includes funding for Mine Resistant Ambush Protected 
vehicles and procurement of medium tactical trucks to fill existing 
unit shortfalls and to replace obsolete trucks in Reserve component 
units.
    Modernizing our equipment is critical to ensure we build an Army 
ready to defend the Nation in the 21st century. Operations in Iraq and 
Afghanistan underscore the importance of investing in superior 
technologies and equipment that enable our most important asset--the 
soldier--to remain dominant against adversaries who continually adapt 
their methods, tactics, and tools of warfare. Investing in our future 
readiness through modernization is a strategic necessity that must be 
considered a top national priority, not as an issue of affordability.
    The Future Combat Systems (FCS) is the centerpiece of the Army's 
broader modernization strategy, our first major modernization program 
in decades and our most critical investment priority. FCS is designed 
to counter threats of the 21st century; it will enable us to keep 
soldiers mounted longer, increasing their survivability, while 
providing an ability to see and engage the enemy from greater distances 
using an assortment of aerial and ground sensors.
    Procuring FCS is the most effective and efficient means of 
providing full-spectrum, networked capabilities required now and for 
the future, and to ensure our soldiers get these essential capabilities 
as quickly as possible. By building a common chassis, we greatly 
simplify the fleet acquisition and sustainment costs for the Army. For 
example, the cost of building individual platforms is reduced by 50 
percent (from $12 billion to $6 billion). Over time, all current force 
and FCS vehicles will be using the same components and software, 
thereby reducing the overall maintenance and support costs of the 
ground force, and greatly simplifying the training and logistical 
burden for tactical commanders as well as the institutional Army.
    Our ability to simultaneously transform, reset, grow, and modernize 
while meeting the high demand for ground forces and providing a quality 
of life required to sustain the All-Volunteer Force is dependent on 
full and timely resourcing. As a result of the significant support we 
have received from this committee and Congress, the units we have 
deployed are the best trained, best equipped, and best led we have ever 
sent into combat. While we are meeting the readiness needs of deployed 
forces, our challenge remains to meet the needs of our non-deployed 
forces and our ability to respond to future threats. If received in a 
timely manner, the fiscal year 2008 President's budget request, 
combined with requested fiscal year 2007 supplemental and fiscal year 
2008 global war on terrorism funding, sets the Army on a path to 
filling equipment shortages and posturing to respond to future 
contingencies.
    We are in this Long War to win. We would like to reiterate the 
strategic necessity of investing in our future readiness through 
modernization. It is imperative that we not shortchange future 
investments as a billpayer to improve current readiness. Furthermore, 
we solicit your support to accelerate improving readiness, building 
strategic depth and ensuring the Army's ability to prevail against 
future threats. The young men and women who volunteer to defend our 
Nation deserve nothing less.
    Finally, we ask for your assistance in providing fiscal year 2007 
supplemental funding as soon as possible. We already have been forced 
to curtail spending across our installations to ensure the soldiers in 
combat have the resources they need. We have had to slow the purchase 
of repair parts and other supplies, relying instead on existing 
inventory to keep equipment operational. Priority will be given to 
repair and refurbishment of immediately needed warfighting equipment, 
while training and other non-mission critical equipment repair will be 
deferred. We have also postponed or canceled non-essential travel and 
restricted the shipment of equipment and supplies. In May we will be 
forced to take more restrictive measures, including a civilian hiring 
freeze, terminating temporary employees and slowing production lines to 
support current operational needs. The Army remains determined to do 
whatever is necessary to execute its mission: defend the Nation and 
provide forces for victory in the Long War while ensuring uninterrupted 
support to the families of our deployed soldiers. However, we cannot 
repeat last year's disruptive cash flow experience and still meet the 
increased operational demands now facing us.
    Thank you for your continued support of our soldiers and their 
families.

    Senator Lieberman. Thanks, Secretary Geren, for that very 
thoughtful and responsive opening statement.
    General Casey?

  STATEMENT OF GEN GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
  UNITED STATES ARMY; ACCOMPANIED BY LTC PAUL HADDON, DEPUTY 
 DIRECTOR FOR OPERATIONS FOR THE PROGRAM MANAGER FUTURE COMBAT 
SYSTEM PROGRAM, BRIGADE COMBAT TEAM; SGM THOMAS W. COLEMAN, PEO 
    SOLDIER; AND MSG RICHARD HADDAD, FUTURE FORCE WARRIOR, 
TECHNOLOGY PROGRAM OFFICE, NATICK SOLDIER RESEARCH DEVELOPMENT, 
                 ENGINEERING CENTER, NATICK, MA

    General Casey. Thank you, Senator Lieberman, Senator 
Cornyn, Senator Warner, Senator Inhofe, and Senator Webb. I do 
appreciate the opportunity to come here 2 weeks into this. I 
may not be quite at the subcommittee level of detail yet, but 
I'll get there, over time.
    Senator Lieberman. We know you will. [Laughter.]
    General Casey. I'd like to associate myself with Secretary 
Geren's comments, and then I'd just like to really add three 
points, and then we'll show you some of the systems here that 
have actually come out of our technology development, and are 
on the ground in Iraq right now, helping our soldiers.
    First of all, this does give us the opportunity, 2 weeks in 
the saddle, probably a month or so in the saddle, to come and 
tell you that you should look for continuity from us, in terms 
of the direction that the Army has headed. Speaking for myself, 
I was the Vice Chief of Staff of the Army when we began this 
modular transformation of our organizations, and actually 
helped initiate the Army campaign plan that is driving that. 
So, I believe, and am committed to, the fundamental direction 
of transformation that the Army is on. So, I think that's an 
important message for me to give to the committee here.
    Second, I'd just like to say a few words about the 
transition process that I've been going through since about a 
week after I got back from Iraq, to try to help me get a sense 
of what direction we needed to take with the Army. What's 
striking to me, and I think you commented on it, Senator 
Lieberman, is how similarly we all see what we have. We all 
recognize the situation that the Army is in, and, as you 
suggest, the question is, what's an appropriate way forward, 
particularly over the next 3 to 4 years? That's what I think is 
important to talk about, and that's what I asked my transition 
team to look at.
    We had two groups that we formed. One, under a brigadier 
general, we said, ``Go out and talk to people that think about 
the Army, inside and outside the Army, and tell us what they 
think about the Army we have today.'' A lot of that's spawned 
some of the data that you talked about. Then we had a second 
group, under a brigadier, also, and we said, ``Go out and talk 
to people that think about the future, and tell us what they 
think the future is going to look like in 2020, and what kind 
of Army we're going to need for that future.'' They did that.
    I also just asked them to go back 13 years in the other 
direction, since we went out to 2020, and I said, ``Tell us 
what we, as a country, were doing and thinking in 1994.'' It 
was instructive, and Secretary Geren alluded to some of this. 
We were basking in the glow of the victory in Operation Desert 
Storm, and in the Cold War. We were trying to figure out how to 
spend the peace dividend. We were in the process of drawing the 
Army down from 780,000 to 480,000. Candidly, I think we made 
some decisions over that decade based on a view of the future 
that looked fairly benign, that put us in the situation that 
we're in today.
    We then took all that, and said, ``Okay, if you're here 
now, in 2007, and you want to be here, in 2020, what are the 
things you need to do over the next 4 years to meet your 
current commitments and to put the Army in a position to be the 
Army it needs to be in 2020?'' That transition review spawned 
six initiatives, and I'll just talk about them briefly. I think 
you'll see, they get at a lot of the issues that you've raised 
here.
    First of all, we have to accelerate the growth of the Army 
and the readiness improvements so that we can both meet our 
current requirements and posture ourselves to be the campaign-
quality expeditionary force our country needs in 2020. We had 
the same reaction when we saw that we weren't going to complete 
the growth to 547,000 until 2012. The first thing I said was, 
``We have to be able to do that faster,'' and the staff is 
working on that, and will come back to me shortly.
    I will tell you that what I have in my mind here is to 
develop a strategy to get us to 547,000 as quickly as we can, 
and then to back off and do a more detailed look at whether or 
not that is enough.
    Second, we need to improve the quality of support to our 
soldiers, civilians, and family members. What we are asking of 
our soldiers and families is a quantum difference from what I 
would have expected, in terms of our rotational cycles. We do 
good things for families, but we're asking more of them, and we 
need to raise the ante and help them.
    One thing I get as I go around to these different 
installations is that there is a cumulative effect on the 
soldiers and families because of 5 years of war, and we should 
expect to be at war for a while longer. One spouse told me, 
``General, running a family readiness group for the third 
deployment is a lot harder than it is for the first 
deployment.'' So, we have to raise the ante in what we can do 
for families.
    Third, we have to continue the momentum and the continuity 
of our modernization efforts. As I said, I believe we are on 
the right track. An integral element of our modernization 
strategy is to spin out real technologies, that we're going to 
show you here in a second, to help the force that's fighting, 
every day. I think we're well-postured to do that.
    A fourth initiative is to complete the transition of the 
Reserve component to an operational force. The Secretary 
addressed this. We are moving away from the Cold War 
mobilization policies and procedures that the Reserves operate 
under, and we just need to complete that transition. I believe 
that we are headed in the right direction and can accomplish 
that in the next 3 or 4 years.
    The fifth is we need to pay closer attention to how we are 
training and developing our leaders, not only in terms of how 
we do it, but what we're teaching them to do. From my personal 
experience, the complexities of the environments that we're 
asking these young men and women to operate in requires 
mentally agile leaders that can cut through that complexity and 
confusion, and point their organizations in a winning 
direction.
    Lastly, we have some internal work to do, to adapt our 
institutional processes to truly support an expeditionary Army 
in an Army that is suffering under the cumulative effects of 5 
years at war. I think what you saw at Walter Reed is a good 
example of how the cumulative buildup of wounded soldiers 
overwhelmed the system. As I go around, there are other things 
that we need to look at. This will be a hard internal look at 
some of our policies and procedures that were designed for 
another time. We have to streamline our ability to provide 
effective services for our soldiers and civilians and families.
    So, those are the six initiatives. We have teams working on 
those right now. My timeline is to have them report out with 
resourced action plans by July. I'd be happy to come back and 
share the outcome of that with the committee.
    So, those are really the three points that I wanted to 
leave with the committee today.
    With your permission, Mr. Chairman, I'd turn it over to 
Lieutenant Colonel Haddad here, just to show you a few of these 
systems here that are actually in Iraq today, being used by our 
soldiers.
    Senator Lieberman. Excellent. Thanks, General Casey.
    Colonel, it's all yours.
    Colonel Haddon. Senator Lieberman, honorable members, my 
name is Lieutenant Colonel Paul Haddon. I'm the Deputy Director 
for Operations, for the Program Manager FCS program. What I'd 
like to do today is to show you some of the current systems 
that we are developing in conjunction with Program Executive 
Office (PEO) Soldier that will help the soldier to be more 
effective and more efficient, and enable them to accomplish 
their mission on the battlefield.
    The bottom line to this is that the future is now. The 
equipment that I show you here is real. It's operational. It's 
in the hands of the soldiers. It will save lives, not only for 
the soldiers associated with the BCTs, but for all the soldiers 
in the Army.
    Gentlemen, with that, I'd like to go ahead and introduce 
Command Sergeant Major Coleman. He is a veteran of four 
operations in theater. He is currently serving as the command 
sergeant major for PEO Soldier. He is currently wearing the 
armament of the current soldier, with the integrated outer 
tactical vest. What I'd like to do is have him demonstrate that 
to you very quickly.
    Sergeant Coleman. Sir, yes. Senators, Mr. Secretary, 
General Casey, I am wearing the improved outer tactical vest, 
and I'd just like to take a second to give you a real quick 
rundown, since there seems to always be a discussion of body 
armor either in the paper or on TV.
    Senator Lieberman. Right
    Sergeant Coleman. We got a lot of feedback from the field 
that said, ``Hey, I need a quick release, and make it 
lighter.'' That's what I personally had sent up the chain. This 
vest does that. It has a quick release, which I'm going to 
demonstrate in a minute, that will help the soldier egress if 
he or she finds himself either in water, in a Humvee, any 
circumstances where you need to get out of the body armor 
quickly. Currently, we have multiple Velcro flaps we have to 
get through to get out of it. This will get me out in a hurry. 
Again, I'll demonstrate it in a second.
    The next one was weight, ``Make it lighter for me.'' Which 
was great, you can always make something lighter, but there's a 
risk associated. The U.S. Army Training and Doctrine Command 
(TRADOC) said, ``We want to make it lighter, but we are not 
going to give up any of our protection requirements in doing 
so.'' This vest is 3 to 3.8 pounds lighter than the current 
vest that's in the field. It's starting to be fielded right 
now. The 3 to 3.8 pounds definitely makes a difference, as an 
infantry soldier out there on the battlefield of Iraq or in the 
mountains in Afghanistan.
    Senator Lieberman. What's the total weight?
    Sergeant Coleman. Total weight, with plates, sir, for a 
size large is about 25 pounds.
    Senator Lieberman. Right. For this one?
    Sergeant Coleman. I'm wearing a large, sir.
    Senator Lieberman. Right.
    Sergeant Coleman. This is about 25 pounds. Then, when I put 
my gear on it, it can be anywhere from an additional 10 to 20 
pounds, depending on what configuration I have. I have a basic 
rifleman configuration, and you can see that one of the other 
improvements is I still have plenty of other attachment room 
for additional devices or equipment that I may need to attach 
to it.
    Not only did we maintain the same level of protection in 
this vest, but we've increased the protection level. It has an 
additional 2 inches along the bottom, approximately 100 square 
inches more of soft armor protection, and the folks up at 
Natick Labs are still sorting out the exact dimensions.
    So, what we've done is, we've made it lighter, we've made 
it more adjustable, we've integrated. When I crossed the berm, 
sir, in Operation Iraqi Freedom (OIF)-1, with the 101st, I had 
a vest on, and, as I progressed through OIF-1, I got upgraded 
plates, I have my Deltoid and Auxiliary Protectors that some 
good specialist medic, I think, came up with as a great idea 
for the groin protector, and moved it up.
    When I went back for OIF-4 and -5, I had even better 
plates, I had side armor. What we were doing is just sort of 
attaching that to the current vest. This vest integrates it 
all. So, it's lighter, it's a quick-release, and the 
equipment's integrated, so it gets me in and out of my 1114/
1151 vehicle a little bit quicker.
    So, with that being said, I'm going to go ahead and give a 
quick demonstration of how a soldier can get out of his vest. 
To simplify this, I'll just stand up and not hurt my battle-
buddy over here. It has a quick-release lanyard right here, 
that's Velcroed in for airborne operations. Of course, we can 
tuck it up inside here, and it's out of the way. You have to 
remove the entire cord; that way, it doesn't accidentally get 
jerked a couple of inches. Once I'm in a bind, I just simply 
grab this lanyard right here, and I just pull it, and the vest 
is off, and I can knock my arm pieces out, and I'm completely 
cleared of the vest, as you can see.
    Senator Inhofe. How long does it take to put it back on?
    Sergeant Coleman. It takes me about 3 to 5 minutes, sir, 
it's in two complete pieces. Obviously, the goal is that a 
soldier will spend his entire 12- to 15-month deployment and 
never have to tug on that lanyard.
    I can quickly put the shoulders together, if I needed 
additional protection immediately. So, that being said, sir, 
I'll sit down.
    Senator Lieberman. Thank you, that's great.
    Colonel Haddon. Sir, I'd now like to introduce Master 
Sergeant Haddad. Master Sergeant Haddad has two tours in 
theater, and is currently preparing to deploy with the 10th 
Mountain in the upcoming months. He is currently wearing the 
Future Force Warrior ensemble. The key to this, sir, is that no 
longer is he an individual soldier; he is now a node on the 
network. All of these systems that I'm showing you are nodes on 
the network. It increases their operational capabilities, it 
increases their awareness, and they now have information that, 
historically, the soldier at the lowest level did not have 
access to.
    Senator Lieberman. So, tell us what you mean by a node on a 
network.
    Colonel Haddon. Sir, with the system that he has, Master 
Sergeant Haddad has the capability of being tracked using Blue 
Force Tracker, so he is now being followed as they're going 
into an environment, whether it's Military Operations on Urban 
Terrain (MOUT), operational, or desert, et cetera. He also has 
integrated communications and heads-up displays, so that he can 
see the current operational environment, the common operating 
picture, on their screen. So, he has awareness of what's to his 
left, what's to his right, what's in front of him, and what's 
to the rear. Historically, the only way the soldier would hear 
that is if they called on a radio, the radiotelephone operator 
went to the commander, the commander told them, and it was a 
whole chain of information that was going from person to person 
to person; and as it went from one to another, it was getting 
degraded. If you've ever done the pass-a-message along the row, 
by the last person it's an orange, and it started out as a 
wrench.
    But what he's doing is, he has situational awareness in the 
systems, and he can provide information not only to other 
members in his squad, but, also, it's information on the 
network. The commander, the company commander, the battalion 
commander, the brigade commander now have access and awareness 
at their different levels of what he is doing. As we're finding 
in theater, the individual soldiers now are affecting 
strategic-level missions with their actions. So, it enables 
them to do that.
    So, the next thing I wanted to bring up is, we have the 
class-1 unmanned aerial vehicle (UAV). This is approximately a 
35-pound UAV that is controlled at the squad level by the 
robotics operator. It now gives them the capability to have 
eyes over that wall. Historically, if a squad came up to a 
large wall, they would have to look over it. The enemy strike 
sniper knew that, and would position his sights where he would 
see a head popping up. That would put a soldier into harm's 
way. With this system, you fly it over the wall, you have 
vision behind that wall and the squad doesn't have to put the 
soldier in harm's way. You now have a piece of equipment 
protecting them.
    The next piece of equipment that you'll see pulling up is a 
small unmanned ground vehicle. This system is, again, a squad-
level asset that would deploy with the squad. It has the 
capability of seeing over small obstacles, and can go into a 
building, and can negotiate stairwells.
    All this equipment here was utilized during Experiment 1.1 
that was performed by the program as a test and proof of 
purpose of the equipment.
    This has visual capabilities with a sensor and an infrared 
(IR) camera. The soldier can put this into the vehicle--or into 
the building, clear the building, and the squad now knows, and 
has situational awareness of what they're going into.
    So, we now are using technology; whereas, historically, a 
soldier would be put in harm's way, now we can use technology 
to enable that soldier to survive and continue the mission.
    General Casey. You can imagine the benefit we get putting 
these things into buildings. We found buildings rigged with 
explosives and the whole building comes down around the people. 
So, this is a great advantage.
    Senator Lieberman. Yes, it's quite remarkable. It's 
actually miraculous.
    Colonel Haddon. So, the next thing that we have are the 
squad-level joint tactical radio systems. These are the 
preproduction prototype models, and they were actually being 
used during Experiment 1.1. I talk about the network, I talk 
about the capability of transmitting this information across. 
This is the transport layer, and it is going to enable us to do 
that. This is going to enable us to transmit the data from the 
squad-level soldier to the battery commander to the battalion 
commander, and also to other elements outside the theater 
through a network of radio systems. This is just a 
preproduction prototype demonstration of some of those. They 
are being tested, and were tested during Experiment 1.1.
    The last thing I have to show you, gentlemen, is the 
tactical and urban unattended ground sensors. These systems, we 
have right here, are the urban unattended ground sensors. A 
soldier would go into a building, place these on the wall, and 
now, instead of having to, historically, leave a soldier behind 
to maintain the security of that building, this now enables 
them to move forward and keep their firepower and strength 
forward, where they need it. So, now you're keeping the 
fighting capabilities, the lethality of that squad, intact, 
while still maintaining security for the soldier. So, this is 
another set of eyes. We're using technology to replace 
soldiers.
    The next thing that we have are the unattended ground 
sensors-tactical. This, right here, has an IR camera. You place 
it along a logistics route, along the road, and this gives you 
vision of what's coming up and going down that road. Now we 
don't need to leave that critical military personnel soldier in 
a Humvee with a weapon. We can deploy that equipment forward 
and leave technology behind to protect that route.
    We also have acoustic and seismic sensors that would cue 
the IR sensor, or the camera, if something is coming along that 
route. All of this is enabling the soldier to be more effective 
and efficient in their mission and maintain their lethality 
where they need it to engage the enemy. That is what we are 
bringing. The future--as I said before, the future is here and 
now. This technology that you see before you is enabling the 
soldier to be more effective, more efficient, and more 
survivable on today's battlefield, as well as the future 
battlefield.
    With that, gentlemen, I'm prepared to answer any questions, 
along with Command Sergeant Major Coleman and Master Sergeant 
Haddad.
    Senator Lieberman. Perhaps we'll just do a few quick ones, 
if individuals want, because then I want to get to a question.
    But, first, though, this is very impressive. I thank you 
each for your service. I must say, my colleagues, that I think 
we should feel some pride that this committee, over the years--
and I look to Senator Warner, particularly, because of the 
leadership he's had in this committee--has invested a lot in 
the kind of research and development (R&D) to take the 
extraordinary technological advances of our time and convert 
them to use in our military. Some of this stuff, for soldiers 
of an earlier generation, it's science fiction, but it's real. 
It not only will make you all who serve for us more effective, 
but it also keeps you safer. It's quite remarkable.
    The only question that I have, and I know this is the kind 
of question we'll get from folks back home, and you'll get from 
families, this new vest, which is more protective, lighter, and 
easier to get out of, are they out there now? How soon will 
everyone who needs one get one?
    Sergeant Coleman. Yes, sir, they are out there. We filled 
the first unit earlier this month, 4/9 Manchus, up in Fort 
Lewis. They're in Kuwait, as we speak, and they're ramping up. 
I'm not the production guru, but I do know that production's 
being ramped up, and will be in full mode here starting in May, 
full production by the end of this summer.
    So, I'll have to talk to the acquisition guys about 
numbers, but it's hitting the field, starting May.
    Senator Lieberman. Thank you.
    General or Secretary, do you have anything to add to that 
answer about how soon?
    General Casey. No, I couldn't tell you how long it will be 
until everyone has one, but, as he said, they will be in full 
production here by the summer, so I'd say it'd take at least 
another year, 18 months until we get the whole force fielded.
    Sergeant Coleman. Yes, sir. Hopefully, by this winter, 
we'll have at least enough to cover down on the entire Iraqi 
force by this winter.
    Senator Lieberman. Thank you.
    Any other questions from my colleagues? If not, I thank 
you, gentlemen, very, very much.
    I'm going to go to the question period now. I note that the 
Senate has one vote at 11:10 a.m., so I'd like not to have to 
recess the hearing, and maybe we'll take turns going over to 
vote. I was going to suggest that we have 10-minute rounds of 
questioning, since we have so few members here, Senator Cornyn. 
It'll give each of us a chance to build a line of questioning.
    I thank you both for your opening statements.
    General Casey, I appreciate your opening statement very 
much. It looks to me, and feels to me, like you're hitting the 
ground running. You obviously have a lot of experience, not 
just in Iraq, but, for those with short memories, you were Vice 
Chief of the Army in an earlier time. I think you're asking 
exactly the right questions, and I appreciate that you've put 
your folks on a relatively short timeline to get these answers 
back to you with action plans by July.
    I am particularly encouraged by the question that you've 
asked both about the end strength we should be aiming for and 
the pace of that end strength, because, as you and I discussed 
before the hearing, it is a big step forward to add 65,000 
soldiers to the Army, but if you look at the plan right now, we 
don't get to that 65,000 until 2013, as we're in the midst of a 
conflict where the shortage of personnel is obviously having an 
effect on morale, and certainly family attitudes, in addition 
to the impact it's had on the institutional Army.
    So, I'm greatly encouraged that you've asked your 
transition team to see if you could accelerate the growth. Can 
you get to the 547,000 earlier than 5 years from now? Do you 
want to add anything to that part of what you've told us?
    General Casey. Obviously, they've been working on this for 
a few weeks here.
    Senator Lieberman. Right.
    General Casey. But there's a lot more to it than just the 
people, and that's what makes it complex. As you mentioned 
yourself, it's the equipment that goes with it, the basing, and 
then growing the leaders.
    Senator Lieberman. Training.
    General Casey. The training and growing of the leaders.
    Senator Lieberman. Right.
    General Casey. We made some decisions that impacted the 
number of officers we assessed back in the 1990s. They're the 
majors of today.
    Senator Lieberman. Right.
    General Casey. So, we're short on them. So, it takes a 
while to grow leaders and equipment and basing to put all that 
together. So, it's going to take, I think, 3 or 4 years, but 
we'll squeeze as much out of it as we can.
    Senator Lieberman. Secretary Geren, do you want to add to 
that?
    Mr. Geren. Really, nothing to add to that, sir.
    Senator Lieberman. Okay.
    Then, I take it from what you said, General Casey, that 
once that's completed, in July, you're going to come back and 
take a look at the question of whether the 65,000 increase is 
enough to meet the demands that our country is going to put on 
the Army.
    General Casey. I think that's the prudent thing to do, and 
we'll have to ask ourselves hard questions within the 
Department, ``enough for what?'' I think we need to be careful 
on two things. One, I don't think we should just size the force 
to deal with Iraq. I think that may be a shorter-term 
proposition.
    Senator Lieberman. Right.
    General Casey. But, two, and as you suggested, sustaining 
large formations is expensive. If we're going to grow it, I 
think we need a commitment from everybody to sustain it at 
appropriate levels so that we have a force that is well-
resourced, and we can take care of our families and our 
installations and the whole bit. So, I think it's something we 
all need to think about.
    Senator Lieberman. Right. I want to ask you a big question. 
I'd just ask you to give me a short answer, but I think it's 
important to build a record on this. What are the impacts of 
not increasing end strength? Obviously, we're in conflicts in 
Iraq and Afghanistan, and there's a call for more troops, but 
am I right that one of the things you're concerned about here 
is the morale of the troops, because they're deploying so 
rapidly, and particularly the impact that has on their 
families?
    General Casey. The current plan will bring us to the point 
where we will have enough brigades to put the Active Army on a 
one-increment-out/two-increments-back----
    Senator Lieberman. Whereas, we're about one and one now.
    General Casey. We're actually at 15 months out 12 months 
back. The Reserve is on at one to five. That's what it will 
give us. We, frankly, with the Active Force, would like to get 
to the point where we could get to a one-increment-out/three-
increments-back, because we think that gives us a better 
capability of training leaders and resting the force. But 
somewhere between two and three, I think, is the right answer.
    Senator Lieberman. That will put them in a position when 
you deploy them, to be as effective as possible, but also, 
presumably, will improve the morale of their families, because 
they'll be away less.
    General Casey. Right, and it will allow them to meet the 
leader development opportunities they need to grow, so that we 
sustain the qualities of leaders in the force, and that's 
critical.
    Senator Lieberman. Again, I appreciate your coming back to 
the question of the institutional Army, and that when we add 
personnel, we make sure that we bring them to where we want 
them to be, and have the leaders we want them to have, we have 
to invest some more in all that backs them up and prepares them 
for leadership and for service.
    Let me ask you this question. I presume it'll be part of 
what your transition team is doing. There are people who have 
expressed concern that the Army is lowering standards to meet 
the recruitment goals, and, in fact, perhaps lowering demands 
in basic training, because, though the standards are lower, a 
larger number of people are making it through. So, the critical 
question is, at this point, do you think we can meet the 65,000 
increase in end strength, not to mention what may be necessary 
beyond that, without diminishing the quality of the personnel 
in our Army, which is obviously the heart of what the Army's 
all about?
    Mr. Geren. Let me speak to that, first, and then General 
Casey can add to it. We're recruiting, today, Active, Guard, 
and Reserve, a force that's about the size of the entire United 
States Marine Corps, about 175,000 men and women a year. I'm 
proud of every soldier that joins our Army today. It's an All-
Volunteer Force, and we have soldiers joining the Army in time 
of war. That tells you a whole lot about the person that stands 
up and joins the Army in a time like this, in a time of our 
national need. There are a lot of qualities that go into making 
a good soldier, but I'd put at the top of the list that level 
of commitment, that sense of patriotism, that sense of duty. We 
are recruiting fine young men and women.
    People have said, ``Then the Army looks like America.'' In 
fact, that's really not right. The Army looks like the top 30 
percent of America. If you look at our recruiting pool, the 17- 
to 25-year-old young man and young woman, only 3 out of 10 of 
those young men and young women have the qualifications--
mentally, physically, morally, and emotionally--to be in our 
United States Army. So, we're starting with the cream of the 
crop, the top 30 percent of our young people.
    We do have standards. Congress has set statutory standards. 
The Office of Secretary of Defense (OSD) has set guidelines. We 
have our own standards. Right now, we are accessing about 4 
percent of the recruiting in 2006 in the Cat 4 category. That 
has increased, but that's the OSD standard; 4 percent. Earlier 
in the decade, we were in the 2 percent range. But to put this 
in historical perspective, in 1980 about 50 percent of the Army 
was in the Cat 4 category.
    So, we watch all these metrics very carefully. One-hundred 
percent of all the soldiers we recruit either have a high-
school diploma or a general equivalency degree. We would like 
to have everyone with a high-school diploma. The last year, it 
was 81 percent with a high-school diploma, still way above 
historical norms. Our Army requires people of many different 
capabilities, everything from the scientist to all types of 
manual skills. We take these soldiers and put them in the 
Military Occupational Specialty (MOS) that suits their 
abilities and their needs. We watch this very carefully. We 
watch it with metrics that watch it from up above, but, most 
importantly, we listen to the NCOs and the leaders on the 
field, that tell us what's going on in the life of those 
soldiers.
    In spite of these changes, and historically speaking, these 
changes are very minor, as far as the metrics of our force, we 
continue to recruit well. Extraordinarily well, in my opinion, 
when you consider that about 1 percent of the country's bearing 
the burden of this war.
    Senator Lieberman. That's right.
    Mr. Geren. If we are going to succeed in recruiting over 
the coming decade, and meet these needs, there will have to be 
some changes. We will have to have our country's leadership, 
all the way down to the level of principals in schools, and 
teachers, parents, coaches, as well as those of us in public 
life, communicate to the American people the importance of 
standing up and defending our country at a time of national 
need. Right now, we're not doing as good a job there as we can, 
but we have a top-quality Army, sir, and it's the best-led, 
best-trained, best-equipped Army, and we're proud of them.
    Senator Lieberman. I appreciate the answer. I know you'll 
keep your eyes on that. I hope that you'll be very forthcoming 
with us if you feel you need more support to meet the 
recruitment goals at the level of quality that you want, 
including, perhaps, more recruiters or other programs to reach 
out to authority figures, like principals or clergy-people and 
others, to encourage people to come into this.
    General, did you want to add something to that?
    General Casey. The only thing I'd add, Senator, is that in 
my travels here in the last 2 weeks I've been to three basic-
training sites that produce about two-thirds of the basic 
trainees. I've talked to recruits, I've talked to drill 
sergeants, and I've talked to the leaders. I must say, I'm 
fairly impressed with what I saw, in terms of the recruits. I 
will tell you that I did talk to drill sergeants who felt they 
were spending too much time ``babysitting,'' in their words, 
some of a portion of the recruits. But when I talked to the 
leaders, and I pressed battalion and brigade commanders whether 
they felt pressure or they were being tracked on their 
attrition, to my pleasant surprise, they said they were not 
called on that. I'd say that's exactly what we want.
    This gets to the notion of the attrition rate in initial 
entry training being about 6 percent, and whether we're making 
it too easy for them. Actually, the attrition rate started to 
go down when we put in the warrior tasks and drills, and when 
we, in fact, raised the level of what we were asking the troops 
to do. I talked to the TRADOC commander; we don't want pressure 
on people to meet a specific attrition goal. We want to have 
the right soldier, prepared to deal with the challenge he's 
going to have to face. So, as I said, I was fairly comfortable 
with what I saw at the initial entry training sites that I went 
to, but we will keep a close eye on it.
    Senator Lieberman. Good. Thank you. My time's up.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    My first question goes to funding our troops. One of my 
concerns is that the current debate over the emergency 
supplemental has been cast as a political argument between some 
in Congress and the President. This, I believe, has very 
serious impact, not only on our readiness and ability to equip 
and deploy and rotate troops back out of the theater, but also 
in terms of protecting the lives of our troops. I guess the one 
symbol of that, which comes home to me the most, is, I recently 
was down in Sealy, Texas, and looked at some of the new 
Cougars, the Mine-Resistant Ambush-Protected (MRAP), vehicles 
which have been deployed, I believe, by the Marine Corps, with 
great success, and because of their V-shaped hull and design, 
it actually disperses the explosion, rather than has it channel 
up into the Humvee or otherwise cause greater risk of harm to 
our troops. As I recall, the supplemental originally had a 
significant amount of money that was dedicated to pay for some 
of these MRAP vehicles. Senator Biden introduced an amendment 
which upped that amount significantly. I think the figure now 
is $4.1 billion, which I would like to see get to the troops as 
soon as possible. But could you comment, Secretary Geren and 
General Casey, on the importance of getting this funding to the 
troops as soon as we can?
    Mr. Geren. I'll speak, but I'll be brief, because General 
Casey can speak from the perspective of the field.
    We currently have about 1,000 MRAP vehicles of one sort or 
another. All our military police are in MRAP vehicles. We also 
have some of the route-clearing vehicles, the Buffaloes. We 
consider this a priority. Our current plan is, and the 
recommendation to the Chief and me was, for the Army to buy 
2,500. That's a subject we're going to look at carefully and 
decide whether or not that's the right amount. We have a 
requirement from the field that's a larger number than that, 
and we are going to take a long, hard look at that. The Marine 
Corps is the program manager for this, we're partnering with 
the Marine Corps, and we definitely intend to move out with the 
program and increase the numbers that we have in the field.
    I'd like the Chief to talk about his perspective, the value 
in the field, of that type of technology.
    General Casey. Were you referring just to the MRAP funding, 
Senator?
    Senator Cornyn. No, sir, I was using that as an example of 
the kind of equipment that is awaiting this emergency spending.
    General Casey. Sure.
    Senator Cornyn. But if you would comment more generally on 
the importance and the consequences, because I think some are 
under the mistaken notion that there's no big hurry. There were 
people that advert to a Congressional Research Service report 
that says, ``Nah, it's okay if we get the money over there to 
the Pentagon in June or maybe July.'' But I've seen, from 
Secretary Gates, General Schoomaker, and others that there's 
very real impact today on the failure to get that funding there 
now, some 70-days-plus since the President first requested it.
    General Casey. I think, with everything we have going on in 
the Army, a predictable flow of resources is critical to 
sustaining our transformation efforts, our reset, our 
preparation of the forces for combat, and our modernization 
efforts. So, anytime you have a perturbation in that, there are 
second- and third-order effects.
    Now, we have taken some actions, already, that have been 
helped by a $1.6 billion departmental reprogramming, to put 
ourselves in a position to allow us to continue to prepare our 
soldiers to go to combat through the end of June without having 
to take any significant steps that would undermine that. But 
we, as you suggest, would like to get the supplemental funding 
as soon as we can, because the longer it goes, the more second- 
and third-order effects there are.
    I would like to thank the committee for their approval of 
that reprogramming request, because if we don't get that, then 
we're in a much tighter box.
    Senator Cornyn. The last thing I'll say about this is that 
I know there's been some suggestion that the debate in Congress 
has actually been helpful to impressing upon the Iraqis the 
fact that this is not an open-ended commitment of the United 
States, and I believe it was Secretary Gates that said the 
clock is ticking. While I appreciate the fact that this debate 
is important, I don't think the delay is required for the 
debate to go on. The debate will continue on. The delay, I 
think, is harmful, and I hope Congress will act as soon as 
possible.
    I want to touch on the impact of the burdens, the 
sacrifices of our men and women in uniform, and on military 
families. Secretary Geren, you and General Casey both alluded 
to this. The old saying is, ``You recruit soldiers, you retain 
families.'' With these multiple deployments, with extended 
deployments beyond what originally was anticipated, from 12 to 
15 months, obviously that has a very profound impact on the 
sacrifices and burdens we're placing on families.
    You say that there's other things we want to do for them, 
or we want to help, and I wonder if you could comment, 
generally, on that impact on our ability to recruit and retain, 
as well as other, maybe, specific ideas you have about what we 
can do to lighten their load as much as we can.
    Mr. Geren. We are asking a great deal of the families. With 
the recent decision to extend the deployments to 15 months, 
we're asking more of families who have already given a great 
deal. A top priority for the Chief and me is to understand 
better the plight of the families, and what can we do to make 
sure that they have the quality of life that they deserve.
    The health care issue at Walter Reed is a perfect example 
of how the stresses on the system cause us to lose our focus 
and drop the ball in an area that is so important to the health 
of the families and the health of the force. We are focusing on 
the healthcare needs of the families, and we've taken many of 
the lessons we've learned from Walter Reed, and we're applying 
them across the force to do a better job of meeting the 
healthcare needs of the families, not just for the wounded 
warriors, but of the families, as well. That's an area where we 
know the families have great concern, and we're going to do a 
better job there.
    Other programs actually at the facilities; educational 
programs, quality-of-life programs, everything from childcare 
centers, General Cody and I spent many, many hours trying to 
move money around in a constrained budget to make sure that we 
have the right funding in the childcare centers and other 
educational programs for kids, so moms and dads have the 
quality of service they need for their children.
    Over the next couple of months, it's an area that we're 
going to work on very aggressively to understand the needs of 
the families. In some cases we have good programs. The programs 
vary from facility to facility. We need to do a better job of 
making sure that there's uniformity in quality across the 
system.
    Senator Cornyn. General Casey, do you have anything you'd 
like to add?
    General Casey. Yes, just a couple of things, Senator.
    With the transition team, I took it a step further, and 
asked the question: in an Army that's almost two-thirds 
married, is not the impact of that family on the soldier's 
decision to stick with the force so significant that we should 
treat families as a readiness issue? The answer was, ``Well, 
yes, what took you so long?'' For us, calling something a 
readiness issue means you do what you have to do to get it 
done. As much as we've done for families, my personal view is 
we've always been just a little bit off in following through on 
our commitments. We need to deliver.
    When you talk to the spouses, they say, ``Look, we don't 
necessarily need a whole bunch of new programs. We need you to 
fund the ones you have, and we need you to standardize them 
across the installation. When you go to one place or another, 
they say, `No, we don't do it like that here.' '' There's just 
so many little irritants out there that, when you're on your 
third deployment, are the kind of things that can be the straw 
that breaks the camel's back.
    Mental health professionals for the children and for the 
spouses, as well as for the soldiers, come up every place we 
go. It's going to be, I think, probably a national question 
here, because I don't know that we have enough social workers 
and trained mental health professionals to deal with this, 
especially in the areas around some military installations.
    Another small one, I expect to be able to announce here in 
a month or so that we're going to fund full-time readiness-
group assistance down to battalion level. We're doing it in 
some places now, but not everywhere. As the spouse said, ``It's 
a heck of a lot harder running a family readiness group for a 
third deployment than it is for a first one.'' So, give them a 
hand.
    Also, the Secretary mentioned education. As they look at 
this, they want to have good educational opportunities for 
their children, and they want it in an environment that 
appreciates what the families are going through. So, there's a 
big push for a lot of folks to stay within the Department of 
Defense (DOD) school system here, especially as these 
deployments go forward.
    Mr. Geren. Senator, could I mention one thing, just about 
the supplemental? The delay in the supplemental causes us to 
rob from the home front to make sure that the soldiers in 
theater have absolutely everything they need. We've been able 
to do that. But it does have an impact on the nondeployed. It 
has an impact on families. It has an impact on the quality of 
life.
    Last summer, we had to make cutbacks in programs across our 
facilities in order to make sure that the troops in the field 
had everything they need. We're in the process of doing the 
same thing right now. On 15 April, we started cutbacks; 22 
April, we did again; and every day this is delayed, we're going 
to see further and further cutbacks. The families and the 
quality of life ultimately suffers. The $1.6 billion that 
General Casey referred to, your committee has approved that 
reprogramming, but nobody else in Congress has. So, we're 
awaiting that money. The anticipation of that has allowed us to 
delay some more draconian measures that will come in the 
future. But, you're exactly right, the timeliness of that 
supplemental is key, and ultimately it will affect the quality 
of life for our families.
    Senator Cornyn. I have one short question, and it just 
requires a short answer.
    Could you tell us what the limiting factors are on our 
ability to grow our end strength faster? Is it money? Is it the 
ability to recruit? Is it other factors? Is it all of the 
above?
    Mr. Geren. I'd say, short answer, all of the above, really. 
The training and the recruiting is a big increase, and there's 
a lot of work associated with it to make sure that we grow it 
well and grow it right. We are going to look and see if there's 
any way to do it faster.
    Senator Cornyn. Any other thoughts, General Casey?
    General Casey. It is all of the above. It is the 
recruiting, and it is the equipping. All of those have a time 
lag associated with them. If we get the money this year or 2 
years later, the equipment pops out. So, that's what we all 
have to be cognizant of.
    Senator Cornyn [presiding]. Thank you.
    Senator Inhofe.
    Senator Inhofe. First of all, let me compliment both of 
you. You did something that no one has done, to my knowledge, 
since the 1990s. In your opening statement, you talked about 
the mistake we made in the 1990s on the downsizing, on the 
budget, and on the modernization programs. The reason that I'm 
so pleased you're doing that is I've been the only one talking 
about the mistakes we made in 1990. I was chairman of the 
Readiness and Management Support Subcommittee during that time, 
and there wasn't a week I didn't go down to the floor and say, 
``This euphoric attitude that the Cold War is over and we don't 
need a military anymore has to stop.'' Now, we're paying for 
it. The reason is not to point the finger, not to play the 
blame game, but if we don't have the military saying the same 
thing that I'm saying, then I have no credibility. So, both of 
you talked about that, and I think that's a great thing for the 
future, because we don't want this to happen again. It happened 
back in the 1980s, as we all know, and the hollow force and all 
of this. This, perhaps, can be the end of that.
    You said, Pete, that only 3 out of 10 who come in to be 
recruited actually end up being accepted. Is that correct? I'm 
not real clear, because I've heard one out of eight, and I was 
just kind of wondering----
    Mr. Geren. Yes. I'm not familiar with the one out of eight 
number. We're not talking about the ones that walk through the 
door, but we look at the pool of young people that fall in the 
17- to 25-year-old category. Only 3 out of 10 of those would 
meet our standards.
    Senator Inhofe. So, the figure I'd like to have, and you 
probably don't have it now, is, of those who come in with the 
expression of interest, who want to join, how many of those are 
rejected? What kind of ratio are we looking at?
    The reason I want to know that is because I've heard some 
of the criteria. For example, they said if you are a product of 
home-schooling, you may not qualify, or something like that. 
So, I think there are criteria I'd like to look at.
    Maybe we don't want to reduce the standards, but we might 
want to re-evaluate the criteria. That's one of the reasons. In 
fact, there is a person in this room right now, seated not far 
behind me, who attempted to join the Army. He was not able to 
do it because of something that was no longer active, medically 
speaking. He's one of the top athletes around today, and so, I 
keep thinking, are we passing up a bunch of people who really 
want to do this because of the criteria that we're using?
    Now, I want to ask you this, also. It was touched upon by 
someone else. There are a few highly publicized cases where 
antiwar groups are keeping schools from having recruiters on 
campuses. What kind of a problem is this? Can you quantify 
this?
    Mr. Geren. I can't quantify it for you. I know there are 
schools that have limited our access. The Solomon amendment, 
which I believe is in litigation right now, states that if 
you're going to get Federal funds, you have to provide us 
access. We have work-arounds that we have in certain campuses, 
where we do Reserve Officer Training Corps (ROTC) programs in 
partnership with other campuses. But as far as the specific 
response to your question, I'd need to get back with you.
    [The information referred to follows:]

    The Army provides opportunities to any individual that wants to 
serve provided they meet Department of Defense standards. Individuals 
with the propensity to serve may walk in to any recruiting station and 
volunteer. While the walk-in market is small, those individuals are 
afforded the same opportunity as the traditional recruit. Regardless of 
the source of entry, the Army ensures that every individual enlisting 
is qualified medically, morally, and administratively (number of 
dependents, weight standards, etc.). Only 3 out of 10 17-24-year-old 
youths are fully qualified to join without a waiver, and less than half 
qualify with a waiver. In coordination with the Office of the Secretary 
of Defense, entrance standards are continuously reviewed to ensure we 
are not being overly restrictive in criteria.
    By law, both high schools and colleges receiving Federal funding 
are required to provide a minimum level of support to recruiters. High 
schools are compliant but are reluctant to provide additional support, 
if they receive Federal funding, they are required to release their 
students' contact information to military recruiters, although parents 
have an option to have their child excluded from these lists. Many high 
schools have stopped administering the Student Armed Services 
Vocational Aptitude Battery, which is perceived to be exclusively a 
recruiting tool.
    Most colleges receiving Federal funding are compliant with the law 
to provide access to military recruiters and are providing the minimum 
level of support. There are competing demands for students, thus 
college administrators are reluctant to provide the military full 
access to campuses. There is a recruiting market on college campuses 
targeting students that are graduating, have decided not to continue 
their education, or are in need of money to continue their education. 
Although college campuses have historically been centers of influence 
and focal points for anti-war activists, these have been minimal.

    Senator Inhofe. That would be good to take that for the 
record because what we're talking about is trying to get more 
to come in. If this is a deterrent, if this is happening in a 
pretty widespread way, we need to know it. Now, we know about 
the Junior Reserve Officer Training Corps program in 
California. I'm not talking about that. I'm talking about the 
active recruiters on our campuses. Okay?
    Then, I was going to mention the crisis that we faced last 
year. I can remember talking to you, Secretary Geren, about 
that when I was working very closely, at that time, with 
General Cody. My feeling was, we were getting dangerously close 
to having to affect widows' benefits and re-enlistment bonuses, 
the things that would just be really disastrous. I just hope 
that we do not get in that position this time. I know 
everybody's trying, and I'm not sure what the answer is, but 
that is a crisis.
    Now, FCS, we haven't said much about that. We have things 
that are bleeding right now that have to be done. We all 
recognize that. The problem that we're having is what normally 
happens, as was happening back in the 1990s. They were taking 
things that didn't have to be funded on that day. I always use 
the example of the real property maintenance accounts affecting 
things like the roofs on the barracks at Fort Bragg, almost 
like they weren't even there. But they had to use that money to 
buy bullets at that time. That's how bad things were. One of 
the things that is always a prospect for sliding is 
modernization programs. I think the American people are under 
the misconception that our kids, when they go out there, have 
the best of everything, and they don't. Part of the FCS 
program, one of the lead increments of that, would be the non-
line-of-sight cannon. When I tell people that the best thing 
that we have out there is the Paladin, which is World War II 
technology, this is just totally unacceptable.
    So, now, we have had to slide a little bit in FCS. Where do 
you see FCS going to right now?
    Mr. Geren. FCS is our top modernization priority, and we 
have seen significant cuts in the FCS in the last couple of 
years. It's something, as you alluded to, that's happened with 
so many of our modernization programs over the years. We end up 
cutting a little every year. They slide to the right. We do 
tend to rob the future in order to pay for the needs of the 
present.
    FCS is a good example of where the future really is now. 
You heard it from the soldiers. We are designing the FCS to 
respond to the soldiers in the field, their needs are what are 
driving how we allocate our resources in FCS, how we plan the 
spinouts. We're trying to take those technologies and get them 
to the soldiers, fast.
    Senator Inhofe. I've been over there in that area 13 times, 
but when you look at the new technologies that are there, that 
we're experimenting with; I hope this becomes widespread. We 
can't overlook the main program we have right now, which is 
FCS.
    General Casey. If I could take your analogy of the 1990s 
back. So, we looked at the 1990s, and we looked forward, and we 
made some decisions based on a rosy view of the future. We 
looked out to 2020 and talked to people in the Intelligence 
Community, in academia, in think tanks, in staff around here, 
and we said, ``What do you think it's going to look like in 
2020?'' They said, ``Persistent conflict.'' So, we're not 
looking forward to a rosy picture. We're saying, ``Hey, we're 
going to be fighting for the next decade or so.''
    Senator Inhofe. General, you've heard me saying that we're 
going to try to guess what's going to happen 10 years from now, 
and, as smart as all you guys are, we're not going to be right. 
That's the reason it crosses Service lines, because we had the 
same situation in our strike vehicles in the Air Force. So, I 
just think when we recognize that if we really want to meet 
what I believe are the expectations of the American people, we 
should have the best in all Services, and we're not quite there 
right now.
    General Casey. We're not, and that makes the rationale for 
why this FCS is the centerpiece of our modernization program.
    Senator Inhofe. Yes.
    General Casey. We're up against an adaptive, asymmetric 
enemy that is changing his tactics every day. We need to give 
our soldiers the decisive advantage, today and tomorrow. We 
can't scrimp on that.
    Senator Inhofe. I appreciate the two of you. You're doing 
the Lord's work.
    Senator Lieberman. In the absence of another Senator, 
though I've had my 10 minutes on the opening round, I'll ask a 
few questions. Soon as somebody else comes in, I will yield.
    I mentioned earlier that the Army budget has a $20 billion 
increase over last year. That obviously occurred before the 
surge began. I want to focus on one part of it, which is, the 
ongoing conflicts in Iraq and Afghanistan have not only had an 
effect on personnel, but obviously on equipment. This is tough 
combat environment. Equipment is affected, it wears down, so 
there's a need for what we'd call, in layman's terms, 
maintenance, and also buying some new equipment to replace 
stuff that's lost.
    This goes directly to the jurisdiction of this 
subcommittee. Is there enough in the budget that the President 
put before us, which, again, was constructed in an earlier 
time, to allow you, Secretary Geren and General Casey, to 
recapitalize, reset, and maintain equipment at the necessary 
level, or should we be looking at adding some more?
    Mr. Geren. As far as the equipment that we wear out in 
theater and combat losses, we have made our best estimates, and 
have those figures in the supplemental. The money that you all 
provided last year, the $17 billion, is a very important step 
forward. We've spent, or committed, about 81 percent of that. 
We're always having to predict the future and anticipate what 
those losses are. That's the value of these supplementals that 
are out of the regular budget cycle, they give us an 
opportunity to have our budgetary needs in those areas reflect 
our needs on the ground. As each supplemental comes along, 
we'll do our best to accurately reflect those costs, and you 
all have always stood with us in funding those costs. So, the 
supplemental system, as imperfect as it is, and fraught with 
the delays that it is, does allow us to meet the battle losses 
and the battle attrition, albeit in a delayed basis.
    Senator Lieberman. General Casey?
    General Casey. I'm not in a position to give you specific 
numbers, Senator, but my inclination is, probably not.
    Senator Lieberman. Probably not enough, at this point.
    General Casey. Probably not. As you said, the five 
additional brigades were outside of that, so we have to deal 
with that.
    Senator Lieberman. Excuse me. Just spell it out a little 
bit. I think I know what you mean, but in other words, to 
adequately equip those----
    General Casey. In our projections that were submitted--we 
weren't counting on having those five extra brigades over 
there.
    Senator Lieberman. So, that would mean additional 
equipment, obviously, and perhaps additional repair.
    General Casey. That's right, additional requirements for 
the repair of the equipment that these brigades take over there 
with them.
    Senator Lieberman. Okay.
    Mr. Geren. To those five new brigades, let me speak to 
that, because I don't want you to think that my answer 
neglected that piece of it. We do not have the money in the 
budget, going forward past the end of this year, for those five 
brigades, and that's something we will have to either reprogram 
or rebudget for.
    Senator Lieberman. Okay.
    Mr. Geren. As far as those five brigades, we do not have 
the money in the budget beyond the end of this fiscal year.
    Senator Lieberman. I appreciate that. So, as we are now 
working on the fiscal year 2008 budget, to begin October 1, to 
the best of your ability I ask you to try to come up with a 
number that you think you'll need, at least for that, which is 
the additional cost associated with those five additional 
brigades in battle.
    General Casey. The other thing we're likely to see is, if 
we want to go faster, it will cost more.
    If you want to grow the Army faster, it will cost more.
    Senator Lieberman. Right.
    General Casey. It will mean buying equipment sooner than we 
had thought, for example. It will, maybe, require building 
bases or military construction sooner than we thought. So, that 
could cause us to come in with some additional requirements, as 
we look through this.
    Senator Lieberman. Let me ask you about one specific 
program, because, in some ways, it comes off of the 
extraordinary display of advances in support for our troops 
that the soldiers here gave us, and that deals with the Land 
Warrior Program. The Army has not funded procurement of the 
Land Warrior Program in the fiscal 2008 budget, or not asked 
for funding, after years of development and a cost of about $2 
billion. Over the years, I'm afraid, the Land Warrior suffered 
not only from management plus performance and schedule 
problems, but also with requirements growth in challenges 
associated with so many information technology and software-
based programs. However, the Director, Operational Test and 
Evaluation (DOT&E) recently did an assessment of Land Warrior 
during tests with the 4th Battalion, 9th Infantry, a Stryker 
unit getting ready to deploy to Iraq.
    They gave a carefully-worded report, that I thought was 
encouraging, that said that the program was on track to be 
operationally effective and suitable, even though it hadn't 
completed its initial operational test. This adds to all that 
we've talked about, the extraordinary ability to communicate, 
to locate, and know where soldiers are. So, I'm troubled that 
this didn't get funded. I understand that you only had so much 
money in the budget. Obviously I'm concerned about all the 
money we've put into it. I think it adds capability. The fact 
that the Army listed it as an unfunded requirement means, 
literally, you consider it to be a top requirement, but simply 
didn't have the money to fund it.
    I wanted to ask you just to comment on where we are in Land 
Warrior, consistent with what we've seen. I think it's part of 
that whole picture of taking advantage of technology to put our 
troops in the best position we can. Should this committee, 
bottom line, look at funding Land Warrior in the fiscal year 
2008 budget?
    General Casey. Senator, I'm less than a millimeter deep on 
this one.
    Senator Lieberman. Okay.
    General Casey. I couldn't give you a good answer.
    Senator Lieberman. Okay. Understandable. Then we'll come 
back to Secretary Geren?
    Mr. Geren. I'm not familiar with the details of the 
decision. I know we did cut it from the budget. We have 
attempted to take the technologies of the Land Warrior Program 
and roll them into FCS, so we have the benefit of that research 
and the technological advances. I'd like to get back with you, 
with further details, but we have attempted to take the Land 
Warrior concept and make it a part of FCS.
    [The information referred to follows:]

    While the Land Warrior Program was terminated, the Army will not 
lose the capabilities resulting from the program. We learned a great 
deal about how to extend the network to the soldier that will guide our 
future efforts. The 4-9 Manchus (4/2 Stryker Brigade Combat Team), who 
conducted the Land Warrior limited user test, will deploy with Land 
Warrior to Iraq. This deployment will serve to inform work on Ground 
Soldier System and the integration of these capabilities into current 
and future forces.

    Senator Lieberman. Okay. I want to keep in touch with you 
on it, because, for one, I think it offers extraordinary 
additional capacity to our troops.
    Have you experienced it, Sergeant Major? Have you see the 
system?
    Sergeant Coleman. Yes, sir, I have.
    Senator Lieberman. What's your impression of it?
    Sergeant Coleman. The capability that it brings, I think, 
is impressive, and that's why 4/9 is taking it with them.
    Senator Lieberman. Yes, that's what I had understood.
    Sergeant Coleman. I'm not educated on it enough to sit here 
and talk in detail, but it does get them a little bit better 
connected to the network.
    Senator Lieberman. Just take a minute and describe it. I'm 
not asking you to make a judgment, which is not yours to make, 
about whether we should fund it or not, but just tell us what 
additional capacities it gives you and your forces?
    Sergeant Coleman. The biggest thing that I've seen--and, 
again, I am not extremely familiar with it, just vaguely 
familiar--what I've seen, though, is that it connects the 
soldier to the command group significantly quicker.
    Senator Lieberman. So, this is a unit that everybody would 
carry.
    Sergeant Coleman. It depends on your position, sir.
    Senator Lieberman. Yes.
    Sergeant Coleman. The ground soldier is still a ground 
soldier. He's focused on his 180 degrees to close with the 
enemy in his immediate front. But it gives a lot more to the 
leaders, as far as a link back to the command be that company 
or battalion.
    Senator Lieberman. Gotcha.
    Sergeant Coleman. It has some better optics, as far as 
getting on target, not necessarily at that level, but it can 
reach out there, and the squad leader can look through an 
eyepiece and identify where his people are at. He can get more 
accurate, and quicker, information to call for either indirect 
fire or close-air support from the command group for clearance, 
like I said, be that company or battalion.
    So, it's a big communication piece. A great example was 
that, at Fort Polk last year they were going after a high-value 
target (HVT), the target identity had changed, the battalion 
commander was able to get that down to the ground-pounders in 
realtime, and they were able to apprehend the HVT right there 
on the spot.
    So, in closing, sir, it's a good communication link to the 
better C2 levels that we have.
    Senator Lieberman. Right.
    I'm corrected by staff. I apologize. It is not on the 
unfunded priority list, it is an unfunded priority, but it 
didn't make the cut above the line.
    Mr. Geren. Sir, the smart guys behind me have provided me a 
little additional information.
    Senator Lieberman. Yes.
    Mr. Geren. Money for R&D for the system is in our 2008 
budget.
    Senator Lieberman. Right.
    Mr. Geren. The program was canceled, for budgetary reasons, 
and also weight/power limitations. But the R&D is staying 
alive, and we're, again, working to incorporate it in the FCS.
    Senator Lieberman. Okay. Thanks very much. We're interested 
in that.
    Senator Warner, I presume you did not have a round of 
questioning?
    Senator Warner. That's correct.
    Senator Lieberman. I would be delighted to call on you now.
    Senator Warner. I thank the usual courtesy of the Chair and 
my ranking member, and I join you in welcoming this 
distinguished panel. I would only say to you that, as I reflect 
back on history, I can think of few times in contemporary 
history when there's been more turbulence and challenge, and 
we're fortunate that both of you draw on extensive public 
service, previous service, and have the knowledge and the 
courage to tackle the unknown. You're dealing with a lot of 
unknowns in this situation.
    I would just like to start off that, and I'm respectful of 
the differing views in Congress today as it relates to our 
Nation's policies in Iraq and Afghanistan, I do find a very 
united front among the people of the United States in standing 
foursquare behind the uniformed personnel of all of our Armed 
Forces. It's quite unlike what some of us experienced when we 
were in positions that you are now in during the Vietnam war. 
But today, America has in its hearts, every day, these young 
people in uniform, most particularly those that are serving in 
Iraq and Afghanistan and other places of the world where 
there's a high risk.
    I appreciate, Mr. Secretary, your reference to the All-
Volunteer Force. It is something that I view is a national 
treasure. It was conceived at a time when there were a lot of 
unknowns in the immediate closing days of Vietnam and the years 
afterwards, but it has worked, and has successfully served this 
Nation, and served the men and women who have been in uniform. 
There's a great deal of reliance that one can put on your 
fellow soldier, sailor, airman, and marine, knowing that he or 
she is there because they want to be there, and they accept the 
risk commensurate with what you're accepting. It has worked.
    We have to make sure that, in these uncertain times ahead, 
you can continue to preserve that national treasure. I hope, as 
I mentioned in a previous hearing, that you will put in place, 
gentlemen, those guideposts, those benchmarks, maybe not unlike 
this roadside monitoring system, put all kinds of monitors out 
there to watch it, because it could turn, very quickly, one 
direction or the other.
    As I look at the next 6 months, they're going to be months 
of very difficult decisions between the executive and the 
legislative branches, and I'm hoping for the best. But the 
challenge is squarely in your lap to not only maintain the 
Army, but to let it grow, and grow in an orderly way.
    I think the record should reflect, certainly, the views of 
this Senator, that in no way could you look to this population, 
which is highly supportive of the uniform today, to support any 
initiatives in Congress to reinstate a compulsory service in 
the form of a draft or whatever name might be attached to it. I 
do not see that as an option, and I would urge you never to 
even think about it as a planning factor for the future.
    I then turn to several parts of the program, as I see it 
today, and I was struck, yesterday--impressed, indeed, if I may 
say, General Casey, with General Bell. I have dealt with a 
series of very fine individuals who have served in that command 
in the Korean Peninsula. He handled himself remarkably well, in 
my judgment, on a broad range of issues and questions. But the 
one thing that struck me is that he is considering a plan 
whereby the current service tour of an Army person in Korea 
would be 3 years, and that would involve the family. Certainly, 
for that extended period of time, it's essential that the 
family be a part of it. Now, that's a major shift in the over-
half-century that our forces have been an integral part of the 
security structure in that Korean Peninsula. Heretofore, we've 
used the unaccompanied tour, I think, basically, for a year. 
Now, having had some modest experience, myself, there, a half-
century ago, the weather is really extraordinary. That's a 
challenge to families and young children and the like.
    But I want to make certain that this plan has to originate 
with the Secretary and the Chief of Staff, as opposed, with no 
disrespect, to a forward-deployed commander. Could you advise 
me where you are in that thinking process of that 3-year 
commitment?
    Mr. Geren. I've not been briefed on that, Senator. I was 
not aware of that plan. I did meet with General Bell a couple 
of days ago, and covered several issues, but we did not discuss 
that one.
    Senator Warner. Then, let me say, I think it's a matter of 
some urgency, for the following reason; not that he would go 
off on his own without the concurrence of the apparatus, in 
other words you and headquarters, that have to look over the 
entire Army and tours. We're already going through the 
perturbations of the 15 month deployment in Iraq. Then troops, 
being what they are, they hear, ``Well, it's 3 years in Korea, 
and there's 15 months in Iraq,'' and this all begins to feed a 
certain amount of uncertainty, I would think, in the ranks, at 
what their next posting might involve.
    I think you have to look to a certain degree of uniformity, 
if I may say, and I would work with General Bell. There may be 
valid reasons for that policy to be adopted. But, if it is, 
it's strikingly different, is my understanding, than any other 
overseas deployment. Am I correct in that assumption?
    General Casey. You are, and we talked a little bit about 
this.
    Senator Warner. Who is the ``we''?
    General Casey. We, the former commander there, General 
LaPorte and I. We offered the opportunity, in fact, bonuses to 
extend over there, because the Korean economy has risen such 
that it can provide a quality of life that is not what it used 
to be.
    Senator Warner. Oh, yes. Its cost is significant.
    General Casey. I'm actually, Senator, heading there next 
week.
    Senator Warner. Okay. Then you're on top of it.
    General Casey. Yes.
    Senator Warner. But I think the uniformity, or the extent 
you have uniformity, has to originate right where these two 
seats are that you're occupying.
    General Casey. Yes, sir.
    Mr. Geren. That decision certainly would be secretarial and 
Chief of Staff level.
    Senator Warner. All right, that's fine. Let me move on.
    We come to the question of our Army people serving in Iraq, 
and alongside is a fellow marine. He may not be more than a 
couple of miles away, in his sector, fighting courageously, yet 
he's there for 6-7 months versus your 15 months. Now, how do 
you deal with that issue? From a morale standpoint, primarily.
    Mr. Geren. Right.
    Senator Warner. I realize these tours are driven very 
carefully by planning doctrines and those back in the various 
headquarters that look at these issues. But I'm talking about 
the good old GI up there, day in and day out, plugging along, 
and he's getting his e-mails from home, and he's hearing about 
the marines coming home, and he's staying. How do you work 
through that?
    General Casey. I think the Chairman of the Joint Chiefs 
talked about that earlier.
    Clearly, both Services are on their own deployment cycles 
for their own Service needs. I'll get this wrong, but 
basically, the marines have a shorter dwell time on the other 
end.
    Senator Warner. That's correct.
    Anyway, you're getting too complicated. All I'm saying, 
gentlemen, you have to take a look at those little things and 
see how they work.
    General Casey. When you look at it over time, Senator, it 
doesn't come out all that different, maybe a month or two, one 
way or the other.
    Senator Warner. Can you explain that to the good old 
American GI that's down there?
    General Casey. I wouldn't want to, probably the GI, not his 
wife.
    Senator Warner. Well, therein is a challenge.
    Now, this 15-month deployment, we've now had it in the 
public domain and being considered by the units. How 
successfully is it going down with the troops, in your 
judgment, General?
    General Casey. I've had direct feedback from groups of 
spouses and soldiers in the installations that my wife and I 
have visited, and I've had feedback from the field. I would 
characterize it as resignation, certainly not happy about the 
extension, but they understand. I do think it's important that 
we did it for some very sound reasons, and we actually, as a 
result, have given the families about as much predictability as 
we could give them in what's a very uncertain and unpredictable 
environment. I think the most important thing is the 12 months 
at home.
    Senator Warner. All of us study a great deal about what's 
going on in Iraq, but am I correct that the Iraqi units that 
were brought in to, as the President said, take the lead in the 
surge operation, are going to be there for a period of maybe 
only 90 to 120 days, then rotated out and replaced by other 
units? Now, there again, I'll go to the good old American GI. 
He's in there, and he's in there for the duration of that 
surge, and he sees the Iraqi forces, whom presumably he's 
working with, rotating back to their home base or from whence 
they came, and another unit coming in. Now, what impact does 
that have on morale?
    General Casey. I think that would be a good question for 
General Petraeus, this afternoon.
    Senator Warner. Very well, I will quote you as saying that 
``therein resides the answer to that question.'' [Laughter.]
    To me, these are matters of great consequence, because, 
modest though it be, I have some specific recollections of 
experiences where there was a difference in treatment of people 
and personnel issues, and it just diverts the attention of a 
conscientious soldier, sailor, airman, or marine from his or 
her job, when he hears that some other person is getting a 
little better deal than perhaps they're getting.
    I thank the Chair.
    Senator Lieberman. Thank you very much, Senator Warner.
    Senator Sessions.
    Senator Sessions. Secretary Geren and General Casey, the 
DOD has been very clear that we have a policy that is to ensure 
the National Guard has unprecedented equipment and support over 
a period of years, and that we have a firm commitment to 
bringing them up to readiness in that regard.
    Based on the extended tours in Iraq, the movement of 
equipment to Iraq, the budget challenges that you face, and 
other things that have occurred, can you tell us, is that plan 
on track? Can I go back to my State and say, ``We have a plan 
that's going to fix these shortages of equipment'' or is it 
something that's in jeopardy at this point?
    Mr. Geren. The plan that we have described to you in the 
past is on track. For the Guard, it's $38 billion in new 
equipment between 2005 and 2013; for the Reserves, it's $10 
billion.
    Senator Sessions. Now, I believe General Schoomaker said 
that's an unprecedented financial equipment support package. 
Would you describe it that way?
    Mr. Geren. It is unprecedented, and it's a real break from 
the past, as far as how we treated the Guard. We're committed 
to equipping the Guard and the Reserve so that they train the 
same way the Active-Duty Force trains, and able to deploy with 
the same kind of training and same kind of equipment. We are 
examining now whether that $38 billion gets it all done. It 
probably falls a little short. But, yes, it is unprecedented. 
It's an investment that is going to do a great deal to bring 
the Guard up to the standards of the Active Duty, instead of 
having them be content with out-of-date equipment and out-of-
date training.
    Senator Sessions. So, are there threats to this part of the 
budget? I guess Congress can fail to fund in the out years the 
requirements to make this a success. Is the Defense Department 
committed to asking for what it takes to get this done?
    Mr. Geren. Yes, it is. Those figures are actually in our 5-
year budget plan. The $38 billion for 2005 to 2013, and the $10 
billion for the Reserves, those are in our budget.
    Senator Sessions. Set aside in your budget, and if it 
doesn't get there, it's because Congress or the President 
blocked it or unless you change your mind.
    Mr. Geren. It's in the budget approved by the President.
    Senator Sessions. General Casey, do you support that 
concept of fully equipping the Guard and Reserve, and is by 
2013 sufficient time, or does it need to be done sooner?
    General Casey. We'd like it done sooner, but I'm not sure 
we can. But, I think, before you came in, I mentioned that my 
transition team has spun out six initiatives. One of them is to 
complete the transition of the Reserve component to the 
operational force that we need it to be, while still preserving 
their citizen-soldier status. The equipping is the major part 
of that. I don't know whether they need to be fully-equipped 
all the time, but they clearly need to be equipped well enough 
to meet the Governors' needs, to have some equipment to 
basically train on, and then they need to have the equipment 
they're going to fight with, to train with before they go. I 
think we can be creative enough to work with the Reserve 
components to figure out how to do that. I'm committed to doing 
that.
    Senator Sessions. I think that can allay some of the 
concerns that we have. Although we do have a window period now, 
I think that a lot of the units are not rated ready to deploy 
because of the lack of equipment.
    Would you say, and would you care to comment, that the 
ability of the units to deploy is not impacted with regard to 
an Iraq deployment, because they will fall in on equipment 
that's there, as opposed to some other deployment?
    General Casey. Yes, I think, as General Schoomaker has 
testified in the posture hearings, it is the readiness of the 
next-to-deploy forces that are the challenges. The ones going 
to Iraq get the equipment that they need.
    Senator Sessions. One of the things we heard about from 
General McCaffrey, Lawrence Korb, and General Scales is a 
shortage of middle-grade officers, captains, and majors. I've 
heard that some of that is due to the new brigade concept 
calling for more captains and majors than we heretofore 
expected to need; therefore, that could explain some of our 
shortage.
    Would you give us a rundown on where we are with regard to 
majors and captains, if there's a shortage, and how our 
retention is going?
    General Casey. Do you want to do that?
    Mr. Geren. Go ahead.
    General Casey. I think there's two reasons we're short 
those mid-grade officers. One is, we under-assessed in the 
1990s. The major today came in the Army in 1997, and there were 
year groups we didn't recruit enough folks into, so we are 
starting off short some majors in year groups now. The second 
reason is exactly what you said. There are more majors in these 
modular brigade headquarters. I'd go around to meet each of the 
new brigades as they came into Iraq. When I was a brigade 
commander, I had two majors in my brigade headquarters. I'd go 
down, and I'd say, ``Hello, Major So and So, the personnel 
officer; Major So and So, the intelligence officer; Lieutenant 
Colonel So and So, the operations officer; Major So and So, the 
logistics officer.'' They were all majors. It made a quantum 
difference in the tasks that these brigades could handle in 
Iraq. So, it's the right thing to do, but, you're exactly 
right, it's a major reason for the current shortages.
    Mr. Geren. Let me mention, there is a third contributing 
factor, as well, though. We do have attrition in those grades 
that's above our average. It's not greatly above it, but it is 
above it, and it's a high-demand grade. We recognize that and 
we're putting incentives in place to try to retain captains and 
majors. We have a proposed menu of incentives for captains that 
includes a $20,000 bonus, post of choice, branch of choice, and 
providing opportunities for graduate school recognizing the 
professional development needs of these young men and young 
women and using it to encourage them to stay in the Service. 
So, the Chief mentioned two reasons, but this third one's also 
a factor. Again, not a big factor, but it is part of the 
equation.
    Senator Sessions. So, you're slightly below your retention 
goals for majors/captains.
    Mr. Geren. We are.
    Senator Sessions. You need more majors and captains. You 
can't snap your fingers to create a major or a captain, because 
it's how long to be major? How many years, normally?
    General Casey. Eight to 10 years, I think.
    Senator Sessions. Eight to 10 years. So, it takes that much 
time to produce a major?
    General Casey. We have to retain more captains to fix our 
major shortage.
    Senator Sessions. How serious do you consider that to be? 
Is it an indicator that we're placing too many demands on the 
young officers?
    General Casey. I think it is something that we have to 
continue to take action to mitigate and it's going to take us 3 
years to get through this period here, particularly with the 
majors.
    I personally believe that putting the additional majors 
into the structure is very important for the types of 
operations that we are going to be conducting in the middle 
part of the 20th century. So, yes, it stretches us, but I 
believe it's very important to give our units the capabilities 
they need to succeed when we deploy them. So, I think it's 
worth the risk.
    Senator Sessions. I'm thinking of Korea, having been there 
a couple of times, and seen the inadequate housing, and know 
it's mainly unaccompanied tours. This is my thought. Let me 
just express it to you. I'm not exactly sure what Senator 
Warner's thoughts were on it, but my thought would be, let's 
reduce, as much as we can, the number of personnel we commit to 
Korea. Let's make as much of that accompanied tours as possible 
so that when we do have to deploy an Army person to a hostile 
area of the world where it's unaccompanied, that'll be 1 less 
year they've been away from their family. Is that a goal?
    General Casey. I wouldn't call it a goal, but it's a good 
idea.
    Senator Sessions. If we have to spend a little more on 
housing, I'd say, let's do it, because the housing in Korea is 
inadequate. I've seen that housing, and I hope that you'll look 
at the cost and how we do that, but it's a high-cost area. I 
think it would be a mistake to shortchange that investment, 
particularly in light of the fact that the Koreans are, 
themselves, paying about three-fourths of the move. We ought to 
follow through and create housing for no more people than we 
really need in Korea, and then make it good, so it's not seen 
as a hardship tour in a person's career in the Army.
    My time is up, so unless you have a comment, we'll leave it 
at that.
    Senator Lieberman. Thanks very much, Senator Sessions.
    Senator Cornyn.
    Senator Cornyn. General Casey, I want to take the 
opportunity to get your impressions about how things are going 
in Baghdad, generally. I know we are here to talk about Airland 
Subcommittee issues, and we'll do that some more, but, from the 
benefit of having served in Baghdad in charge of our forces 
there for a long time, and, with General Petraeus, the new 
strategy that's being employed there, could you give us a 
minute or two of your general impressions about how you think 
things are going?
    General Casey. I think Dave will give you his insights this 
afternoon, which are much more current than mine would be.
    But I think what I said when I was there was, we'll start 
to see some initial results, but we weren't going to really see 
if this impacted until late summer. From what I see, they're on 
track for that. They're seeing some improvements in the numbers 
of people that are killed in murders, that's falling off. But 
they're really wrestling with these car bombs, these large-
scale car bombs, and that was something that frustrated my 
folks when we were there.
    What I don't have as good a feel for as I did when I was 
doing it every day is what's happening on the political side. 
That's where the progress has to continue. I'm actually hearing 
some less positive news about where the oil agreement is. If 
that starts splitting, that would be problematic, because they 
have to have a couple of big pieces to tie this reconciliation 
initiative together. Oil is one of them.
    Senator Cornyn. I appreciate your comments, and we'll ask 
General Petraeus this afternoon when we get an opportunity. But 
I personally get a little bit frustrated when I hear people 
say, ``There is no military solution, there's only a political 
solution.'' But it strikes me that there is no political 
solution without a security solution. Obviously, our goal is to 
hand this security situation off to the Iraqis as soon as we 
can, as soon as conditions permit. But it seems to me that it's 
not one or the other. It has to be both.
    General Casey. They have to go forward together.
    Senator Sessions. Senator Cornyn, can I just follow with 
one question?
    Senator Cornyn. Sure.
    Senator Sessions. With regard to these large-scale car 
bombs, to what extent is that the al Qaeda activity in Iraq?
    General Casey. I think it's a combination of al Qaeda and 
other Sunni extremists.
    Senator Cornyn. Thank you. That's an important point.
    I've been intrigued, General Casey, there's been some 
recent reporting in the newspapers. General Abizaid was 
credited with coining the phrase ``the long war.'' I'm not sure 
whether that was justified or whether he was just attributed 
with that phrase. But I saw a report that said that Admiral 
Fallon, his successor at U.S. Central Command, has said, 
``We're not going to use that language anymore. We're not going 
to call it the long war.'' But then, you were quoted recently, 
as saying, ``The next decade is likely to be one of persistent 
conflict.'' As somebody who's interested in words, and 
believing that words actually have intended meaning, could you 
comment on that?
    General Casey. Sure. That ``persistent conflict'' came from 
the feedback that my transition team got from going around the 
country talking to people about the future. Whether it's a long 
war or persistent conflict, the flat fact of the matter is, we 
are engaged in a long-term struggle with an enemy that has 
attacked us and who's not going to walk off the field easily. 
So, as we prepare ourselves and look ahead across the next 
decade, we should prepare ourselves for a tough slog, I'd say.
    Senator Cornyn. Should we read a lot into the word choice 
between ``persistent conflict'' and ``long war''?
    General Casey. I don't know anything about the dialogue 
about ``long war'' or ``not long war.'' I don't know anything 
about that. I certainly didn't choose ``persistent conflict'' 
to get away from saying ``long war.'' That's the way it was 
presented to me by the group that I sent out there.
    Senator Cornyn. That's very helpful.
    Following up on Senator Sessions' question, regardless of 
what's happening with the sectarian violence, the fact remains 
that al Qaeda has a substantial presence in Iraq. Is it your 
belief that al Qaeda's primary mission is to maintain maximum 
chaos by inciting and inflaming that sectarian violence, or 
could you comment on that, as well?
    General Casey. In their own words, Senator--this is from 
some papers we captured a few years ago--they want to get us 
out, they want to establish a caliphate, and export terror to 
the region, and then get on to Israel. That's the plan. I 
believe this sectarian violence that they're trying to foment 
is the way to create so much chaos that they'll ultimately 
think they can force us out.
    Senator Cornyn. I want to ask you about UAVs, since we have 
one that has been demonstrated here today, or at least shown to 
us. The Air Force has recently asserted that it should be 
designated as executive agent for UAVs that fly above 3,500 
feet. It's reported, I'm told, that 60 percent of the Army's 
UAVs fly above that altitude. Since the Air Force isn't here, 
and the Army is, I wanted to get your views on that, and we'll 
give them equal opportunity at some other time. In your 
opinion, how could the Services best deliver joint UAV 
training, planning, doctrine, and technology? How can we 
prevent duplicative effort without having an executive agent 
for UAVs? What alternatives would you suggest to the Air 
Force's recent assertion that it should be designated as the 
executive agent for UAVs?
    General Casey. General Moseley and I have already talked 
and begun a dialogue. It was his initiative that he and I ought 
to get together and direct another round of Chief of Staff of 
the Army, Chief of Staff of the Air Force, initiatives like 
they did back in the 1980s. This will be one of them. It's 
almost the same issue as bombers. Can you do more if you keep 
things centralized, or decentralized? We can work through this. 
We will work through this, between us and the Air Force, to 
ensure that all of our forces get the timely intelligence that 
they need to accomplish their missions.
    Senator Cornyn. I certainly appreciate that.
    The last subject I want to talk about in this round is 
military medicine. Of course, I think both of you alluded to 
Walter Reed, and Walter Reed, Building 18, has become a symbol. 
Unfortunately, I think it's an erroneous symbol in many 
respects. In terms of the housing, and the lack of maintenance 
of that building, clearly there were problems that cannot be 
excused. I think Senator Lieberman actually used the word 
``embarrassing.'' Those revelations were embarrassing to all of 
us, because I think all of our impression was that we were 
doing everything humanly possible to provide optimal housing 
conditions for our troops, and particularly in terms of 
delivery of military medicine.
    The statistics are very impressive. World War II, 30 
percent of our troops who were injured, died of their wounds; 
now it's less than 10 percent. That's very positive. I should 
report to you that my last two visits to Brooke Army Medical 
Center in San Antonio, excuse my State pride, perhaps, but----
    Mr. Geren. I'll excuse it, sir. [Laughter.]
    Senator Cornyn. I know you will, Secretary Geren, being 
from Fort Worth. [Laughter.]
    If there is a crown jewel of military medicine, I think, if 
it's not Brooke Army Medical Center, it has to be right there 
at the top. I was concerned with some of the types of injuries 
that our troops are receiving. They are surviving wounds that 
previously would have taken their lives, particularly the 
soldiers, sailors, marines, and airmen who are suffering from 
burn wounds. I believe that we need to modify some of our 
provisions with regard to housing allowances, vehicle 
enhancements, and the like, when it comes to our burned wounded 
warriors. Both of these things were brought to my attention by 
a woman by the name of Rosie Babin, whose son was shot by a 
sniper in 2003, and happens to now be recovering and living 
with his family. There are restrictions on housing allowances 
if you are living with your family, but we're actually 
benefiting, and he's benefiting, from that arrangement. Then 
there is a young woman named Christy Patton, whose son, Everett 
Patton, was seriously burned by an IED, and she brought to my 
attention there were some limitations on housing and other 
grants and benefits available to people who are burned. It's 
not intentional, it simply appears to be something that's 
fallen through the gap.
    I've introduced some legislation, along with Senator Akaka, 
Senator Craig, and others, to try to address that, and I would 
just invite your attention to that issue, and ask for any 
feedback, advice, and support you can give us in trying to 
address those concerns, and to make sure that there aren't 
people who fall into gaps that we should fill.
    Mr. Geren. I appreciate that input very much. I'd also like 
to have an opportunity to follow up with the two individuals 
whose names you mentioned.
    We all were shocked about what happened at Walter Reed, and 
we know it's an aberration. We know our military medical 
professionals, all the way from the medic in the field to the 
nurses and the technicians and the doctors in our hospitals, 
perform miracles. You alluded to the results, the survival 
rates. But we let some people down at Walter Reed. We did. As a 
result of that, we are looking at putting a microscope to the 
whole system. We're talking with patients, with people, and 
with medical professionals. We're trying to take lessons 
learned at different medical centers, and spread them across 
the system. The Chief talked about how we have some programs 
for families that are done one way at some facility, and 
differently somewhere else. We are trying to spread the best 
practices across the entire medical system, and make sure we do 
it the best way we can everywhere we do it.
    Your input today is very valuable. We have had some others 
raise concerns about our treatment of burn victims. We'd like 
to talk with those two individuals that you mentioned. We look 
forward to working with you on that.
    Senator Cornyn. As always, the response of the wounded 
warriors is an inspiration. I remember one of my recent trips 
to the burn center there at Brooke Army Medical Center, I 
encountered a soldier, wearing his uniform, who had obviously 
suffered serious burns. His first question was, ``When can I 
get back to my unit?'' That's the statement I hear most often 
from people I visit at our military hospitals.
    Thank you. My time's expired.
    Senator Lieberman. Thanks, Senator Cornyn.
    I think we've all had that same experience, and there's no 
other word for it than inspirational, and, in some sense, 
humbling.
    Senator Sessions, you are entitled, now, to your second 
round.
    Senator Sessions. You're very generous.
    We don't want to have an interservice fight, but I share 
the concern about the UAV, and have expressed it at previous 
hearings. Also at the hearing in which Generals Scales, 
McCaffrey, Korb, and Krepinevich testified. They suggested that 
we needed many more C-17s. One witness, I believe, questioned 
even whether C-130s and C-5As should be kept. Of course, we're 
doing a refueling tanker now that could have more or less cargo 
capability, all of which is relevant to the warfighter. One or 
more of them just flat stated that the Air Force is more 
interested in their fighter, their primary missions, and 
suggested there was a lack of attention for the combatant 
commanders, which you were, and you had to get cargo constantly 
by air. Will you be reviewing that? Do you feel like the 
system, General Casey, will allow you sufficient input to make 
sure that the cargo capacity and the lift capacity needed for 
the warfighter is there?
    General Casey. We always evaluate transportation 
requirements, but I just happened to be talking with Nordie 
Schwartz, the U.S. Transportation Command commander, the other 
day, and I asked him the same question, ``Do we need more C-
17s?'' He generally said, ``To a point, we probably could use 
some more, particularly with an aging C-5 fleet.'' He's working 
his way through that right now, and I think he's probably the 
right guy with the Air Force to give you a good recommendation 
on that.
    Senator Sessions. To what extent do the combatant 
commanders' needs sufficiently move through the system to the 
decisionmaking authority? Do you think we could do better on 
that?
    General Casey. There's an established process for the 
combatant commander to submit joint requirements annually, and 
it's a routine process. I think all the combatant commanders go 
through their war plans, look at the timelines that forces can 
deploy on, decide whether or not there's enough transportation 
assets available, and that generates the requirement. So, 
there's a process that exists to do that, Senator.
    Senator Sessions. Sometimes those processes don't always 
work. I assume it does work. I know that process exists.
    I thank both of you for your service. Personally, I am 
astounded, and so pleased, with the professionalism, the 
dedication, and the courage of the American soldiers, who are 
re-enlisting in remarkable numbers, even though they know that 
re-enlistment means they're likely to go back into a combat 
area. We've never really done that before; that recruitment 
seems to be holding up. We must also make sure that we don't go 
too far, and that we do everything possible to make sure that 
this fabulous volunteer Army holds together. I think it will. 
I'll just conclude by saying I urge you to keep us informed. If 
you see problems that need to be addressed, I hope you'll not 
hesitate to come to Congress and ask for support.
    Mr. Geren. I can assure you we will, thank you.
    Senator Lieberman. Thanks, Senator Sessions.
    Mr. Secretary, General, you've been generous with your 
time. I want to ask you two more questions, if I might.
    I know Senator Sessions and I have talked about it. 
Notwithstanding the substantial increase in the defense budget 
for fiscal year 2008 that's recommended, the fact is that we 
still are at a historic low on defense spending as a percentage 
of gross domestic product at a time of war. We're actually 
lower than the average, even in peacetime. This forces you to 
spend the money most effectively, obviously, and to make some 
tough choices that, in my opinion, you shouldn't have to make. 
So, let me ask two questions that express both of those 
concerns that I have.
    First, I note that on the UPL we see some critical force 
protection items such as the MRAP vehicles that Senator Cornyn 
asked about before, aviation survivability equipment, and 
counter-IED jammers. Those are immediate needs for force 
protection in the conflict we're in now. On the other hand, and 
I'm not opposed to it at all, understandably, upgrades for the 
Abrams and Bradley vehicles are funded. So, it just seems to me 
that it's hard to explain why we wouldn't fund those critical 
force protection items. I'm certainly going to see if we can 
find a way to do it within our process here. I want to ask you 
if you could comment, Secretary Geren, about those judgments, 
and if we can't raise the top line, what would you try to move 
around to fund those force protection shortfalls?
    Mr. Geren. I can't offer you specific examples right now, 
but General Casey and I have discussed some of those force 
protection issues; specifically, the MRAPs.
    Senator Lieberman. Yes.
    Mr. Geren. The recommendation that has come to us from the 
staff is for the Army to buy 2,500 MRAPs; 700 of them are in 
the supplemental request, the rest of them remain unfunded.
    I'm not confident that the 2,500 number is the right 
number. It perhaps should be more.
    Senator Lieberman. We've heard much higher numbers.
    Mr. Geren. The number that came from the field was 17,000, 
total replacement of the Humvee fleet.
    Senator Lieberman. That's the one I heard, yes.
    Mr. Geren. The Marines are proceeding with the plan to 
replace their entire fleet.
    Senator Lieberman. So that the MRAPs are going to take the 
place of the Humvees for the Marines.
    Mr. Geren. For the Marines in theater.
    Senator Lieberman. Right.
    Mr. Geren. Yes, sir. We are going to examine that 
recommendation closely. We're also going to look within the 
budget and see if we can move funds around to weigh this 
priority against the other priorities. In spite of the size of 
the budget, there are many competing priorities.
    Senator Lieberman. Right.
    Mr. Geren. But it's an issue that is at the top of our list 
to work through.
    Senator Lieberman. Okay. So, let's work through that 
together as we go through our process.
    Final question. It's a big one, so you can begin to give me 
an answer, but this goes back to the FCS. At the hearing, that 
has been referred to, last week, there was quite a dialogue, 
which was really a debate, between Dr. Krepinevich and retired 
General Scales about FCS. Dr. Krepinevich thought that from now 
to 2020, America's going to be in a persistent state of 
conflict with this enemy, Islamist extremism and terrorism. Dr. 
Krepinevich made the argument that too much of the DOD budget 
overall, and particularly the Army, was still more focused on 
conventional threats. He referred to Saddam's Republican Guards 
as opposed to the irregular warfare threats that are 
represented by al Qaeda and the extremists. He was suggesting, 
particularly that this is true of the FCS, and that it wasn't 
worth spending the projected $200 billion on that system for 
that purpose, but if it was going to go forward, it ought to be 
reoriented toward the kind of persistent conflict we're most 
likely to face in the next decade-plus.
    So, the full committee having heard that last week, I 
wanted to give you a chance to respond to that critique of the 
FCS.
    General Casey. I fundamentally disagree with that.
    Senator Lieberman. Okay.
    General Casey. In fact, if you think about what the 
alternatives to FCS are, it's modernizing the tanks and 
Bradleys that were designed to fight the Cold War.
    Senator Lieberman. Yes.
    General Casey. What you're seeing here today is the 
application of technology in, for example, a counterinsurgency 
fight, which has always been a human-intelligence battle. Now, 
with the type of technologies that we're developing for the 
FCS, we have much better situational awareness, and we have the 
ability to find and track individuals. It's happening in Iraq 
today.
    The FCS gives you greater mobility at the tactical, 
operation, and strategic levels. It has better sustainability, 
which reduces the footprint. It has actually allowed us to 
reduce the overall size of the entire brigade, and at the same 
time, double the number of infantry that are available to make 
contact with the population, to do the kinds of things that 
make you successful in the military operations we're going to 
be facing in the middle of the 21st century. Survivability is 
greatly improved, not only by the system itself, but by the 
information systems and the intelligence systems that support 
it. So, they can avoid being detected and avoid being hit, and 
when they are hit, the vehicle is designed to prevent a kill.
    So, I really disagree with the fact that this is a Cold War 
system. I think this is exactly the kind of system that we 
need. I think I saw a preview of what we're going to get out of 
the FCS with the Stryker Brigades in Iraq. They were the most 
capable and most effective unit in a counterinsurgency 
environment, largely because of the way that they were linked 
together.
    So, I disagree with Mr. Krepinevich.
    Senator Lieberman. Secretary, do you want to add anything?
    Mr. Geren. I don't know that I could add to that. I agree 
with General Casey. We are attempting to not only do the 
spinouts, but build the system responsive to the needs of the 
soldier in the field. It's an evolving concept. The FCS 
continues to improve and be more responsive to the soldiers in 
the field. You heard from soldiers that actually use this. 
You've talked to the people that are developing it. Every step 
of the way, we're getting input from soldiers in the field. 
This is not a system that's being developed out of contact, out 
of connection with the people that are going to be using it, 
who are fighting this fight.
    Senator Lieberman. Thanks very much.
    Senator Sessions, do you have any other questions?
    Senator Sessions. No, thank you.
    Thank you, Mr. Chairman. It's a pleasure to serve with you, 
and thank you for your leadership.
    Senator Lieberman. To you, too, Senator, thank you.
    Mr. Secretary, General, thanks very much for your time. 
General, thanks for coming in early in your tenure as the Chief 
of Staff. I go back to what I said at the beginning. I think 
most of us feel that the U.S. Army is the best in the world, 
maybe the best ever in the world. It's not broken, but it is 
under stress as a result of the enormous additional demands we 
are placing on it as part of the global war on terrorism.
    We have an obligation to do everything we can, together, 
you, on your end of the table, and we, on our end, to remove 
the sources of that stress as much as we possibly can. I know 
that's a thought that's generally shared in Congress, but I do 
want you to feel that this subcommittee wants to be as 
aggressive an advocate as we can be for the Army. We want to 
work together closely and depend on you for information as to 
how to most effectively do that. I'm just thinking, I 
appreciate, General Casey, what you're looking at, speeding up 
the increase in end strength, and also, considering what the 
unexpected, unbudgeted, unasked-for additional costs of the 
surge will be, going into next fiscal year. I don't know 
whether it's going to be possible, on your timetable, but if 
you come to a plan, General, for getting that extra 65,000 
earlier, and it, in your considered judgment, requires some 
additional funding for next fiscal year, it happens not to come 
out of this subcommittee, it comes out of the Personnel 
Subcommittee, but please share it with us, and then we want to 
help you do that as quickly as possible.
    General Casey. I'll do that.
    Senator Lieberman. I thank you very much.
    Senator Cornyn, do you have any closing remarks you'd like 
to offer?
    Senator Cornyn. None, except to express my gratitude, and I 
look forward to working with both of you. My appreciation to 
the Chairman for calling this important hearing. We have a lot 
of work ahead of us, and I look forward to working with you.
    Senator Lieberman. Thanks.
    Senator Sessions.
    Senator Sessions. Mr. Chairman, I'd just like to express my 
appreciation to General Casey. He's come back from Iraq, and 
taken over this Chief of Staff position, but one of his first 
things to do was travel around the country to our military 
bases, with his wife, to determine the morale, the family 
situation, and what can be done to improve it. I think that's 
good leadership, and something we appreciate.
    Senator Lieberman. Amen.
    General Casey. Thank you, Senator.
    Senator Cornyn. If I can also include these soldiers, over 
here against the wall as part of our appreciation.
    Senator Lieberman. We all join in thanking you. God bless 
you in your service.
    We're going to leave the record of this hearing open for an 
additional 10 days, if either of you want to submit any 
additional responses or we have any additional questions for 
you.
    In the meantime, you have our thanks and our prayers.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

          Question Submitted by Senator Hillary Rodham Clinton

                       CURRENT FIRE SCOUT UTILITY

    1. Senator Clinton. Secretary Geren and General Casey, the Army 
will have eight Fire Scout air frames available in 2007, however 
because of fielding delays of the Joint Tactical Radio System (JTRS) 
Cluster 1 and the Future Combat Systems (FCS), these eight Fire Scout 
air frames will be placed in storage until the JTRS Cluster 1 and FCS 
systems come on line. As a result the Fire Scout is not expected to 
conduct its first flight until 2011. Recent testimony and reports from 
deployed commanders indicate that increased unmanned aerial vehicle 
coverage, if available, could be employed to assist in improvised 
explosive device detection though continuous aerial surveillance. Can 
the U.S. Army deploy the eight Fire Scouts today as currently 
configured to meet this critical combat surveillance requirement?
    Mr. Geren and General Casey. The eight Class IV Unmanned Aircraft 
System (UAS) you reference are pre-production air frames only. Five of 
the eight airframes have been delivered to date. When the vehicles are 
delivered from the contractor, the air vehicles consist of an airframe, 
engine, transmission, rotor, and blades. They contain no sensor, 
communications equipment, avionics or survivability equipment, nor are 
they cabled to receive this equipment.
    The UAS Class IV Preliminary Design Review is July 2008, the 
Critical Design Review is July 2009, and First Flight is November 2010. 
These dates are synchronized with the current overall FCS integrated 
schedule. FCS has been working with Northrop Grumman, developer of the 
Class IV, to explore earlier flight opportunities, but 3 continuous 
years of decrements to the FCS budget limit the Army's ability to 
achieve these opportunities. The FCS Class IV is meeting cost, 
schedule, and performance objectives. Following System Integration, the 
Army will assess the technical performance of the Class IV to determine 
any potential acceleration opportunities.
                                 ______
                                 
               Questions Submitted by Senator John Warner

         IMPACT OF ARMY END STRENGTH INCREASES ON GLOBAL BASING

    2. Senator Warner. Secretary Geren and General Casey, recent press 
accounts have hinted that the Department of the Army is reconsidering 
the drawdown of Army forces in Europe originally announced by the 
President in 2004 as part of the Global Basing Realignment process for 
U.S. military forces. Can you provide the status of whether increases 
in Army end strength will cause a reconsideration of the overseas base 
closures and realignments? If so, why?
    Mr. Geren and General Casey. Army goals and strategy remain 
consistent with ongoing Department efforts to improve posture and 
presence to meet the National Security Strategy. The Army continues to 
evaluate the impacts of current operational demands and of increases to 
and rebalancing of structure. Adjustments to implementation timelines 
may be an option. The Army remains cognizant and considerate of the 
evolving strategic landscape, and continuously assesses basing and 
mobility options to best posture forces to meet the combatant 
commander's needs.

    3. Senator Warner. Secretary Geren and General Casey, if the 
Department of the Army does reconsider overseas base closures and 
realignments, should they also reconsider base closures and 
realignments in the United States to accommodate the increase in 
forces?
    Mr. Geren  and General Casey. The Army will follow BRAC law in its 
execution of base closures and realignment of installations in the 
continental United States.

    4. Senator Warner. Secretary Geren and General Casey, what changes 
in the Department of the Army's global basing strategy would justify a 
review of overseas base closures and realignments?
    Mr. Geren and General Casey. Army strategy for global basing 
remains focused on improving responsiveness, supporting combatant 
commander's needs without undo presence or vulnerability, and 
increasing our opportunities to work with new partners in the war on 
terrorism. Work continues in very real terms to better align assets in 
Europe and in the Pacific, to include Korea. We have already returned 
thousands of soldiers and family members and have significantly 
consolidated overseas facilities. The Army remains cognizant of the 
changes to the strategic landscape, and its requirement to maintain 
flexibility in defending against emerging global threats.

    5. Senator Warner. Secretary Geren and General Casey, does the 
Department of the Army have available land on its military bases in the 
United States to support the basing, training, and operations of 
additional combat and support brigades? If not, what plans are underway 
to satisfy the land requirement?
    Mr. Geren and General Casey. Analysis being conducted to support 
upcoming Grow the Army stationing decisions include evaluation of 
installation facilities and training resources, particularly maneuver 
land and range sustainability. The Army currently has available space 
at multiple installations to build facilities for additional Army 
growth combat and combat support brigades. From a training perspective, 
the stationing analysis for the six brigade combat teams (BCTs) will 
include consideration of training land and ranges as a significant 
factor. However, while the Army's requirement for training land grows, 
the capacity of, and accessibility to Army lands is decreasing. There 
are significant challenges that must be actively addressed to sustain 
Army training readiness. Urbanization and urban sprawl, endangered 
species, and environmental restrictions are encroaching on military 
lands at Army installations.

                  STATUS OF ASYMMETRICAL WARFARE GROUP

    6. Senator Warner. Secretary Geren and General Casey, I have been 
following with keen interest the Army's establishment of a new mission 
to develop doctrine, training, and operations for asymmetrical warfare. 
I understand that the Department of the Army is still in the process of 
determining an ideal location for a new unit that will combine 
operations and training in one complex. I believe that such an ideal 
location exists at Fort A.P. Hill, Virginia. Can you provide me an 
update of the Department of the Army's deliberations and the way-ahead 
for the permanent establishment of this important venture?
    Mr. Geren and General Casey. The Army staff will present several 
courses of action and make a recommendation to regarding the stationing 
of the Asymmetric Warfare Group (AWG) in July. We will personally 
review, and carefully consider, all relevant factors in deciding where 
to locate the AWG headquarters and the Asymmetric Battle Laboratory 
(ABL), formerly known as the Operational Demonstration Center.
    Our final decision will be based primarily on stationing criteria 
and cost and operational considerations. Community and economic impact 
will also be considered. We realize this issue is important, and assure 
you that we will contact you without delay once there is an official 
Army position and prior to making a final determination.
                                 ______
                                 
               Questions Submitted by Senator John Ensign

                        SMALL ARMS IMPROVEMENTS

    7. Senator Ensign. Secretary Geren and General Casey, we have been 
engaged in the war on terror for nearly 6 years. In that time we have 
seen tremendous improvement in soldier equipment. The body armor, 
helmets, sights, night vision devices, radios, and uniforms that have 
been fielded to our soldiers are a generation ahead of what our 
soldiers had only a few years ago. This is due to significant attention 
and funding both from Capitol Hill, and from all levels of command 
within the Army. I applaud the Army's success in these areas, 
particularly the success of the rapid fielding initiatives of Program 
Executive Office soldier.
    However, what concerns me is that this revolution in soldier 
equipment has not included any significant improvement in soldier 
weapons. With minor modifications, and the addition of certain 
accessories, today's Army has the same M-16s, M4 Carbines, and 9mm 
Beretta pistols that they had in the late 1980s and early 1990s.
    In the last 5 years the Army made a genuine effort to transition to 
a modular weapon system, the XM-8, which had the ability to replace the 
M-16, M4 Carbine, Designated Marksman Rifle, and the M-249 Squad 
Automatic Weapon (SAW) through the use of a modular system with the 
ability to swap components and barrels.
    Without going into the details of why this program was terminated, 
it appears that in the time since the termination of this program there 
has been little effort to move ahead in researching new spiral 
improvements to our small arms or incorporating commercial off-the-
shelf (COTS) technologies to improve our weapons reliability, accuracy, 
or lethality. What is the Army's plan for fielding small arms with 
improved reliability, functionality, and modularity in the next 5 years 
and the next 10 years?
    Mr. Geren and General Casey. You are correct that many of our small 
arms weapon designs are long-standing, but they are battle proven and 
have the confidence of the overwhelming majority of our soldiers. Many 
of the weapons we see throughout the world are based on technology/
designs that have been around for many years. Even though the small 
arms weapons in the field today are the weapons of choice for our 
soldiers, the designs are by no means perfect and we constantly make 
assessments of the weapon systems through U.S. Army Infantry Center 
post-combat surveys, testing, and engineering change proposals as we 
continuously seek to enhance the effectiveness of our small arms. As an 
example, the Army has improved the buffer, extractor spring assembly, 
bolt life, and barrel chamber to increase the reliability of the M4 
Carbine. Another example is making improvements to the feed tray 
retaining pawls and operating rod of the M249 to improve its 
reliability.
    The Army recently completed an extensive test to baseline the 
existing reliability of the M4, M16, and M249 in a ``dirty'' 
environment to simulate, and in most cases, exceed the conditions our 
soldiers face in Iraq and Afghanistan. The results are on the compact 
disk included with this response. [Information retained in committee 
files.]
    The Center for Naval Analysis recently completed a comprehensive 
survey of battle tested soldiers to assess their perspectives on the 
reliability and durability of their weapon systems in combat. The Army 
requested this survey to aid in decisions regarding current and future 
small arms needs of the Army. The survey reinforced the fact that our 
current weapons exceed the Army's reliability requirements and our 
soldiers have shown a consistently high confidence in them. In addition 
to making improvements to the weapons, we also, through the Rapid 
Fielding Initiative, provide our soldiers numerous weapon accessories 
such as optics, rail systems, tactical lights, bipods, improved 
buttstocks, et cetera, to improve their ability to acquire and engage 
targets at various ranges under all conditions.
    The Infantry Center is conducting a capabilities based assessment 
(CBA) to identify existing small arms capability gaps and to provide 
the analysis that supports revising or establishing new small arms 
requirements, as necessary. These new or revised requirements, if 
necessary, should provide the basis for improved reliability, 
functionality, and modularity, as well as possible leap-ahead 
capabilities such as counter defilade target engagement. Results of the 
CBA are expected to emerge over the next 6-18 months and will be the 
impetus for revising or creating Joint Capability Integration and 
Development System (JCIDS) compliant requirement documents. If the 
revised or new small arms requirement documents are approved by the 
Joint Requirements Oversight Council (JROC), the Army intends to meet 
those small arms requirements through full and open performance-based 
competitions.

                        M4 REQUIREMENT DOCUMENT

    8. Senator Ensign. Secretary Geren and General Casey, the M4 
requirement document was drafted in 1990. It is 17 years old. The 
performance requirements in this document have clearly been surpassed 
by new technologies both from M4 manufacturer Colt, and from other 
manufacturers. Why hasn't the Army generated a new requirement document 
that demands better performance?
    Mr. Geren and General Casey. The Army adopted the U.S. Marine Corps 
Required Operational Capability (ROC) for a 5.56 mm Carbine in 1990. 
Although the M4 requirement document has not been revised since 
adoption, the M4 has matured and been improved via a series of 
engineering modifications and product improvement initiatives. The M4's 
effectiveness has also been significantly enhanced through improvements 
such as the Modular Weapons System (MWS) and the Close Combat Optic 
(CCO) and through meeting immediate wartime needs via the Rapid 
Fielding Initiative (RFI). Only MWS and CCO required new requirements 
documents.
    In 1990, the 5.56mm Carbine ROC identified the weapon's Mean Rounds 
Between Stoppage (MRBS) threshold requirement as 600 rounds and Mean 
Rounds Between Failure (MRBF) as 3,800 rounds. Current 2006 reliability 
data for the M4 enumerate MRBS at 3,592 and MBRF at 6,076 and is a 
testament to subsequent M4 engineering improvements.
    The M4 Carbine is a mature, reliable 21st century weapon system 
with still to be determined potential for improvement. The Army is 
currently executing a Capability Based Assessment (CBA) to be published 
in July 2007. The CBA will identify current and future capability gaps 
and help us define a Small Arms Strategy for future weapons.

    9. Senator Ensign. Secretary Geren and General Casey, why is the 
Army planning to spend at least $300 million to procure roughly 400,000 
rifles using a 17-year-old requirement document, instead of publishing 
a new requirement?
    Mr. Geren and General Casey. The Army is planning to procure 
additional M4 Carbines because the M4 Required Operational Capability 
(ROC) is the Army's existing approved carbine requirement and the Army 
has not yet achieved its goal of pure-fleeting all of its BCTs with 
carbines nor met the current total Army documented M4 requirement. 
Additionally, the Army is continuing to review the need for carbines 
throughout the total force to put more maneuverable 5.56mm caliber 
weapons in the hands of our combat support and combat service support 
personnel that work in confined spaces such as in convoy vehicles and 
armored transports. The existing Army Acquisition Objective is for 
406,276 carbines. The Army, as of April 2007, has approximately 253,019 
carbines (both M4s and M4A1s) on hand. Regarding a new carbine 
requirement, the Infantry Center is conducting a CBA to identify 
potential small arms capability gaps. The CBA will provide the analysis 
that supports revising or maintaining the current carbine requirement. 
If the carbine requirement significantly changes, the Army will conduct 
a performance-based open competition.

                             M4 COMPETITION

    10. Senator Ensign. Secretary Geren and General Casey, from the 
early 1990s the M4 has been a sole-source contract to the original 
manufacturer, Colt. A number of manufacturers produce weapons based on 
the over 40-year-old M-16 design that are virtually identical in form 
and function. Other manufacturers have competed and won contracts with 
special operations, other Federal agencies, local law enforcement 
agencies, and foreign countries with similar systems. Why has the Army 
continued to sole-source this M4 contract to Colt?
    Mr. Geren and General Casey. The M4 Carbine is contracted to a 
technical data package (TDP) which provides detailed drawings, 
specifications, quality assurance, and packaging requirements. The data 
rights are defined in an addendum to the M16 license between Colt and 
the government. Pursuant to the terms of the addendum, the M4 Carbine 
(as defined by the TDP) and M4 Carbine unique parts not common to the 
M16 must be sole sourced to Colt through June 2009. After that date, 
the government will have the right to compete the M4 Carbine TDP within 
the United States and its territories. The Army continues to procure M4 
Carbines through sole source procurement because the M4 ROC is the only 
existing approved requirement that allows the fielding of M4s to meet 
the Army's requirement for carbines. The Army fully intends to compete 
the M4 TDP in July 2009, or when a new requirement is approved. The 
Infantry Center is currently conducting a CBA to determine small arms 
capability gaps and provide the analysis that supports revising any 
necessary carbine requirements. Should the analysis show that a 
materiel solution is necessary because the carbine requirement has 
changed significantly, the Army will conduct a performance-based 
competition.

    11. Senator Ensign. Secretary Geren and General Casey, is the Army 
in compliance with the Competition in Contracting Act in executing this 
contract?
    Mr. Geren and General Casey. Yes. The FAR 6.101(a) states 10 U.S.C. 
2304 and 41 U.S.C. 253 require, with certain limited exceptions, that 
contracting officers shall promote and provide for full and open 
competition in soliciting offers and awarding Government contracts. The 
exceptions for other than full and open competition are listed in FAR 
Subpart 6.3. The exception used in the sole source Justification and 
Approval (J&A) documents supporting a sole source award to Colt for M4 
Carbines was FAR 6.302-1--Only One Responsible Source and No Other 
Supplies or Services will Satisfy Agency Requirements as authorized by 
Title 10 U.S.C. 2304(c)(1). A J&A was prepared and approved at the 
appropriate approval level prior to the award of each sole source 
contract award. Based on this information, the Army is in compliance 
with the Competition in Contracting Act.

    12. Senator Ensign. Secretary Geren and General Casey, can you 
provide the last 6 years' justifications for sole-source contracting on 
all of your small arms accounts?
    Mr. Geren and General Casey. [Information retained in committee 
files.]

    13. Senator Ensign. Secretary Geren and General Casey, can you 
provide the year-by-year unit price of the M4, and the price of the 
added accessories that the Army has paid each year since inception, as 
well as the total amount of funds contracted for the M4?
    Mr. Geren and General Casey. Yes. See spreadsheet for the requested 
unit prices. The total amount of funds the Army has obligated to date 
for the M4 is $188 million.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    14. Senator Ensign. Secretary Geren and General Casey, are there 
any plans to incorporate COTS improvements into the M4 weapon system?
    Mr. Geren and General Casey. Yes, improvements have already been 
incorporated. Specifically, the M4 Adapter Rail System is a COTS 
procurement that is delivered installed on the M4 Carbine in lieu of 
traditional handguards. This provides a standardized interface for 
attachment of additional accessories. The Rapid Fielding Initiative 
provides other COTS devices directly to soldiers to permit 
configuration of the system to better meet specific mission 
requirements. These devices include optical sights, improved 
buttstocks, tactical lights, slings, bipods, a magazine holder, and an 
improved cleaning kit, all of which add to the soldiers' combat 
effectiveness.

                      M-16 AND 9MM STOPPING POWER

    15. Senator Ensign. Secretary Geren and General Casey, since the M-
16 was introduced in the 1960s there have been complaints concerning 
the reliability of the weapon system and the stopping power of the 
5.56mm round. There have also been complaints related to the stopping 
power of the 9mm pistol round. Are there draft or pending reports on 
the reliability and stopping power issues related to small arms? If so, 
please provide them.
    Mr. Geren and General Casey. Yes, there are reports on the 
reliability and stopping power related to these weapons and the 5.56mm 
cartridge. The M4 Carbine, the M16 Rifle, and the M249 SAW meet or 
exceed their requirements when adequately maintained (see the attached 
system assessment and survey on the reliability of the M4, M16, and 
M249 and the Executive Summary for the Joint Services Wound Ballistics 
Integrated Process Team on the enclosed compact disk). [Information 
retained in committee files.]
    The stopping power of the standard issue 5.56mm round (M855) has 
been assessed by the Army. Related assessments and studies indicate 
that shot placement far outweighs the minor terminal ballistic 
performance differences among the 5.56mm rounds-both military and 
commercial. The range of performance is broad largely due to striking 
yaw angle, muzzle velocity, and other factors (see the Executive 
Summary for the Joint Services Wound Ballistics Integrated Process 
Team). [Information retained in committee files.] The stopping power of 
the 9mm pistol cartridge has not been formally tested but will be 
examined in a future effort.

    16. Senator Ensign. Secretary Geren and General Casey, does the 
Army have any plans to research, test, or procure new ammunition in the 
same or other calibers as a replacement to the current 5.56, 9mm, and 
7.62 ammunition? Please provide any research data and results.
    Mr. Geren and General Casey. The Army has no current plans to 
procure new caliber ammunition. We are testing a replacement to the 
standard issue 5.56mm round (M855) that eliminates the environmentally 
hazardous material lead, while maintaining or exceeding the current 
round's performance. A follow-on program in 7.62mm with the same goals 
is in the planning stages and will be based on the success of the 
replacement 5.56mm round.
    The Army is currently completing a Small Arms CBA to identify 
current and future small arms needs. In the longer term a future family 
of more effective and lighter weight weapons may be required. In order 
to help advance technologies to lead into a future family of weapons, 
several research and technology programs are planned and underway. 
Under the Joint Service Small Arms Program, the Army and the other 
Services are looking at technology to provide a 50 percent reduction in 
ammunition weight and the potential of more effectiveness. Several 
technologies are being matured that could offer this potential. Once 
these technologies are matured and demonstrated in the fiscal year 2010 
timeframe, the Army and the other Services will be in a position to 
determine if they are desired in a future family of small arms systems. 
As these technologies are matured and demonstrated over the next few 
years, the impact on production costs and facilities must also be 
determined. As these technologies require new and different weapon 
mechanisms, the potential for caliber changes at the same time is 
feasible. A study is currently underway to quantify and document the 
trade-offs associated with other calibers. Research is underway to set 
the base for new rounds of small caliber ammunition in either the same 
or different calibers. No decisions to move in that direction will be 
made until the completion of the CBA and the completion of the 
supporting technology programs in 2010. In any event fielding would not 
be likely before 2015-2020.

    [Whereupon, at 12:25 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        THURSDAY, APRIL 26, 2007

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                  AIR FORCE AND NAVY AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 3:07 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Warner, 
Sessions, and Cornyn.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Gregory T. Kiley, 
professional staff member; and Sean G. Stackley, professional 
staff member.
    Staff assistants present: Micah H. Harris and Jessica L. 
Kingston.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Nadia Naviwala, assistant to 
Senator Webb; Sandra Luff, assistant to Senator Warner; Todd 
Stiefler, assistant to Senator Sessions; and Clyde A. Taylor 
IV, assistant to Senator Chambliss.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. Okay. Good afternoon. The subcommittee 
will come to order.
    I want to extend a welcome to our witnesses, and thank each 
of you for appearing before the subcommittee today.
    I want to take this occasion to note the service, 
professionalism, and heroism of the coalition Armed Forces 
presently engaged in Iraq and Afghanistan. All those who are 
serving our country in the Middle East right now represent, in 
my opinion, the best, brightest, and bravest that our country 
has to offer. Our thoughts and prayers are with them and their 
families, who are also called by our country to serve in this 
noble effort, and we pray for their success.
    It's against this backdrop of the war that was started 
against us by the Islamist terrorists who attacked us on 
September 11, and the backdrop of continued bravery and 
exemplary service by the members of our Armed Forces, that we 
convene this session of the Airland Subcommittee to discuss the 
present status and the future of aviation programs throughout 
our military.
    Every year, we're faced with the challenge of balancing a 
number of competing demands for resources, including, of 
course, the demands of current operations, as well as the need 
to continue to modernize. The decisions we make today are 
important, because they may result in lives saved--that's our 
hope, certainly--in the next few months, or many years down the 
road.
    I want to mention, at the beginning here, just a few of 
those decisions in the jurisdiction of this subcommittee that I 
hope we will be able to discuss with our witnesses.
    First, last year Congress authorized the Air Force to enter 
into a multiyear procurement contract for the F-22A aircraft 
program. It would be helpful to the subcommittee to get an 
update on the Air Force's progress in getting firmer estimates 
of the savings that will be realized by using this contracting 
approach.
    Second, we'd also like an update on where the Joint Strike 
Fighter (JSF) stands today. We all know how important JSF is to 
the aviation modernization for all three services represented 
here today.
    Third, we need to explore the prospects for meeting future 
force-structure requirements. For example, today we're facing 
the prospect that the current Department of Navy program will 
lead to potentially large gaps between the resources that the 
Chief of Naval Operations has said he needs and the resources 
that will actually be available to him and his successors, 
particularly. Under current plans for Navy and Marine Corps 
tactical aircraft acquisition, we are facing a shortfall of as 
many as 150 tactical fighters needed to outfit our ten 
aircraft-carrier air wings. With shortfalls that large, we 
could be faced with drastically reduced numbers of aircraft 
available on short notice to the combatant commanders, either 
because we've deployed under-strength air wings or because we 
did not deploy the carrier at all, because of those aircraft 
shortages.
    Fourth, I'm concerned about the Air Force's plan this year 
to cancel the larger version of the Multi-Platform Radar 
Technology Insertion Program (MP-RTIP). This program would have 
outfitted a new aircraft with a larger electronically-scanned 
antenna to conduct battlefield surveillance that would exceed 
the capability of the Joint Surveillance and Target Attack 
Radar System (JSTARS) aircraft. I know that the Air Force 
continues to pursue fielding of a smaller version of the MP-
RTIP radar on the Global Hawk unmanned aerial vehicle (UAV), 
but that version will not provide the full capability that 
would be available on a larger aircraft.
    Fifth, we've been hearing about concerns within the 
Department of Defense (DOD) about the process for managing 
UAVs. At the risk of starting what could be an animated 
conversation among the five gentlemen at the table, we need to 
hear from our witnesses today about their views on this 
question.
    Finally, sixth, on the tanker modernization program, I 
appreciate that the Air Force leadership has taken special 
measures to ensure transparency in the tanker acquisition 
process. I believe that this level of openness is an excellent 
model for how the Air Force and all the components of the DOD 
should deal with Congress, and I'd like to hear an update on 
that.
    Those are some of the issues I look forward to discussing 
with our witnesses. I thank you very much for being here. I'm 
honored now to yield to my distinguished friend and ranking 
member, Senator John Cornyn of Texas.

                STATEMENT OF SENATOR JOHN CORNYN

    Senator Cornyn. Chairman Lieberman, thanks. It's a pleasure 
to be here with you today.
    Thanks to all the witnesses for being here.
    While many of us focus on the contributions of U.S. ground 
forces in Iraq and Afghanistan, and rightly so, the efforts of 
U.S. aviators, on behalf of our Nation, are nothing short of 
exceptional. Our aviators have been actively engaged in the 
U.S. Central Command area of operations for 16 years--the first 
Gulf war, enforcement of the Iraq no-fly zones, and now 
Operations Enduring Freedom and Iraqi Freedom.
    Those deployments, in addition to operations in Bosnia, 
Kosovo, and elsewhere throughout the world in support of 
humanitarian efforts, have made maximum use of our Nation's air 
forces. Allow me to express my gratitude to those men and 
women, and their families, as they continue their selfless 
sacrifice.
    While we recognize the joint aviation team's invaluable 
contribution to defense and security of our Nation, the 
challenges with ongoing programs make it seem like we're 
fighting the same budget and policy battles we did last year. 
Given that most of these issues have been analyzed and debated 
during the course of the past year, it's my hope that this 
hearing will provide some clarity as we continue this year's 
budget deliberations.
    Last year, during an Airland Subcommittee hearing, Navy 
witnesses testified of a potential gap in strike fighters that 
might develop toward the end of the next decade. While the 
uncertainties of the service life of the current F-18s and the 
production schedules of the future F-35 were mentioned, the 
potential gap now under discussion reaches more than 220 Navy 
aircraft by the middle of the next decade. I hope our Navy 
witnesses will address this troubling figure and the rationale 
behind reducing the number of F-35 JSFs by 590 aircraft across 
the Future Years Defense Program.
    Similarly, I would expect the Air Force witnesses to 
discuss their long-range strike-fighter requirements in current 
funding plans. In the fiscal year 2008 President's budget 
request, the F-35 JSF Program eliminates funding for the 
development of a second engine production source. I note the 
presence here of the ranking member of the committee, who I 
know has a particular interest in that issue.
    Last year, we held extensive hearings on the pros and cons 
of maintaining a competitive environment for the production of 
military aircraft engines. In the National Defense 
Authorization Act for Fiscal Year 2007, Congress required that 
three separate groups--the Government Accountability Office, 
the Institute for Defense Analysis, and the Pentagon's Cost 
Analysis Improvement Group--study the cost and benefits of 
developing a second engine source. Yet, the fiscal year 2008 
budget eliminated funding for a second engine source before the 
analysis was complete. I hope our witnesses will discuss the 
decisionmaking process that led to the decision to cancel the 
second engine, and their thoughts on both of the three studies 
and the way ahead.
    Last year, the Air Force proffered a multiyear procurement 
proposal for the F-22 aircraft, which the chairman mentioned, 
in which ``substantial savings'' as defined in applicable law 
were questioned by some. In the National Defense Authorization 
Act for Fiscal Year 2007, Congress reiterated the need for the 
Department to ensure the applicable requirements were met 
before certifying the F-22 multiyear. I hope the witnesses will 
address where we are on this certification.
    These are a few of the issues I would expect to cover this 
afternoon. Again, I thank the witnesses for appearing, and look 
forward to your testimony.
    Senator Lieberman. Thanks very much, Senator Cornyn.
    I note the presence of the--I'm going to give you a new 
title today--the chairman emeritus of the full Armed Services 
Committee. [Laughter.]
    Senator Warner. Thank you very much.
    Senator Lieberman. Senator Warner, would you like to make 
an opening statement?
    Senator Warner. Let the record say that there's no pay that 
comes with that title. [Laughter.]
    We have before us an array of distinguished public 
servants, and, notable, those in uniform, which are literally 
the envy of all of their respective Services.
    I know of no more driving excitement in young people than--
certainly in my generation, than that who was to succeed to 
some sort of an aviation billet. My career was very 
inauspicious. I became a ground officer with aviation units. 
But I've always admired those that wear the Wings of Gold, or 
the Air Force wings.
    You're here today on a most important mission. I think it 
was appropriate that you opened the session in honor of the men 
and women who are flying, sailing, and ground-pounding today.
    We just had a historic vote in the United States Senate a 
short time ago, and I think the world is trying to study what 
the significance is. But let me say that there's a great phrase 
that I like--it's on the National Archives--``The Past is 
Prologue.'' That vote is behind us, and the three of us, I'm 
sure, are going to be quite active in the days and weeks to 
come to see what we can do to reconcile the differences between 
honest, conscientious viewpoints on both sides of the aisle, 
and promptly get out a bill to fund the very programs that 
you're seeking to support here today. Most important, to get a 
good, steady funding profile for the men and women of the Armed 
Forces, wherever they are in the world, most notably Iraq and 
Afghanistan.
    So, with that, thank you for the courtesy of letting me 
make a few remarks here, Mr. Chairman. Let's hear from our 
witnesses.
    Senator Lieberman. Thanks very much, Senator Warner.
    Mr. Balderson, I'd be honored to have you speak first.

STATEMENT OF WILLIAM BALDERSON, DEPUTY ASSISTANT SECRETARY, AIR 
  PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF THE NAVY FOR 
 RESEARCH, DEVELOPMENT, AND ACQUISITION, DEPARTMENT OF THE NAVY

    Mr. Balderson. Thank you, sir.
    Mr. Chairman, Senator Cornyn, Senator Warner, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss Navy/Marine 
Corps aviation programs.
    I do have a written statement that I will submit for the 
record. Out of respect for the committee's time, I intend to 
limit my opening remarks to just the following two points:
    First, we believe the Navy's fiscal year 2008 budget 
submission meets our Navy/Marine Corps warfighting requirements 
for both near-term readiness and long-term recapitalization.
    Second, the Department of the Navy's acquisition team 
continues to work aggressively to identify efficiencies in the 
development, testing, and procurement of the products and 
services we provide to the fleet.
    The fiscal year 2008 budget request reflects considerable 
effort in identifying affordable solutions for the Department's 
aviation programs, and we are striving to address the Navy/
Marine Corps warfighting needs in the most cost-effective way 
possible.
    Mr. Chairman, I'll conclude by thanking the members of this 
subcommittee for your outstanding support. The great efforts of 
our men and women in theater today will reflect a return on 
your investment in them and the systems that they fight with.
    Once again, thank you, and I look forward to your 
questions.
    [The prepared statement of Mr. Balderson follows:]

                Prepared Statement by William Balderson

    Mr. Chairman, distinguished members of your subcommittee, thank you 
for providing us with this opportunity to appear before you to discuss 
the Department of the Navy's fiscal year 2008 aviation programs.

                           AVIATION PROGRAMS

    The fiscal year 2008 President's budget request balances continued 
recapitalization in obtaining new capabilities and reducing operating 
costs while simultaneously sustaining the legacy fleet aircraft that 
are performing magnificently in current operations. We continue to 
execute numerous multiyear procurements (MYP) to achieve significant 
savings in procurement accounts. The Department's fiscal year 2008 
budget request continues MYP arrangements for the F/A-18 E/F (airframe 
only), KC-130J, MH-60S (engines and airframe), MH-60R (airframe), and 
the V-22. Our proposed plan will procure 48 tactical, fixed-wing 
aircraft (6 F-35Bs, 24 F/A-18 E/Fs, and 18 EA-18Gs), as well as, 21 MV-
22s, 4 KC-130Js, 20 UH-1Y/AH-1Z helicopters, 18 MH-60S helicopters, and 
27 MH-60R helicopters. This plan also continues the development of the 
F-35, the E-2D Advanced Hawkeye, the EA-18G, the Presidential 
Helicopter replacement aircraft (VH-71), the CH-53K Heavy Lift 
Replacement aircraft and the P-8A Multi-mission Maritime Aircraft 
(MMA).
F/A-18 E/F
    The fiscal year 2008 budget requests $2.1 billion in APN for 24 F/
A-18 E/F aircraft for the 4th year of the 5-year MYP contract (fiscal 
years 2005 to 2009). The F/A-18 E/F continues to transition into the 
fleet, improving the survivability and strike capability of the carrier 
air wing. The Super Hornet provides a 40 percent increase in combat 
radius, 50 percent increase in endurance, and 25 percent increase in 
weapons payload over our older Hornets. Over 386 F/A-18 E/Fs will be 
procured through fiscal year 2007, on track to complete procurement of 
the program of record 490 aircraft in 2012. The Super Hornet has used a 
spiral development approach to incorporate new technologies, such as 
the Joint Helmet Mounted Cueing System, Advanced Targeting Forward-
Looking Infrared Radar (FLIR), Shared Reconnaissance Pod System and 
Multifunctional Information Distribution System data link. The Active 
Electronically Scanned Array (AESA) radar system has completed 
operational testing and the full rate production decision is scheduled 
for spring 2007. The first tactical AESA equipped F/A-18F squadron has 
now received all 12 of its allotted aircraft with full ILS support. The 
FA-18E/F fiscal year 2008 budget request also includes $442 million to 
implement commonality, maintain capabilities and improve reliability 
and structural safety.
F-35 Joint Strike Fighter (JSF)
    The fiscal year 2008 budget requests $1.7 billion research, 
development, testing, and evaluation (RDT&E) for continuation of F-35 
System Development and Demonstration (SDD) and $1.3 billion APN 
(including spares) for the DoN Low Rate Initial Production lot two 
(LRIP 2) for six Short Takeoff and Vertical Landing (STOVL) aircraft 
with $120 million long-lead funding for eight STOVL aircraft as part of 
LRIP 3. As a 5th generation weapon system, the JSF will enhance 
precision strike capability with unprecedented stealth, range, sensor 
fusion, improved radar performance, combat identification, and 
electronic attack capabilities compared to legacy platforms. The 
carrier variant (CV) JSF complements the F/A-18 E/F and EA-18G in 
providing long-range strike capability and much improved persistence 
over the battlefield. The STOVL JSF combines the multi-role versatility 
of the F/A-18 and the basing flexibility of the AV-8B. The commonality 
designed into the JSF program will reduce acquisition and operating 
costs of Navy and Marine Corps tactical aircraft, and allow enhanced 
interoperability with our Allies and sister Services.
    The JSF is mid-way through the 6th year of SDD, executing to the 
approved replan that commenced 3 years ago. The program continues 
detailed design work for all three variants, with the LRIP 1 contract 
for two conventional take off and landing (CTOL) aircraft planned for 
April 2007. The initial CTOL aircraft (AA-1) successfully completed 
first flight on December 15, 2006; flew six times in January 2007, and 
resumed flights in March following a planned maintenance period. AA-1 
flights will continue over the next 2 years. Manufacture and assembly 
of other flight test aircraft is well underway, with assembly times 
much less than planned and exceptional quality demonstrated in 
fabrication, assembly and mate. Eleven development aircraft are now in 
various phases of assembly. STOVL first flight is projected in May 2008 
reflecting a delay to incorporate lessons learned from the manufacture 
of the first CTOL aircraft.
    The JSF program has aggressively addressed earlier performance 
issues associated with weight and airframe design. Weight control 
remains a focus and priority of the program and weight reduction trades 
continue to be investigated. The first test aircraft was completed with 
unprecedented assembly fit and quality, problem-free power-on, rapid 
execution of engine and secondary-power tests and actual weight within 
0.1 percent of predicted. While the first test aircraft lacks some 
design changes, demonstrated manufacturing processes and outcomes 
justify high confidence in design and weight predictions for all 
variants due to commonality of design, tools and manufacturing methods. 
The F135 engine development is on track with performance meeting 
expectations. Over 7,300 hours on 12 engines have been completed 
through early April 2007. The JSF acquisition strategy, including 
software development, continues to reflect a block approach. The CTOL/
STOVL Air System Critical Design Review was successfully completed in 
March 2006. The CV Air System Critical Design Review is scheduled for 
summer 2007, and will evaluate design maturity and performance against 
requirements. The STOVL and CV variants are projected to meet their 
respective Key Performance Parameters.
    The DoN supports the President's budget request not to provide 
funding for JSF alternate engine (F136) development. The DoN maintains 
there are higher priority needs in the budget and that the risks 
associated with a single engine supplier are acceptable. The National 
Defense Authorization Act for Fiscal Year 2007 directed three 
independent analyses of alternatives propulsion strategies including 
various cost implications. The studies by the Institute for Defense 
Analyses, Cost and Analysis Improvement Group, and Government 
Accountability Office have been completed. The conclusions, while 
supportive of competition in general, support the Department's initial 
findings that the expected savings from competition do not outweigh the 
investment costs. All three studies however, concluded that other 
benefits might result from competition. The costs to establish an 
alternative engine, however outweigh those potential benefits.
E-2D Advanced Hawkeye (AHE)
    The fiscal year 2008 budget requests $809.0 million in RDT&E for 
continuation of SDD and three pilot production aircraft. The E-2D 
Advanced Hawkeye is a critical enabler of transformational 
intelligence, surveillance and reconnaissance, providing a robust 
overland capability against current and future cruise missile-type 
targets. The Advanced Hawkeye program modernizes the E-2 platform by 
replacing the current radar and other system components to maintain 
open ocean capability while adding transformational surveillance as 
well as theater air and missile defense capabilities.
F/A-18 A/B/C/D
    The fiscal year 2008 budget requests $442 million for the 
continuation of the systems upgrade programs for the F/A-18 platform. 
As the F/A-18 program transitions to the F/A-18 E/F, the existing 
inventory of over 662 F/A-18 A/B/C/Ds will continue to comprise half of 
the Carrier Strike Group until 2012. Included in this request is the 
continued procurement of recently fielded systems such as the Joint 
Helmet Mounted Cueing System, Advanced Targeting FLIR, Multi-Function 
Information Distribution System, and Digital Communications System. The 
Marine Corps continues to upgrade 61 Lot 7-11 F/A-18A models to Lot 17 
F/A-18C avionics aircraft capability with digital communications and 
tactical data link. The Marine Corps anticipates programmed upgrades to 
enhance the current capabilities of the F/A-18 C/D with digital 
communications, tactical data link and tactical reconnaissance systems. 
This upgrade ensures that our F/A-18s remain viable and relevant in 
support of Tactical Air Integration and Expeditionary Maneuver Warfare. 
The Marines expect the F/A-18A+ to remain in the active inventory until 
2018. The Marines are also employing the Litening targeting pod on the 
F/A-18 C/D aircraft in expeditionary operations, to include OIF. When 
combined with data link hardware, the Litening pod provides real time 
video to ground forces engaged with the enemy through Remotely Operated 
Video Enhanced Receiver workstations. Continued analysis on tactical 
air inventories will continue throughout 2007 and beyond to determine 
the health of the legacy fleet as the F/A-18 A-D is transitioned to the 
F-35.
EA-6B
    The fiscal year 2008 budget requests $30.6 million in APN for 
procurement of critical Airborne Electronic Attack (AEA) products and 
continuing EA-6B upgrades and readiness improvements that increase the 
operational availability and reduce operating cost of this high demand 
aircraft. Upgrades include procuring 10 Low Band Transmitters to 
provide a new jamming capability as well as replace aging transmitters 
and will be employed on EA-6B and EA-18G aircraft. The budget request 
also provides for Operational Safety Improvement Program procurements 
for avionics and structural equipment. The EA-6B is in near continuous 
use in Iraq and Afghanistan today in support of our troops on the 
ground as DOD's only tactical electronic attack aircraft performing 
communications jamming and information operations missions. Program 
priorities are current readiness, successful continued deployment of 
ICAP III aircraft, and continued procurement of low-band transmitters.
    EA-18G
    The fiscal year 2008 budget requests $273 million in RDT&E for 
continuation of SDD and $1.32 billion in APN for 18 LRIP Lot 2 
aircraft. The E/A-18G continues development as the Navy's replacement 
for the EA-6B AEA aircraft. The EA-18G will replace carrier-based Navy 
EA-6B aircraft by 2012. The Navy is using the F/A-18 E/F MYP contract 
to buy the Lot 2 aircraft in fiscal year 2008. The SDD continues on 
schedule with the two development aircraft having flown in 2006 and 
currently in developmental test at NAWC Patuxent River. A total 
quantity of 26 aircraft will be procured in LRIP with a planned fiscal 
year 2009 initial operational capability (IOC) and fiscal year 2012 
FOC.
Integrated Defensive Electronic Countermeasures (IDECM)
    The fiscal year 2008 budget requests $131.4 million in aircraft 
procurement for the procurement of 61 ALQ-214 on-board Radio Frequency 
Countermeasure and $25.0 million in Ammunition Procurement for 581 ALE-
55 Fiber Optic Towed Decoys, pending a full-rate production decision. 
The IDECM Block 3/ALE-55 Operational Test and Evaluation identified and 
a full-rate production decision are expected to be completed in fiscal 
year 2008.
Digital Radio Frequency Memory (DRFM) Onboard Jammer
    The fiscal year 2008 budget requests $8.2 million in RDT&E for 
development of an onboard jammer that will employ state-of-the-art 
Digital Radio Frequency Memory (DRFM) devices to replace the ALQ-126B 
Jammer that was last produced in 1991. This effort will measurably 
improve the survivability of naval tactical aircraft by delaying, 
denying, and defeating threat air-to-air and surface-to-air missile 
systems operating in the radio frequency spectrum. The lead platform 
for the DRFM program is the F/A-18 C/D, followed by the AV-8B. An 
Analysis of Alternatives has been initiated to investigate alternative 
solutions, costs, and schedules. This developmental effort is late-to-
need and the capability is required to pace rapidly proliferating 
threat systems.
Tactical Aircraft Directed Infrared Countermeasures (TADIRCM)
    The fiscal year 2008 budget requests $27.6 million in RDT&E for 
development of an improved Missile Warning System (MWS) and Infrared 
Countermeasure (IRCM) for Navy and Marine Corps helicopters. This 
system will provide aircrew protection against current and next 
generation IR guided Manportable Air Defense System. The analysis of 
alternatives for TADIRCM has been completed, and the program is working 
towards a Milestone B in fiscal year 2008.
V-22
    The fiscal year 2008 budget requests $2.0 billion in APN for 
procurement of 21 MV-22s and continued development of follow-on block 
upgrades. Our acquisition strategy calls for commencing a MYP in fiscal 
year 2008. Our MYP strategy supports a continued cost reduction and 
affordability trend, provides a stable basis for industry, and best 
supports the warfighter. The Advance Acquisition Contract funding 
associated with the first year of the MYP and fiscal year 2007 Economic 
Ordering Quantity and Cost Reduction Investments is planned for award 
in spring 2007. The Air Force and Special Operations Command plan is to 
procure five CV-22 aircraft in fiscal year 2008.
    The Navy is the lead service in developing, testing, evaluating, 
procuring, and fielding a tilt rotor, Vertical/Short Takeoff and 
Landing (V/STOL) aircraft for Joint Service application. The V-22 
Program is designed to provide an aircraft to meet the amphibious/
vertical assault needs of the Marine Corps, the strike rescue needs of 
the Navy, and the special operations needs of the Air Force and Special 
Operations Command. The MV-22 variant will replace the CH-46E and CH-
53D in the Marine Corps and supplement the H-60 in the Navy. The CV-22 
variant provides a new capability and will augment the MC-130 in the 
Air Force/Special Operations Command inventory for special operations 
infiltration, extraction, and re-supply missions. The existing MH-53 
fleet will be drawn down commensurate with the fielding of the CV-22.
    V-22 capability is being increased and fielded over time via a 
block upgrade acquisition strategy. MV-22 Block A provides a ``Safe and 
Operational Test and Training Asset'' configuration that is supporting 
developmental flight test, operational flight test and fleet training. 
Block B provides for correction of previously identified deficiencies 
and suitability improvements. Block C provides mission enhancements, 
primarily in the areas of environmental control systems upgrades and 
mission systems improvements. CV-22 Block 0/10 is a CV-unique 
configuration for Special Operations capabilities to include radar and 
electronic countermeasures upgrades. CV-22 Block 20 provides an 
enhanced CV-unique configuration with planned communications and 
aircraft system performance upgrades. Both Osprey variants continue 
along their prescribed roadmaps for follow-on developmental and 
operational test.
    The V-22 program has successfully completed operational evaluation. 
Follow-on Test and Evaluation activities continue on MV-22 aircraft in 
support of envelope expansion and engineering change incorporation. The 
MV-22 looks forward to an IOC decision in 2007. The CV-22 began Block 
0/10 operational testing in the summer of 2006 with an Operational 
Utility Evaluation to allow release of an initial training capability. 
IOT&E, scheduled to begin in October 2007, will test the balance of the 
CV-22 capabilities and support an IOC decision (2009) for worldwide 
operations.
AH-1Z/UH-1Y
    The fiscal year 2008 budget requests $518.5 million in APN for 20 
AH-1Z/UH-1Y aircraft and $3.6 million in RDT&E for continuation of H-1 
Upgrades Engineering and Manufacturing Development. The H-1 Upgrades 
Program will replace the Marine Corps' AH-1W and UH-1N helicopters with 
state-of-the-art AH-1Z and UH-1Y models. The program is a key 
modernization effort designed to resolve existing safety deficiencies, 
enhance operational effectiveness, and extend the service life of both 
aircraft. Additionally, the commonality gained between the AH-1Z and 
UH-1Y (84 percent) will significantly reduce life-cycle costs and 
logistical footprint, while increasing the maintainability and 
deployability of both aircraft. The program will remanufacture 180 AH-
1W helicopters into AH-1Zs, remanufacture 10 UH-1N/HH-1N into UH-1Y 
helicopters, and build 90 new UH-1Y models.
    The first low-rate production aircraft was delivered in January 
2007, and the final phase of OPEVAL will be completed in the second 
quarter of fiscal year 2008. The program continues to seek 
opportunities to reduce unit cost and minimize the negative impact the 
remanufacture strategy could have on ongoing military operations. We 
anticipate that some number of AH-1Z airframes will be newly fabricated 
instead of remanufactured in order to reduce the amount of time 
aircraft would otherwise be out of service. Funding to establish the 
capability to build complete AH-1Z aircraft has been requested in the 
fiscal year 2007 global war on terror supplemental. The optimum mix of 
remanufactured and newly fabricated aircraft is being evaluated with 
the results to be reflected in future budget requests.
AV-8B
    The fiscal year 2008 budget requests $17.4 million RDT&E funds to 
support development of the Propulsion System Management Plan (PSMP)/
Accelerated Simulated Mission Endurance Testing (ASMET), Tactical 
Moving Map Display, Litening Pod updates, and Aircraft Handling 
initiatives (including the Readiness Management Plan). The fiscal year 
2008 budget also requests $40.5 million procurement funding for Engine 
Production Line Transition efforts, Open Systems Core Avionics 
Requirement (OSCAR) installs, PSMP upgrades, engine accessory 
obsolescence efforts, Day Attack Upgrade/Attrition Recovery efforts, 
Trainer aircraft upgrade efforts, Litening Pod upgrades, and Litening 
Pods on the aircraft centerline.

                                WEAPONS

    In an era of uncertainty and shifting global threats, the 
Department of the Navy is developing and deploying strike weapons to 
enhance warfighter capabilities in an evolving threat environment. Our 
proposed budget would provide resources for weapon system enhancements 
to directly support troops deployed in the field, as well as continue 
to plan for potential near-peer competitors. Our plans take into 
account the lessons-learned from ongoing combat operations as well as 
the results of our research and development efforts. The fiscal year 
2008 weapons budget provides for affordable Strike and Precision Guided 
Weapons programs to ensure that America is secure at home; sea and air 
lanes are open for peaceful, productive commerce; and the capability 
developed and delivered is large enough, agile enough, and lethal 
enough to deter threats and defeat foes in support of joint and 
coalition forces.
Tactical Tomahawk Cruise Missiles
    The Tactical Tomahawk budget request supports the continued 
procurement of this combat-proven, deep-attack weapon in order to 
replenish inventories that were diminished during combat operations. 
Tomahawk cruise missiles are currently being procured in a 5-year firm 
fixed price, MYP contract that saves the taxpayers approximately 12 
percent over annual procurement contacts. The fiscal year 2008 budget 
request is $383.1 million for an additional 394 Block IV Tomahawk 
missiles and associated support.
Hellfire Weapons
    While the Department of the Navy awaits Department of Defense 
direction on the development path for a next-generation forward firing 
precision-guided munition capable of being launched from fixed-wing, 
rotary-wing, and unmanned platforms, we are requesting continued 
support for legacy Hellfire weapons. Hellfire continues to be one of 
the priority weapons in the global war on terrorism and provides our 
Navy/Marine Corps warfighters the ability to attack targets in the 
caves of Afghanistan as well as the urban canyons of Baghdad. Our 
fiscal year 2008 budget request is for $45.7 million for 439 weapons 
with a mix of thermobaric blast/fragmentation and anti-armor warheads 
that provide operational flexibility to the warfighter.
Direct Attack Moving Target Capability (DAMTC)
    Based upon feedback from the combatant commanders in Iraq and 
Afghanistan--and subsequently approved as a capability gap documented 
by the Joint Chiefs of Staff--the Department of the Navy plans to 
improve our ability to attack and strike moving targets. Our fiscal 
year 2008 budget requests $29.1 million in fiscal year 2008 and $214.5 
million across the Future Years Defense Program (FYDP) for the DAMTC 
program. The program seeks to modify the existing inventory of `Direct 
Attack' Joint Direct Attack Munition and or Laser Guided Bomb weapons 
as the foundation for a dual-mode weapon that is capable of prosecuting 
moving targets. The acquisition will be conducted expeditiously to 
respond to an urgent warfighter need for a fixed-wing aircraft moving 
target weapon. Initial Operating Capability is planned to occur in 
fiscal year 2009.
Joint Standoff Weapon (JSOW)
    The combat-proven JSOW family of joint Navy and Air Force air-to-
ground weapons continues on cost and schedule to develop a JSOW C-1 
variant. JSOW C-1 will provide a moving target capability to this 
``Standoff Outside Area Defense'' weapon with the addition of a 
datalink and guidance software improvements to the highly successful 
JSOW-C variant. The fiscal year 2008 budget requests $24.9 million to 
allow for continued BLK III development and $131.3 million for 
continued JSOW-C production totaling 421 all-up-rounds to fill 
inventories that remain below our approved Non-Nuclear Ordnance 
Requirements. Production of other JSOW variants remains deferred as we 
continue to work with the Office of the Secretary of Defense and our 
sister Services to resolve unexploded battlefield ordnance issues that 
are of a concern to the Department and our Allies.
Advanced Anti-Radiation Guided Missile (AARGM)
    The AARGM development program will deliver a multi-spectral 
targeting capability, with supersonic fly-out, to destroy sophisticated 
enemy air defenses and time-sensitive strike targets. The program has 
completed all design reviews and will begin test firings this year. The 
weapon system will utilize and leverage off of integrated networks, and 
is scheduled to be deployed in fiscal year 2009 on the F/A-18 Hornet. 
The fiscal year 2008 budget requests $32.8 million for the development 
and test program and requests $41.3 million for the first Low-Rate 
Initial Production of tactical and training weapons.
Harpoon Anti-Ship Cruise Missile
    The Department of the Navy is requesting upgrade of our surface-
launched and air-launched Harpoon cruise missiles to provide the all-
weather, anti-surface warfare capability needed to operate with 
`improved selectivity' in the cluttered environment of the littoral 
battlespace. Under the Harpoon BLK III Program, we plan on upgrading 
this very capable system to improve selectivity and enhance our 
standoff operations via integration of a two-way data-link for use 
under stringent rules of engagement. The fiscal year 2008 budget 
requests $43.5 million in RDT&E to develop this capability.
Advanced Medium-Range Air-to-Air Missile (AMRAAM) AIM-120
    The fiscal year 2008 budget requests $4.58 million in RDT&E to 
complete development efforts and $87.5 million for production of 79 
all-up rounds and associated hardware. AMRAAM is a Joint Navy/Air Force 
(Air Force-led) advanced, medium-range missile that counters existing 
aircraft and cruise missile threats with advanced electronic attack 
capabilities operating at high/low altitudes from both beyond visual 
range and within visual range. AMRAAM provides an Air-to-Air First 
Look, First Shot, First Kill capability working within a networked 
environment in support of Sea Power 21's Theater Air and Missile 
Defense Mission Area.
Sidewinder AIM-9X Air-to-Air Missile
    The fiscal year 2008 budget requests $4.4 million RDT&E and $54.9 
million for production of 184 all-up rounds, Captive Air Training 
Missiles (CATMs), and associated hardware. The Joint Navy/Air Force 
(Navy-led) Sidewinder missile is the only short-range infrared air-to-
air missile integrated on USN/USAF strike-fighter aircraft. The AIM-9X 
is the newest variant in the Sidewinder family. This 5th Generation 9X 
weapon incorporates high off-bore sight acquisition capability and 
thrust vectoring to achieve superior maneuverability and provides 
increased sensitivity through an imaging infrared focal plane array 
seeker and advanced processing.

                      OTHER SIGNFICANT CAPABILITES

Presidential Helicopter Replacement Aircraft (VH-71)
    The fiscal year 2008 budget requests $271 million in RDT&E for 
continuation of SDD for the VH-71 program. The VH-71 program is 
executing an evolutionary acquisition approach through a two-part 
incremental development to deliver a safe, survivable and capable 
Presidential Vertical Lift aircraft while providing uninterrupted 
communications with all required agencies. The goal of Increment 1 is 
to satisfy an urgent need to provide a replacement presidential 
helicopter with capability equivalent to or better than the current 
inventory of aircraft. Increment 2 will provide enhanced performance 
and state-of-the-art communications capabilities to satisfy long-term 
needs. During the last year, the program initiated a phased Critical 
Design Review process for Increment 1 that will be completed later this 
year. The program has also begun Increment 1 developmental test using 
two commercial aircraft, and has five additional test aircraft in 
various stages of production. Increment 2 development will begin this 
year, and is currently undergoing a reassessment/replan to reduce test 
and production concurrency risk with Increment 1. The Increment 2 
replan will increase time allotted to the Systems Engineering Technical 
Review cycle prior to CDR, procure/utilize an additional test vehicle, 
and will reduce design/build concurrency by delaying the first LRIP 
lot, thereby further reducing risks to the program. The Presidential 
Helicopter Replacement Program continues to receive executive level 
oversight and review in an effort to fully evaluate program progress 
while mitigating risks wherever possible.
P-8A Multi-mission Maritime Aircraft (MMA)/P-3C
    The future of the Navy's maritime patrol force includes plans for 
sustainment, modernization, and recapitalization of the force. Results 
of the P-3 Service Life Assessment Program (SLAP) revealed the need for 
an aggressive approach to P-3 airframe sustainment. Key elements of the 
sustainment approach are strict management of requirements and flight 
hour use, special structural inspections to keep the aircraft safely 
flying, and increased use of simulators to satisfy training 
requirements. The fiscal year 2008 budget request includes $156.3 
million for Special Structural Inspections-Kits (SSI-K), which will 
allow for airframe sustainment to support the CNO's P-3 Fleet Response 
Plan (as well as supporting EP-3E requirements which are executed 
within the P-3 SSI-K program). As the sustainment plan progresses, the 
inventory may be reduced to a number approaching 130 aircraft by fiscal 
year 2010. The fiscal year 2008 budget request also reflects a systems 
sustainment and modernization budget of $106.3 million to continue to 
address a multitude of mission essential efforts to replace obsolete 
components, integrate open architecture technology, and leverage 
commonality. To recapitalize these critical aircraft, the Navy is 
developing the P-8A MMA, a 737 commercial-derivative aircraft. This 
past year, the program began completing major subsystem Critical Design 
Reviews (CDR) in preparation for the overall system CDR to be conducted 
this summer. The fiscal year 2008 budget requests $880.1 million in 
RDT&E for continuation of P-8A System Development and Demonstration 
(SDD) efforts. Program objectives for 2008 include executing a contract 
for four Stage II test aircraft, and fabrication of the first ground 
and flight test aircraft. Our comprehensive and balanced approach has 
allowed for recapitalization of these critical assets.
MH-60R and MH-60S
    The fiscal year 2008 budget requests $997.6 million in APN and 
$78.2 million in RDT&E for continued replacement of the Special 
Structural Inspections-Kits (LAMPS) MK III SH-60B and carrier-based SH-
60F helicopters with the new configuration designated as the MH-60R. 
This program reached full-rate production with the first operational 
squadron standing up in 2006. The fiscal year 2008 budget also requests 
$503.6 million in APN and $44.0 million in RDT&E funds for the MH-60S, 
to continue development of the Organic Airborne Mine Countermeasures 
(Block II) and the Armed Helo (Block III) missions. The MH-60S is the 
Navy's primary combat support helicopter designed to support Carrier 
and Expeditionary Strike Groups. It will replace four legacy platforms 
with a newly manufactured H-60 airframe. The Army and Navy are 
executing a new platform multiyear contract in 2007 that will include 
both the MH-60R and MH-60S. A second multiyear contract is also being 
executed in 2007 for integration of mission systems into the MH-60R.
EP-3 Replacement/Sustainment
    The Navy plans to recapitalize its aging EP-3E fleet with a land-
based, manned, airborne Intelligence Surveillance Reconnaissance (ISR) 
platform, called EPX, to meet maritime requirements. The fiscal year 
2008 budget requests $16.6 million in RDT&E funds for this effort to 
support studies focused on capabilities, documentation, and technology 
development. The fiscal year 2008 budget requests $43.7 million in 
RDT&E and $46.9 million in APN to address EP-3E SIGINT sensor and 
communications equipment obsolescence issues that are necessary to keep 
the EP-3E viable until the replacement platform is fielded. This 
funding supports LRIP procurement for JMOD Common Configuration (JCC) 
Spiral 2 data fusion capabilities, and engineering development for JCC 
Spiral 3.
KC-130J
    The fiscal year 2008 budget requests $256.4 million in APN for four 
KC-130J aircraft. These aircraft will be procured under an existing Air 
Force MYP. The Marine Corps has taken delivery of 25 KC-130J aircraft 
to date, with four more deliveries scheduled during 2007. Additionally, 
two aircraft will be procured through fiscal year 2006 Supplemental 
funding and one aircraft will be procured using the funds from the FAR 
12 to FAR 15 contract conversion savings. (The FAR 12 to 15 procurment 
of one aircraft is being reviewed by FMB counsel as to whether or not 
the letters to Congress from the Commandant constitute congressional 
notification, recommend removal of statement and adjustment of numbers 
accordingly) The planned procurement of four aircraft in fiscal year 
2008 will bring the total number of KC-130J aircraft to 36. The KC-130J 
provides major enhancements to the current fleet of KC-130s, extending 
its range, payload, and refueling capabilities. Additionally, we have 
continued to ensure the tactical capability of our existing KC-130F, 
R&T series aircraft by installing night vision kits and upgraded 
aircraft survivability equipment.
Heavy Lift Replacement Program (HLR, CH-53K)
    The fiscal year 2008 budget requests $417.2 million RDT&E to 
continue SDD of the CH-53K, which will replace the Marine Corps' 
current heavy-lift helicopter, the CH-53E ``Super Stallion.'' Built for 
sustained shipboard operations and first flown in 1974, the CH-53E 
continues to demonstrate its value as an expeditionary heavy-lift 
platform. This aging but very relevant helicopter is in high demand, 
making significant contributions to missions in Iraq, Afghanistan, and 
the Horn of Africa; noncombatant evacuation operations in Lebanon; and 
disaster relief operations around the world. Expeditionary heavy-lift 
capabilities will continue to be critical to successful sea-based 
operations in future anti-access, area-denial environments, enabling 
sea basing and the joint operating concepts of force application and 
focused logistics.
    As a design evolution of the CH-53E, the new-build CH-53K will 
fulfill sea-based, heavy-lift requirements not resident in any of 
today's platforms, and directly contribute to the increased agility, 
lethality, and persistent presence of Joint Task Forces and Marine Air-
Ground Task Forces. The CH-53K will include significant enhancements to 
extend range and payload performance; expand survivability and force 
protection capabilities; improve inter-modal cargo handling and turn-
around; and meet interoperability requirements while reducing heavy-
lift operations and support costs.
    The CH-53K will be capable of transporting 27,000 pounds to austere 
landing sites at distances of 110 nautical miles under challenging 
environmental conditions. Task Force commanders of 2015 and beyond will 
then have the option to rapidly insert, to the far sides of the 
littorals, a force equipped with armored combat vehicles and heavy 
weapons at a rate equivalent to two up-armored High Mobility Multi-
Wheeled Vehicles (HMMWVs) per sortie. To sustain that force, the CH-53K 
will be the critical air connector to sea-based logistics, transporting 
up to three independent loads per sortie, with each load tailored to 
individual receiving units. This efficient, reliable, cost-effective, 
heavy-lift capability will also address critical challenges in 
maintainability, reliability, and affordability found in present-day 
operations.
T-6B Joint Primary Air Training System (JPATS)
    The fiscal year 2008 budget requests $295.3 million to procure 44 
aircraft under an Air Force MYP contract. The T-6 is the primary flight 
training aircraft for Navy and Marine Corps pilots, and Naval flight 
officers. It replaces the T-34C. The current requirement is for 315 
aircraft, of which 54 aircraft have been procured to date.
T-45
    The fiscal year 2008 budget requests $32.5 million in APN for costs 
associated with the shutdown of aircraft production. The request also 
includes funding to continue both the Required Avionics Modernization 
Program and Synthetic Radar installations for Undergraduate Military 
Flight Officer training.

                    UNMANNED AIRCRAFT SYSTEMS (UAS)

    The global war on terrorism continues to place emphasis on the 
importance of UASs. The fiscal year 2008 budget request reflects our 
commitment to a focused array of UASs that will support and enhance 
intelligence, reconnaissance, and surveillance missions with 
persistent, distributed, and netted sensors.
Fire Scout UAS
    The fiscal year 2008 budget requests $33.0 million RDT&E to 
continue development of the Fire Scout UAV and $37.7 million APN for 
the production of the Fire Scout MQ-8B aircraft. The Fire Scout is a 
Vertical Takeoff and Landing Tactical UAV (VTUAV) designed to operate 
from all air-capable ships, carry modular mission payloads, and operate 
using the Tactical Control System and Tactical Common Data Link. The 
Fire Scout UAS will provide day/night real time ISR and targeting as 
well as communication-relay and battlefield management capabilities to 
support core Littoral Combat Ship mission areas of ASW, MIW, and ASUW 
for the naval forces. The Fire Scout MQ-8B capability will achieve 
initial operational capability in fiscal year 2008.
Broad Area Maritime Surveillance (BAMS) UAS
    The fiscal year 2008 budget requests $116.7 million RDT&E for 
System Development and Demonstration (SDD) of the BAMS UAS. The 
Milestone B decision for the BAMS UAS program will be in the fourth 
quarter of fiscal year 2007 followed by a competitive award of the SDD 
contract for development of the BAMS UAS in the first quarter of fiscal 
year 2008. The BAMS UAS program will meet the Navy requirement for a 
persistent ISR capability as well as address the growing ISR gap and 
the shortfall in maritime surveillance capability. The BAMS UAS will be 
a force multiplier for the Fleet Commander, enhancing situational 
awareness of the battle-space and shortening the sensor-to-shooter kill 
chain. BAMS UAS will work as an adjunct to the new P-8A MMA to provide 
a more affordable, effective and supportable maritime ISR option than 
current ISR aircraft provide.
Marine Corps Tactical UAS (MCTUAS)
    The fiscal year 2008 budget requests $90.3 million WPN to procure 
the Army's Shadow RQ-7B UAS as an interim replacement for the currently 
fielded Pioneer UAS. Pioneer has been in operational service by the 
Navy and Marine Corps since 1986, and is currently supporting Marine 
Corps operations as part of the global war on terrorism. Sustainability 
and obsolescence issues are increasing, making Pioneer both difficult 
and costly to maintain, which in turn threatens mission readiness. The 
Shadow UAS provides rapid fielding of a capability that meets urgent 
Marine Corps operational requirements and brings immediate 
interoperability and commonality between Army and Marine Corps units 
operating side by side in Iraq. We are also requesting the 
congressional committees approve a Prior Approval Reprogramming and New 
Start to allow procurement of the Shadow UAS with the Pioneer fiscal 
year 2007 funds.
Small Tactical UAS/Tier II (STUAS/Tier II UAS)
    The fiscal year 2008 budget requests $11.9 million in RDT&E ($6.14 
million Navy, $5.74 million Marine Corps) for a new STUAS/Tier II UAS 
program that will address Marine Corps and Navy ISR capability 
shortfalls identified in the global war on terrorism and currently 
supported by costly service contracts. The STUAS/Tier II UAS program 
will provide persistent, ship and land-based ISR support for tactical 
level maneuver decisions and unit level force defense/force protection. 
It will provide day/night (electro-optical/infrared) sensor capability 
in a small UAS that will have a minimal visual/acoustic signature at 
planned operating ranges. This program is planned to be an ISR asset 
that will be used to complement other high-demand, low-density manned 
and unmanned platforms, and be available to operate in scenarios where 
those assets may not be available to ship or other Navy/Marine Corps 
unit commanders. IOC is planned in 2010, with the initial system 
fielding focused on utilization of mature technologies.
Unmanned Combat Air System (UCAS)
    The fiscal year 2008 budget requests $161.7 million RDT&E for the 
Navy unmanned combat aircraft system (N-UCAS) program to conduct a 
carrier demonstration of a low-observable unmanned combat aircraft 
planform. The N-UCAS will develop and demonstrate an aircraft carrier 
suitable, low observable unmanned air vehicle to support carrier-based 
persistent and penetrating ISR missions, with strike capability, in 
high threat areas. The N-UCAS program will evolve and demonstrate 
technologies required for conducting launch, recovery, and carrier-
controlled airspace operations of an unmanned low observable planform. 
By fiscal year 2013, the Navy plans to achieve a CV demonstration and 
evaluation to identify technologies supporting future naval ISR and 
strike capability requirements.

                                SUMMARY

    The fiscal year 2008 Presidential budget request reflects 
considerable effort in identifying affordable solutions for the 
Department's aviation programs through a balance between sustaining 
fielded capabilities, as they are employed in the global war on 
terrorism and continued forward presence worldwide, and a substantive 
recapitalization effort that will deliver significantly better 
capabilities to the war fighter. The Department's aviation acquisition 
team continues to work aggressively to identify efficiencies in the 
development, testing and subsequent procurement of platforms, 
components, and weapons systems in order to ensure investments made 
result in quality products and services provided to the fleet.
    In closing, Mr. Chairman, thank you for the opportunity to testify 
before your subcommittee regarding the Department of the Navy aviation 
programs.

    Senator Lieberman. Thank you, Mr. Balderson. We're not 
accustomed to that kind of brevity here in the Senate. 
[Laughter.]
    Particularly not by Senators. But I thank you.
    Mr. Balderson. Oh, that's okay, Mr. Chairman.
    Senator Lieberman. General Chandler, welcome. I look 
forward to your testimony now.

STATEMENT OF LT. GEN. CARROL H. CHANDLER, USAF, DEPUTY CHIEF OF 
  STAFF FOR AIR, SPACE, AND INFORMATION OPERATIONS, PLANS AND 
 REQUIREMENTS, VICE CHIEF OF STAFF, DEPARTMENT OF THE AIR FORCE

    General Chandler. Thank you, sir.
    Mr. Chairman, Senator Cornyn, Senator Warner, it's a 
pleasure for me to be here, too, as well, representing the some 
700,000 Active Duty, Guard, Reserve, and civilians of your 
United States Air Force.
    I would ask, if I could, that my written statement be 
entered for the record.
    Senator Lieberman. Without objection, so ordered.
    General Chandler. I have a few main points that I would 
like to make, as well.
    As was noted earlier, your Air Force has been at war for 16 
years. Our aircraft and its inventory is older than it's been 
in our 60 years as a service, yet our people continue their 
exemplary performance to ensure we can fly, fight, and win 
across air, space, and cyberspace.
    America depends on air power more today than ever before, 
whether in contingencies, humanitarian assistance, strategic 
deterrence, or strategic defense, global vigilance, reach, and 
power are America's asymmetrical advantage.
    Our first priority is winning the global war on terror. 
That said, we must continue to ensure our warfighting future. 
Modernizing and recapitalizing our aging equipment will 
significantly enhance what we bring to the joint fight. At the 
same time, fiscal constraints challenge our ability to 
guarantee that global vigilance, reach, and power for the 21st 
century without increasing risk.
    We appreciate the committee's steadfast support of the Air 
Force and our airmen, and look forward to partnering with you 
further to ensure that the Air Force has full ability to manage 
its inventory.
    Around 15 percent of our aircraft inventory is restricted 
from being retired, by congressional language. Those are 
aircraft that are generally among the oldest, least reliable, 
and least useful. We need to retire them and replace them with 
fewer, but newer, more reliable, easier to maintain, and more 
effective combat aircraft. Our dominance tomorrow depends on 
our investment today.
    Today, we provide global power, directing and conducting 
strikes 24 hours a day, 7 days a week, 365 days a year, and 
we've made continuous improvements in how we rapidly deliver 
air power and precise effects. The typical global war on terror 
air mission has evolved from a preplanned, fixed target to a 
highly flexible on-call asset ready for a rapidly-changing 
battlefield.
    Today, we provide global reach in a number of ways. The C-
130 and the C-17 precision air drop and conventional cargo 
missions are saving lives by taking convoys off Iraqi roads. 
Air Force C-17s and C-5s are fulfilling vital aeromedical 
evacuation missions, which dramatically increase the changes of 
survival for critically-wounded soldiers, sailors, marines, and 
airmen.
    Despite averaging over 40 years old, our tankers continue 
to extend global reach, not only for Air Force aircraft, but 
for our joint and coalition partners, as well. Today, we 
provide global vigilance through manned and unmanned aircraft 
and space systems. Satellites, Predator, U-2, Global Hawk, 
JSTARS, and the like, track and survey and identify targets. 
Many of these Air Force assets also provide vital 
communications, navigation, and sensor capabilities for the 
joint team and other users.
    Your Air Force is meeting our Armed Forces strategic 
requirement to fight and win two nearly simultaneous major 
combat operations. However, wear and tear, and loss of buying 
power, result in future risk to readiness, capacity, and 
capability. Emerging threats, particularly through 
proliferation of advanced technology, threaten our future 
dominance. Therefore, it's imperative that we adjust and 
modernize our inventories for the new century.
    We have five acquisition priorities that would allow us to 
step towards future dominance:
    KC-X is our top priority. The Air Force is a global 
business, and, simply put, the single point of failure is the 
tanker.
    Combat search-and-rescue (CSAR-X) is our second priority. 
We consider it a moral and ethical imperative to provide CSAR-X 
anywhere, anytime, to any one of our joint or coalition 
partners. The Air Force is the only service organized, trained, 
and equipped for the CSAR mission.
    Our third priority, space systems, incorporate a number of 
improvements, including missile warning, space, imagery support 
requirement (ISR), and communications.
    Priority four is the F-35, a multi-role stealth precision-
strike fighter. Coupled with our stated requirement of 381 F-
22, the F-35 will be the workhorse air-to-ground fighter for 
your Air Force, the Navy, Marines, and our coalition partners.
    Finally, our fifth priority, the next-generation long-range 
strike, will provide a new bomber by 2018, the critical system 
to ensure range, payload, and persistent access. We must build 
a 21st century Air Force that is prepared to succeed 
tactically, operationally, and strategically. By funding and 
fielding these priorities, we can assure this future.
    Senator Lieberman. Excuse me a second, General.
    I want to say to my friends in pink, you're welcome here, 
but please do not say anything, because, if you do, and that 
interrupts the hearing, I'm going to have to ask the Capitol 
Police to remove you.
    Go ahead, General.
    General Chandler. Sir, our Active Duty, Guard, Reserve, and 
civilian airmen ensure that we are the world's dominant, air, 
space, and cyberspace force. These incredibly capable 
individuals, through long hours and ingenuity, are keeping our 
legacy systems viable for current contingencies. However, we 
owe these airmen, and future airmen, to transform into a more 
agile, capable, and technologically- advanced force.
    Again, sirs, I thank you for your time and look forward to 
your questions.
    [The joint prepared statement of General Chandler and 
General Hoffman follows:]

Joint Prepared Statement by Lt. Gen. Carrol H. Chandler, USAF, and Lt. 
                       Gen. Donald Hoffman, USAF

                            I. INTRODUCTION

    Senator Lieberman, Senator Cornyn, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss Air Force Tactical Aviation and other matters that are 
important to our Air Force and the Nation.
    Your Air Force is fully engaged around the world, fighting the war 
against terror while fulfilling our roles as airmen for the joint team. 
Simultaneously, we stand prepared to rapidly respond to conflicts 
around the globe. Air forces succeed when they anticipate and shape the 
future strategic environment and develop capabilities for the next 
fight. Air forces succeed when they remain focused on their primary 
mission as an independent force that is part of an interdependent joint 
team. We fly, fight and dominate in three warfighting domains--air, 
space, and cyberspace--providing our Nation sovereign options to employ 
military force like no other nation.

                           II. WE ARE AT WAR

    The missions your Air Force is flying today are the latest in a 
string of 16 continuous years of Air Force combat in the Central 
Command (CENTCOM) Area of Responsibility (AOR), beginning with our 
initial deployments to Operation Desert Shield in August 1990 through 
ongoing operations in Iraq and Afghanistan.
    To date your Air Force has flown over 82 percent of the coalition's 
353,373 sorties in Operation Iraqi Freedom (OIF) and 78 percent of the 
coalition's 211,427 sorties in Operation Enduring Freedom (OEF). On a 
typical day, the Air Force flies more than 430 sorties in support of 
OIF and OEF.
    In addition to our daily operations, the Air Force has also seen 
several surge periods over the past 16 years, resulting in higher than 
projected wear and tear on our people and platforms. The Air Force has 
responded to or has been prepared to respond across the spectrum of 
conflict--from rapid humanitarian aid to major combat operations (MCO). 
We have flown over 47,285 sorties in support of Operation Noble Eagle 
and over 3,411 counterdrug sorties, while also supporting operations in 
the Horn of Africa and the Philippine Islands. Currently, your Air 
Force has over 30,000 Total Force airmen deployed in support of global 
operations, while over 200,000 are supporting daily combatant command 
(COCOM) operations from other than deployed locations. We have airmen 
manning Intercontinental Ballistic Missile facilities, flying strategic 
bombers and performing special operations as well as search and rescue 
missions. Airmen continue to stand watch around the clock to protect 
and defend our national security and respond to any adversary should 
deterrence fail.
    While the global war on terror is the obvious and appropriate 
priority for the near-term, the United States Air Force (USAF) must 
prepare for emerging global threats. We expect to be engaged in the 
CENTCOM AOR for many years; yet at the same time we must continue to be 
able to detect, deter and dissuade other potential enemies, both 
traditional and nontraditional. The future security environment will be 
different from today, and a full range of military capabilities and 
advanced technologies will be needed to maintain relevance and 
advantage. We must not fail to anticipate increasingly lethal enemies 
or how they will conduct war in the future. The last time an American 
soldier was shot at by enemy aircraft was 1953. The ability to look up 
in the sky and know there's nothing to fear is priceless, but 
guaranteeing that precondition is costly. Today, America depends on air 
power to an unprecedented extent. The Air Force underwrites the 
national strategy of reassuring allies, while deterring, dissuading and 
decisively defeating enemies--this is not a luxury.

                       III. THREAT AND DETERRENCE

    We are a Nation at war; however, it would be incorrect to assume 
that recent combat operations represent the high-bar of what the future 
may hold. Our ability to sustain the long-term focus required to 
ultimately prevail in this global war depends in large part on the 
decisions of certain other Nations to forgo reckless adventurism--the 
kind of reckless behavior that could drag the United States and her 
Allies into a protracted, costly, and large-scale war. For all their 
costs and successes, operations like Operation Desert Storm, Kosovo, 
and even the invasion of Iraq in 2003 were at the very low intensity 
end of MCOs. None of our adversaries had a viable air force, and the 
air defenses they did have were precisely the systems our F-117 and B-2 
aircraft were designed to defeat.
    We must not confuse the present lack of large-scale, regional, 
state-on-state violence with an absence of conflict between nations. 
Disputed territory and natural resource competition are very real 
problems throughout the world and so is the risk that they will worsen 
under future demographic and energy stresses. We must not take comfort 
in the belief that our Nation will never enter a costly, large-scale 
war, especially in light of our experience in Iraq. Our interests, 
alliances, and sense of moral obligation could lead us into war in 
response to many predictable adversary actions, even if our existence 
or survival were not seriously threatened. Therefore our strategic 
requirement to win two, nearly simultaneous, MCOs is better viewed as 
the bare minimum for America's Armed Forces. It would be far better to 
deter the types of behavior that could make such costly warfare 
inevitable.
    Perhaps more so than any other capability of the joint force, the 
ability of U.S. airpower to respond quickly and violently, throughout 
the depth and breadth of their territory keeps potentially rogue 
regimes from following their worst instincts. Most importantly, this 
deterrence works even in the midst of a multiyear commitment of over 
100,000 U.S. ground forces in Iraq. If we do not replace our aging 
combat aircraft with sufficient numbers of advanced, modern platforms, 
we will surrender a deterrent of immeasurable value.
    Our potential adversaries understand that through continued 
development of anti-access systems, they can deny large-scale military 
responses. Many of them are developing or acquiring air defenses that 
would make a replay of the overwhelming success of Operation Desert 
Storm unlikely, and they seek systems that would make a replay of 
Kosovo impossible, in large part because they understand and fear U.S. 
airpower.
    We make no claim that our Nation can rely solely on airpower to 
execute our military strategy. However, as we look to the future and 
seek to posture ourselves for the evolving challenges of the war on 
terror, we must not undermine the very force structure and capabilities 
that have for so long deterred regional, state-on-state warfare. At the 
same time, if deterrence fails, it is the Air Force that sets the 
conditions necessary for successful joint operations. Our joint and 
coalition partners have enjoyed unmatched freedom of operational access 
due to Air Force capabilities and it is our responsibility to deliver 
that capability in current and future conflicts as well. From a 
national perspective, aircraft are some of the best military 
investments the United States can make for its future security. Both 
Air Force and independent studies and analysis support this assertion. 
A decision to seriously curtail essential aircraft procurement 
programs, especially in response to today's war in Afghanistan and 
Iraq, would be extremely shortsighted and costly to the Nation in the 
next 20 years.
    Fifth generation fighters like the F-22A and the F-35 are key 
elements to our Nation's defense and deterrence. As long as hostile 
Nations recognize the ability of U.S. airpower to strike their vital 
centers with impunity, all other U.S. Government efforts are enhanced, 
which reduces the need for military confrontation. This is the timeless 
paradox of deterrence; the best way to avoid war is to demonstrate to 
your enemies, and potential enemies, that you have the ability, the 
will, and the resolve to defeat them.

                          IV. FLEET MANAGEMENT

    The duration and tempo of operations in Iraq and Afghanistan have 
accelerated service life consumption for numerous USAF platforms. 
Additionally, our aircraft inventory is the oldest it has ever been, at 
an average age of more than 24 years. Our 5-year trend in mission 
capable and aircraft availability rates has declined in certain low-
density, high-demand platforms and remained steady only through the 
incredible efforts of our dedicated personnel. Our recapitalization 
challenge is meeting the near-term needs of our Nation, while at the 
same time ensuring that airmen inherit an Air Force that is relevant, 
capable and sustainable. We must recapitalize our aging fleet to ensure 
our continued advantage over future adversaries. We must also have the 
authority to manage our existing fleets including the retirement of our 
oldest aircraft.
a. Legacy Aircraft
    1. F-117--The F-117 was the first aircraft in the DOD inventory to 
provide critical stealth capability and it has been in service for over 
20 years. Advances in technology and demonstrated capabilities of other 
systems such as the Joint Air-to-Surface Standoff Missile, F-22A, and 
B-2 have mitigated the need to rely upon this aging and expensive-to-
maintain aircraft. As a result, the Air Force intends to retire the F-
117. Congress approved retiring 10 aircraft in fiscal year 2007. The 
fiscal year 2008 President's budget requests authorization to retire 
the remaining 42 aircraft. Cost savings realized from retiring these 
outdated aircraft will allow us the flexibility to better sustain our 
remaining fleets.
    2. Joint Surveillance Target Attack Radar System (JSTARS)--The E-8C 
JSTARS is an airborne battle management, command and control, 
intelligence, surveillance, and reconnaissance platform. Its primary 
mission is to provide theater ground and air commanders with surface 
moving target indications (SMTI) and tailored surveillance in support 
of operations and targeting. Joint STARS has been a significant 
contributor to U.S. Air Force fighting effectiveness in Operations 
Desert Storm, Joint Endeavor, Allied Force, OEF, and OIF. Continuing 
modifications and enhancements will sustain JSTARS viability beyond 
2034.
    E-8 JSTARS has been heavily deployed since September 11, 
maintaining above steady state surge operations tempo. Combined with 
recently approved crew ratio increases, this has created a significant 
backlog of students awaiting training. For example, Air Battle Manager 
training is approximately 1 year behind. To mitigate some of the 
training backlog, we have maximized the use of simulators and conducted 
some training while in deployed status. We have also reduced or 
cancelled major exercise events in order to surge programmed flying 
training, as well as doubled training aircraft from two to four. The 
training backlog has now been reduced enough to adjust training 
aircraft down to three aircraft.
    JSTARS' current engines are unable to meet a number of performance 
requirements. Re-engining the Joint STARS fleet will increase range and 
time on station, improve fuel efficiency, and reduce dependence on 
tankers. It will also improve reliability and maintainability, 
significantly decrease operating and maintenance expenses, increase 
available power and cooling for aircraft systems, improve take-off 
performance, increase maximum altitude, and comply with international 
noise and emission requirements.
    3. C-130--Changes in military force structure, including the 
President's proposed troop strength increase and the Integrated Global 
Presence and Basing Strategy reset, could increase airlift requirements 
and subsequently create the need for additional lift capacity. In the 
case of the aging C-130, the combination of vanishing vendors, obsolete 
parts, costly structural repairs, non-compliance with air traffic 
management requirements, Secretary of Defense-directed safety 
modifications, and decreased access to international airspace limit the 
overall effectiveness of this workhorse. Although strategic lift is 
vitally important for moving personnel and equipment, the lynchpin to 
the warfighter is the ability to go the last tactical mile. A 
synchronized intra-theater airlift system empowers the combatant 
commander with the ability to employ the Air Force's unique core 
competencies in their AOR. The active duty Air Force possesses 75 
percent of the oldest C-130 aircraft in the DOD fleet--at an average 
age of 42 years. The most pressing challenges today are un-programmed 
repair costs associated with cracks in the center wing box (CWB) and 
modernizing a portion of the fleet to meet the needs of the Nation in 
the future.
    As of April 2007, 53 Air Force C-130 aircraft are grounded or 
restricted due to surpassing equivalent baseline hour (EBH) milestones. 
All but one of those aircraft resides in the active duty. At 38,000 
EBHs, restricted aircraft are deemed combat ineffective due to flight 
maneuver and cargo capacity limitations. At 45,000 EBHs, aircraft are 
unworthy of safe flight and are grounded. Maintaining these aircraft 
adds an unnecessary expense while increasing workloads on our 
maintenance personnel. Only through innovative management and great 
cooperation with our Reserve and Guard Total Force partners have we 
been able to meet the needs of the warfighter to fill the airlift 
shortfall gap produced by the grounding of our oldest C-130s. To 
mitigate the immediate effects, we have implemented both short-term and 
long-term strategies to maintain a combat effective intra-theater 
airlift fleet, which meets warfighter requirements. The Air Force is 
retiring 24 of its oldest and least capable C-130E aircraft as allowed 
by Congress, we need to retire more as they reach the end of their 
useful service life.
    The Center Wing Box (CWB) inspect-and-repair program provided the 
short-term fix to keep C-130 aircraft operational while awaiting CWB 
replacement. Aircraft inspected and repaired can operate up to 7,000 
EBHs beyond the unrestricted limit. We have had near-term success in 
repairing 27 of the CWBs and plan to repair up to 62 C-130E/H aircraft 
at an estimated average cost of $700,000 per aircraft. However, not all 
aircraft inspected will be repairable. Recently, three C-130E aircraft 
were inspected and found to have substantial damage; repair estimates 
exceeded $2 millions per aircraft and were not considered fiscally 
prudent given their limited life expectancy.
    The Air Force is using the C-130 Avionics Modernization Program 
(AMP) to upgrade the fleet. The purpose of the C-130 AMP is to lower 
the cost of ownership while complying with the Air Force Navigation and 
Safety (Nav/Safety) Master Plan and applicable Communications, 
Navigation, Surveillance/Air Traffic Management (CNS/ATM) mandates. AMP 
is a cockpit modernization program that replaces aging, unreliable 
equipment and adds equipment necessary to meet Nav/Safety and CNS/ATM 
requirements. The new equipment will lower the cost of ownership by 
reducing cockpit crew manning, increasing aircraft reliability, 
maintainability, and sustainability as well as reducing the number of 
different aircraft configurations. The C-130 AMP includes improved 
precision airdrop capability, Night Vision Imaging System, and 
improvements to the precision approach and landing capability. The 
standardized cockpit will allow crewmembers to be trained to fly in one 
aircraft type and require only one mission qualification flight, 
thereby reducing training cost.
    The Air Force supports the C-130 AMP and considers it a ``must do'' 
program. The Air Force must start equipping the C-130 fleet with a more 
modern, more capable, and more cost effective cockpit to meet current 
and future warfighter requirements.
    C-130J--The C-130J is a completely modernized version of the 
workhorse C-130 that has served us admirably for over 50 years. The C-
130J will climb higher more quickly, and fly faster and longer than its 
predecessors. Its ability to takeoff and land in shorter distances will 
allow use of more locations. Improved reliability and maintainability 
will mean longer time between scheduled maintenance, reducing cost.
    The Air Force is currently funded to complete Multiyear Procurement 
#1 (MYP1) in fiscal year 2008, delivering 79 USAF C-130J aircraft (62 
Combat Delivery, 10 WC-130J, and 7 EC-130J). Three aircraft were added 
in the fiscal year 2006 Supplemental budget with delivery expected in 
fiscal year 2010, bringing the total to 82 aircraft. Global war on 
terrorism supplemental for fiscal year 2007 and fiscal year 2008 added 
5 and 15 aircraft respectively.
    The Commander of Air Mobility Command declared IOC for the C-130J 
on 5 October 2006.
    4. Tankers (KC-135)--It is noteworthy that the Air Force is 
providing vital air refueling capability via the oldest aircraft in the 
Air Force inventory. The average age of aircraft in our tanker fleet is 
43.3 years. Fifteen percent of our current air refueling fleet consists 
of the KC-135E model aircraft, which has an average age of 49.4 years. 
Fourteen of our KC-135 fleet will be grounded this fiscal year due to 
Expanded Interim Repair (EIR) expiration, followed by 16 aircraft in 
fiscal year 2008, 44 aircraft in fiscal year 2009 and the remaining 11 
aircraft in fiscal year 2010. All 85 of our KC-135E model aircraft will 
be grounded by the end of fiscal year 2010 due to EIR expiration.
    The Air Force has programmed all 85 of the remaining KC-135E 
aircraft to retire by the end of fiscal year 2008 and asks that 
Congress not restrict our ability to do so. The projected cost to keep 
a KC-135E flying with no additional warfighting capability (i.e. a 
basic KC-135E) after EIR expiration is $17.3 million per aircraft (85 
<greek-e> $17.3 million per aircraft = $1.4 billion for the entire 
fleet). The projected cost to maintain these obsolete tanker aircraft 
on the ramp after EIR expiration (referred to as XJ status) is 
approximately $11.7 million (85 <greek-e> $138,000 per aircraft) in 
fiscal year 2008.
b. Fifth Generation Fighters
    Both the F-22A and the F-35 represent our latest generation of 
fighter aircraft. We need both to replace capabilities inherent in our 
aging legacy platforms. The F-22A and F-35 present complementary 
capabilities--together they provide synergistic effects across the 
spectrum of conflict. The Office of the Secretary of Defense (OSD)-led 
2006 Quadrennial Defense Review (QDR) Joint Air Dominance study 
revealed two key points. The first was that our Nation has a critical 
requirement to re-capitalize tactical air forces. The second was that 
with sufficient 5th generation fighters, the F-35 and F-22A, joint air 
forces could win a MCO with forces remaining to win the next MCO. The 
study determined attrition would be higher with a legacy-heavy, 4th 
generation, force.
    1. F-22A--The F-22A Raptor is the Air Force's primary air 
superiority fighter, providing unmatched capabilities for operational 
access, homeland defense, cruise missile defense, and force protection 
for the Joint Team. The F-22A's combination of speed, stealth, 
maneuverability, and integrated avionics gives this remarkable aircraft 
the ability to penetrate denied, anti-access environments. Its 
unparalleled ability to find, fix, and destroy enemy air- and surface-
based threats ensures air dominance and freedom of maneuver for all 
Joint forces.
    A world-class production line produces Raptors at a rate of about 
two per month delivering unrivaled combat capability that ensures 
freedom of maneuver for all joint and coalition forces. The Air Force 
has accepted 92 F-22A aircraft to date and is currently negotiating the 
congressionally-approved multiyear contract for delivery of Lots 7, 8, 
and 9. The Air Force expects to award this contract in 2007. Currently 
we have 12 F-22A aircraft deployed to the Western Pacific in support of 
the Pacific Command Commander's area of operations.
    The F-22A force also optimizes capability return on investment. 
Fewer mobility assets are required to provide logistic support for the 
aircraft with smaller force packaging, and lower combat attrition. The 
average procurement unit cost continues to decline as we mature our 
production learning curve.
    2. F-35--The F-35 program will develop and deploy a family of 
highly common, affordable, next-generation, stealthy, multi-role, 
strike fighter aircraft meeting operational needs of the Air Force, 
Navy, Marine Corps, and Allies. The F-35 provides our Nation the strike 
capability necessary to defeat an adversary with large-scale, 
integrated anti-access capabilities. Studies including the OSD/Joint 
Study: Joint Air Dominance--2006 and Air Force studies have 
demonstrated the requirement for both the payload and survivability of 
the F-35 in the face of these new threats. Legacy 4th generation 
aircraft simply cannot survive to operate and achieve the effects 
necessary to win in an integrated, anti-access environment. Failure to 
recapitalize the fighter force with the F-35 will result in 
significantly increased risk both to our air and ground forces.
    Conventional take-off and landing test aircraft, AA-1, successfully 
conducted its first flight on 15 Dec 06. Since then it has flown 
thirteen times and its flying qualities are reported as excellent. The 
program is on track to meet all Low Rate Initial Production Lot I 
funding decision criteria and contract award by May 2007. The fiscal 
year 2008 President's budget did not support the General Electric/Rolls 
Royce F136 engine effort because the Defense Department concluded that 
a single engine supplier provided the best balance of risk and cost. 
The Government Accountability Office (GAO), Cost Analysis Improvement 
Group (CAIG) and the Institute for Defense Analyses (IDA) have 
conducted studies that re-examine the costs and benefits associated 
with an alternate engine program. CAIG and IDA final reports are 
expected in June 2007, however CAIG has indicated their study will 
likely support a single engine supplier, while IDA has not yet 
indicated which alternative their study will support. The GAO study 
supported an alternate engine program.
c. Emerging Capabilities/Platforms
    1. KC-X--Since aerial refueling tankers are one of the single 
points of failure in modern, joint warfare, our Secretary and Chief of 
Staff made tanker replacement and recapitalization your Air Force's #1 
acquisition priority. Our vision is a tanker born joint and able to 
refuel Air Force, Navy, and Allied aircraft on every mission using both 
boom and hose/drogue refueling capabilities.
    For the past 50 years, the Air Force's primary tanker platform has 
been the KC-135, and it has served with distinction. However, we are 
carrying great risk operating this aircraft beyond expected service 
life. Some of the oldest models already operate well beyond the point 
of cost-effective repair. Tanker recapitalization is not a new idea. In 
1999, a GAO report presaged the declining operational utility of our 
aging tankers and underscored the need for immediate investments in 
recapitalization. Given the increased operational requirements of our 
current operations around the globe, procurement of a new tanker 
aircraft--the KC-X--has become both an operational necessity and the 
most fiscally prudent option to maintain America's global presence and 
expeditionary capabilities.
    KC-X tankers will provide increased aircraft availability, more 
adaptable technology, and greater overall capability than the current 
inventory of KC-135E tankers they will replace. Enhancements to every 
aspect of aircraft operation will provide the Joint warfighter with 
more flexible employment options. It is imperative that we begin a 
program of smart, steady reinvestment in a new tanker--coupled with 
measured, timely retirements of the oldest, least capable tankers. 
Recapitalizing our tankers will ensure the viability of this vital 
national capability. Tankers make the air bridge possible and are 
essential to the success of joint and coalition military operations. 
Tankers are critical to the deployment and employment of joint combat 
power, and are crucial to rapid response to combat and humanitarian 
relief operations.
    Retiring operationally cost-prohibitive and less capable aircraft 
allows the Air Force to focus on recapitalization and invest in 
transformational capabilities. The KC-135E is a good example. It is 
significantly less capable than the KC-135R with less fuel offload 
capability and fails to meet world-wide airspace and noise 
restrictions.
    Operations in the 21st century mandate continuous modernization of 
our mobility platforms. To that end, the KC-X replacing the KC-135 
``will revolutionize the way we do business''. The KC-X will be able to 
multi-point refuel joint and coalition aircraft, carry cargo or 
passengers and self-deploy.
    Release of the KC-X request for proposal (RFP) on 30 January 2007 
set the stage for a fair, full, and open competition that will lead to 
the fielding of a flexible and versatile platform. The resultant tanker 
will possess numerous advantages over the current KC-135 fleet. In 
today's dynamic political-military environment, and with fiscal 
constraints in mind, the Air Force must maximize the abilities of each 
platform.
    The KC-X RFP defines an integrated, capability-based, best-value 
approach and is the first third of the fleet-wide tanker replacement 
program that will leverage new technologies and industry best 
practices. The RFP includes specific factors for assessing the 
capability contribution of each offeror. Along with cost and 
assessments of past performance and proposal risk, these factors 
provide the source selection authority with excellent means to 
determine the best value between proposals of significantly differing 
capabilities and cost.
    The RFP stipulates nine primary key performance parameters:

          1) Air refueling capability (same sortie boom and drogue 
        capable)
          2) Fuel offload and range at least as great as the KC-135
          3) Compliant CNS/ATM equipment
          4) Airlift capability
          5) Ability to take on fuel while airborne
          6) Sufficient force protection measures
          7) Ability to network into the information available in the 
        battle space
          8) Survivability measures (defensive systems, EMP hardening, 
        chem/bio protection, etc.)
          9) Provisioning for a multi-point refueling system to support 
        Navy and Allied aircraft

    The Air Force has gone through a rigorous review process for KC-X 
and has validated that the RFP accurately reflects the requirements as 
laid out by the warfighter. The Air Force remains committed to a full 
and open competition that will continue to be conducted in a 
transparent and deliberate manner. The Air Force expects to award the 
KC-X contract in 2007.
    2. CSAR-X--The Air Force is the only Service with dedicated forces 
organized, trained, and equipped to perform combat search and rescue 
(CSAR). Air Force CSAR forces recover downed aircrew and other isolated 
personnel and conduct rescue operations across the spectrum of military 
operations including humanitarian relief, emergency evacuation, 
disaster relief, and civil support operations. Our average CSAR 
helicopter is 21 years old, is a low-density, high-demand asset and is 
limited in range, payload and high-altitude capability. This is our 
Service's number two acquisition priority behind a new tanker aircraft. 
The Air Force has a moral and ethical imperative to our airmen, fellow 
servicemembers, and coalition partners to provide combat search and 
rescue anytime and anywhere required.
    In November 2006, the Air Force awarded a System Development and 
Demonstration (SDD) contract to Boeing Integrated Defense Systems. 
Following this decision, Lockheed-Martin and Sikorsky filed source 
selection protests with the GAO, and the GAO sustained the protests 
concerning CSAR-X source selection on 26 Feb 07. The Air Force is 
currently reviewing the GAO's findings to ensure complete understanding 
of the conclusions and recommendations, while determining the way 
ahead. The Air Force remains committed to the timely acquisition of a 
helicopter that best meets the warfighter's requirements.
    3. Joint Cargo Aircraft (JCA)--The final piece to the intra-theater 
mix is the JCA. The JCA will supplement the C-130 fleet by delivering 
smaller payloads more effectively. In December 2005, PDM-III directed 
merging the Army Future Cargo Aircraft and the Air Force Light Cargo 
Aircraft programs into the JCA with acquisition under the Joint Program 
Office. In June 2006, the Army Vice Chief of Staff and the Air Force 
Vice Chief of Staff signed a JCA Memorandum of Agreement. The USA/USAF 
will conduct business case analyses to determine the most cost 
effective methods for implementing the Under Secretary of Defense 
(Acquisition, Technology, and Logistics)-directed single supply chain, 
single training base, and single maintenance process.
    In October 2006 the JCA Joint Program JPO stood up at Redstone 
Arsenal, Huntsville, AL, which was a huge milestone for the joint 
program, and a testament to the progress both services have made. Both 
Services are working to ensure a successful Milestone C at the end of 
May 2007. Assuming a successful MS C decision, Army production (two 
aircraft) will begin in fiscal year 2007 with Air Force production 
beginning in fiscal year 2010.\1\
---------------------------------------------------------------------------
    \1\ RAND is currently completing the Intra-theater Airlift 
Capabilities Based Assessment (F-Studies) and will also provide a fleet 
mix analysis by December 2007. These studies will analyze the intra-
theater airlift capability determining the right mix (C-130 and JCA) to 
meet COCOM requirements.
---------------------------------------------------------------------------
    4. Unmanned Aerial Vehicle (UAV) Executive Agency--The Chief of 
Staff of the Air Force recently sent a memo to the Deputy Secretary of 
Defense, the Chairman of the Joint Chiefs, the Service Chiefs, and 
COCOM commanders articulating the benefits of designating the Air Force 
as the DOD executive agent for medium- and high-altitude UAVs. The 
intent of the Chief's UAV executive agent proposal is to improve 
delivery of ISR information to America's joint warriors on the ground, 
at sea, and in the air while increasing jointness and achieving 
resource efficiencies. Specifically, the benefits of designating the 
Air Force as executive agent for medium- and high-altitude UAVs fall in 
three major categories: 1) Achieving efficiencies in acquisition and 
sustainment; 2) Increasing warfighting effectiveness in designing an 
optimal medium- and high-altitude UAV concept of operations; and 3) 
Enhancing UAV interoperability by directing common, synchronized 
architectures, data links, radios, etc.
    The 2006 QDR recognizes that an executive agent definition may 
vary, but the universal intent is to ensure joint efforts are 
efficiently managed and resourced. In the case of medium- and high-
altitude UAVs, the executive agent would integrate the development, 
acquisition, procurement and sustainment of jointly designed, 
standardized UAVs and their associated equipment and ground-control 
stations.
    The primary focus of the executive agent would be on programs where 
the majority of DOD's near-term investments are being made--MQ-1 
Predator, MQ-1C Warrior, RQ-4 Global Hawk, Broad Area Maritime 
Surveillance, and MQ-9 Reaper. It is reasonable to expect that the 
present medium- and high-altitude UAV investment budget could be 
reduced. Additional efficiencies could be achieved through common 
basing, training, sustainment, and employment.
    Without an executive agent, the Services will likely continue their 
separate design and procurement efforts, and the DOD will have 
forfeited the considerable savings it could have realized. 
Additionally, the DOD will have lost an opportunity to create and 
harness the inter-Service synergies that would result from building 
upon--rather than duplicating--each Service's strengths. The Services 
need to be moving toward increased interdependency, vice resourcing to 
achieve self-sufficiency.

                               V. CLOSING

    We are building a 21st century Air Force prepared to succeed--
strategically, operationally, and tactically. Our highly capable and 
lethal aviation programs provide Global Vigilance, Global Reach, and 
Global Power. These capabilities are critical today and for the future 
Joint force.
    But air forces do not succeed--or fail--on their own. We request 
Congress' help, in particular, to fix a strategic ends-means gap 
between the roles and missions we're expected to fulfill for the Nation 
and the funding we're being given to accomplish the mission. We 
respectfully request relief from existing congressional language 
preventing us from divesting our inventories of obsolete aircraft and 
those grounded or restricted due to surpassing their EBHs. The freedom 
to divest our inventories of these aircraft will provide us the 
flexibility to recapitalize your Air Force with more current and 
relevant capabilities, to maintain an Air Force that is second to none, 
to continue to provide a deterrent to potential adversaries, and to 
soundly defeat adversaries should deterrence fail.
    The Air Force is committed to advancing our tactical and strategic 
aircraft programs and capabilities to fully support the joint and 
coalition team. We appreciate your continued support in turning our 
vision into an operational reality. Our nation must invest today to 
ensure tomorrow's air, space, and cyberspace dominance.

    Senator Lieberman. Thank you, General.
    I think it's quite a powerful statistic, in terms of what 
your needs are, that the inventory of the Air Force is older 
than it's been in the 60 years that the Air Force has been a 
service.
    General Chandler. Yes, sir.
    Senator Lieberman. General Hoffman, thank you for being 
here.

STATEMENT OF LT. GEN. DONALD J. HOFFMAN, USAF, MILITARY DEPUTY, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
            ACQUISITION, DEPARTMENT OF THE AIR FORCE

    General Hoffman. Mr. Chairman, I thank the committee for 
the opportunity to discuss our Air Force programs.
    In addition to support for the requested amounts in the 
President's budget, there are two areas that I would ask this 
committee for support. The first is on the Berry Amendment.
    Last year's authorization language allowed integrated 
circuits with diminished amounts of specialty metals to be 
exempt from Berry compliance. We very much appreciate this 
relief, but ask that this logic be extended to fasteners and 
small parts, or that we incorporate a market basket approach to 
the actual production facility.
    We spend an enormous amount of government and industry time 
validating information to waive the Berry Amendment. As an 
example, for the advanced medium-range air-to-air missile 
(AMRAAM), we spent over 2,200 man-hours to review 4,000 parts 
and produce an 8-inch document to waive items worth $1,400 on a 
half-a-million- dollar missile.
    The V-22 program just completed 6 months of work on the 
waiver package for 1,751 noncompliant parts that represent only 
0.14 percent of the value of that system. One example is a 13 
cent nut that meets military standards, but is noncompliant. To 
produce an equivalent nut that is compliant would take 48 weeks 
and cost 40 times as much.
    Commercial buying practices have the potential to save the 
Government significant amounts of money, but buying commercial 
items in compliance with Berry are not compatible, as the 
global supply system does not track the original metal source 
for small parts.
    The second area we could use relief is in simulator 
training. Last year's authorization language restricted our 
ability to use operations and maintenance dollars to purchase 
simulator training, and requires us to develop and procure the 
simulators. We would like the flexibility to evaluate both 
approaches to determine the best value to meet the warfighter's 
needs. We have very successful examples of simulator services 
for our F-15 and Airborne Warning and Control System 
crewmembers, and we would like to keep that avenue as an 
option.
    I look forward to your comments and questions. Thank you.
    Senator Lieberman. Thanks, General.
    General--is it Castellaw?
    General Castellaw. That's good, sir.
    Senator Lieberman. Was it good enough? [Laughter.]
    General Castellaw. More than good enough.
    Senator Lieberman. Okay. Thanks very much for being here. 
We welcome your testimony now.

     STATEMENT OF LT. GEN. JOHN G. CASTELLAW, USMC, DEPUTY 
      COMMANDANT FOR AVIATION, UNITED STATES MARINE CORPS

    General Castellaw. Yes, sir. I ask that my written 
statement be put in the record, and a short opening .
    Senator Lieberman. Without objection.
    General Castellaw. Senator Lieberman, Senator Cornyn, and I 
see we have the old Virginia country lawyer here. It's always 
good to have you, Senator Warner. I appreciate the opportunity 
to represent the Marine Corps in talking about our 2008 
tactical air (TACAIR) programs.
    The Marine Corps is operating at the highest operational 
tempo in over 40 years. It is imperative that we sustain our 
legacy systems while transitioning to new platforms and 
preparing for the long struggle.
    Marine aviation comprises about 15 percent of tactical jet 
aviation, but I submit to you that this is the most capable, 
flexible, and cheapest 15 percent of America's TACAIR. On any 
given day, Marine TACAIR is operating from our Navy carriers 
integrated in their air wings, operating as a part of our 
Marine amphibious units, the aviation elements that are 
embarked aboard amphibious shipping, and also operating ashore 
from expeditionary sites supporting our joint forces in combat. 
I say to you that there's no other TACAIR force that has this 
flexibility and capability.
    This year's submission contains funding to keep our legacy 
aircraft operating, relevant, and ready. It also includes the 
procurement of Marine tactical jet aircraft, the first 
procurement in 10 years. This year, we are taking two Hornet 
squadrons to cadre status and reinvesting the equipment into 
the remaining aircraft squadrons. There are only three types of 
Marine squadrons, those that are deployed, those that are 
fixing to be deployed, and those that are just getting back. It 
is our intent that we will keep our aircraft squadrons fully 
capable of deploying, and because the strike fighter shortfall 
for the Marine Corps is now, we are doing that.
    Our focus from the birth of Marine aviation has been to 
support our Mud Marine brethren. Our operational concept is 
pretty simple. We call it Grunt-Based Operations. Our marines, 
whether in the streets of Ramadi or in the Western Pacific, 
deserve our best effort.
    I look forward to your questions. Thank you very much for 
allowing me to be here.
    [The prepared statement of General Castellaw follows:]

         Prepared Statement by Lt. Gen. John G. Castellaw, USMC

    Chairman Lieberman, Senator Cornyn, and distinguished members of 
the subcommittee, thank you for the opportunity to appear before you to 
discuss Marine Corps Aviation. Today, over 30 percent of Marine 
Aviation is deployed overseas afloat and ashore. This past year we have 
flown over 80,000 combat hours in both rotary and fixed wing aircraft. 
This significant achievement is due to the tireless efforts of our 
Aviation Marines and the consistent support of Marine Aviation by this 
subcommittee. Thank you for your dedication and oversight.
    The primary focus of Marine Aviation is ``Grunt'' Based Operations. 
In the same tradition of Marine aviators that flew over Guadalcanal in 
World War II and the skies of Korea providing support to Marine and 
Army infantry units, your Marine Corps is adding to its rich tradition 
of providing the best aviation support to the Joint Force available in 
the world today. To that end, Marine Aviation has three priorities that 
guide all of our actions: Sustain the Current Fight, Modernize the 
Force, and Prepare for the Long War. Execution of any one of these 
priorities is a formidable challenge. Today, we are executing all three 
concurrently in order to win the battle while preserving our current 
warfighting capabilities to ensure we are ready to respond. Our goal is 
not only to preserve but also to expand upon our expeditionary nature 
so that when called, Marine Aviation can quickly and effectively defend 
our critical national interests. There is no greater calling and Marine 
Aviation will always remain ``On Call in a Dangerous World''.

                       SUSTAIN THE CURRENT FIGHT

    The fiscal year 2008 President's budget request balances 
sustainment of legacy aircraft operating at surge rates with continued 
recapitalization of our force. United States Marine Corps Aviation is 
focused on a capabilities-based approach to provide the Marine Air 
Ground Task Force (MAGTF) and Joint Force with the ability to conduct 
full spectrum combat operations.

                                 RESET

    Increased wartime utilization rates for our legacy aircraft has 
demanded innovative solutions to ensure our aviation fleet remains 
ready and capable of supporting our most important asset--the 
individual marine. The Corps' Reset Combat Sustainment in Theater 
Program in the past 12 months has repaired over 7,000 aircraft 
discrepancies and provided the Marine Corps over 126,000 direct 
maintenance man-hours. In the continental United States, the Reset 
Program has funded approximately 1 million direct maintenance man-
hours. Funding of the Reset Program has allowed this maintenance to be 
completed, which, considering operational tempo, would have been 
deferred. Additionally, the Reset program in fiscal year 2006 and 2007 
has supported depot repair of over 250 Marine aircraft and is intended 
to support depot repair of approximately 170 aircraft in fiscal year 
2008.

                 AIRCRAFT SURVIVABILITY EQUIPMENT (ASE)

    We are operating against a highly adaptive and motivated enemy who 
continues to introduce advanced weapons systems to mitigate our 
aviation assets in theater. The Marine Corps has lost eight aircraft to 
direct enemy action in combat operations since September 11. In order 
to pace ourselves ahead of proliferation of advanced anti-air 
technologies, we continue to mitigate threats to rotary wing aviation 
in global war on terrorism theaters through a combination of tactics, 
techniques, procedures, and upgraded Aircraft Survivability Equipment 
(ASE). To prevent current technology lagging behind the threat, 
increased DOD science and technology (S&T) community focus and funding 
on developing the next generation helicopter survivability equipment 
are required to counter emerging threats. We need an improved 
capability to operate against advanced technology Man-Portable Air 
Defense Systems, and in degraded visibility environments. Marine 
Aviation has invested $390 million on rotary wing ASE development and 
procurement in the last 7 years. We have requested an additional $66.4 
million in the fiscal year 2007 supplemental budgets for continued 
RDT&E and procurement of the latest available ASE technology for our 
helicopters. For fiscal year 2008 the Department of the Navy has 
requested $29.7 million for continued Directed Infrared Countermeasures 
(DIRCM) development, a state of the art ASE system that will enable 
Marine Aviation to pace the threat of advanced anti-aircraft systems 
proliferation. Your continued support is required to ensure our pilots 
and aircrews have the most current survivability technology available 
to them.

                       AVIATION TRAINING SYSTEMS

    Aviation Training Systems (ATS) is a holistic, measurable approach 
to achieving optimum combat readiness for the fleet while 
simultaneously ensuring we are husbanding our resources through an 
increased focus on safety and standardization. The mission of ATS is to 
plan, execute, and manage Marine Aviation training to achieve 
individual and unit capability across all aviation core competencies to 
support full spectrum combat operations. Marine Aviation, through ATS, 
is pursuing the development of fully integrated training systems for 
both new and legacy aircraft to greatly enhance operational readiness, 
to improve safety through greater standardization, and to significantly 
reduce the life cycle cost of maintaining and sustaining aircraft. ATS 
will integrate all post-accession Officer and Enlisted training, 
operational safety programs, and standardize our training curriculums, 
simulation devices, and evaluation processes through three core 
elements. These include: training device configuration and 
standardization; Systems Approach to Training derived curriculum; 
Standardization and Evaluation of Flight Leadership, Instrument and 
Naval Air Training and Operating Procedures Standardization (NATOPS) 
programs, and standardized operating procedures among like units. Our 
way forward includes the stand-up of the Marine Aviation Training 
Systems Squadron (MATSS) at each Marine Corps Air Station (MCAS) 
beginning this fall. Currently, there is one functional MATSS located 
onboard MCAS New River, North Carolina. MATSS New River has been highly 
successful with its responsive management of training systems for our 
tilt-rotor and rotary wing assets.
AV-8B
    As the primary expeditionary TACAIR jet in the Marine Corps, our 
legacy AV-8B fleet must be maintained at a high level of readiness to 
support current combat operations in global war on terrorism theaters. 
The fiscal year 2008 budget requests $17.4 million RDT&E funds to 
support development of the Engine Life Management Plan (ELMP)/
Accelerated Simulated Mission Endurance Testing, Tactical Moving Map 
Display, the Readiness Management Plan (RMP), and moving the LITENING 
targeting pod to the centerline station. This effort will increase the 
ordnance carriage capability of the Harrier to better support combat 
operations. The fiscal year 2008 budget also requests $40.5 million 
procurement funding for procurement of Open Systems Core Avionics 
Requirement, TAV-8B Upgrade, ELMP upgrades, and the RMP, which 
addresses aircraft obsolescence and deficiency issues associated with 
sustaining the current AV-8B fleet. The AV-8B program is additionally 
transitioning to a Fatigue Life Experienced Analysis program to more 
accurately track the useful life remaining on our legacy fleet. This 
program will commence in fiscal year 2009 and will help to manage our 
legacy inventory of AV-8Bs until transition to the F-35B.
F/A-18 A+/C/D
    The backbone of Marine TACAIR capability resides in the F/A-18. 
Increased wartime utilizations rates, particularly in our F/A-18D 
fleet, demand that we continue to modernize the Hornet to maintain our 
combat capability in global war on terrorism theaters. The fiscal year 
2008 budget request contains $73.6 million for the continuation of the 
systems upgrade programs for legacy F/A-18 platforms. Included in this 
request is the continued procurement of recently fielded systems such 
as Joint Helmet Mounted Cueing System, Multi-Function Information 
Distribution System, and Digital Communications System. The Marine 
Corps continues to upgrade 56 Lot 7-9 F/A-18A to Lot 17 F/A-18C 
aircraft capability with digital communications and tactical data link. 
The Marine Corps is upgrading the current capabilities of the F/A-18C/D 
with digital communications, tactical data link and tactical 
reconnaissance systems. This upgrade ensures that our F/A-18s remain 
viable and relevant in support of Department of the Navy (DoN) Tactical 
Air Integration and supports our Expeditionary Maneuver Warfare 
concept. When combined with data link hardware and the Rover Ground 
Station, the LITENING pod provides real time video to ground forces 
engaged with the enemy, adding a new dimension to precision fires and 
Intelligence, Surveillance, and Reconnaissance (ISR). Our fleet of 
legacy F/A-18D's is currently flying at four times their programmed 
rate. The fiscal year 2008 budget also requests $112 million allowing 
for procurement of center barrel replacements to extend the service 
life of F/A-18 A+/C/Ds 7 years to meet fleet inventory requirements 
until 2022. This initiative is critical to ensure we have adequate 
numbers of F/A-18's to meet National Military Strategy requirements 
until we transition to the F-35B.

               EA-6B AND FUTURE MAGTF ELECTRONIC WARFARE

    Control and manipulation of the electromagnetic spectrum in global 
war on terrorism theaters has and will continue to play an important 
role in our success on the battlefield. Multiple initiatives are 
underway to expand and better integrate the capabilities of electronic 
warfare to achieve our objectives. The Marine Corps remains fully 
committed to flying the EA-6B Prowler past 2015 as we look to enhance 
our legacy capabilities and posture for our future MAGTF Electronic 
Warfare Network. The fiscal year 2007 supplemental budget requests 
$113.5 million for RDT&E and procurement for continuing EA-6B upgrades 
and readiness improvements, which increase the operational availability 
of this low-density, high-demand aircraft and reduce operating costs. 
These requests include $97.7 million for purchase and installation of 
seven Improved Capability (ICAP) III aircraft systems for USMC EA-6Bs. 
Also included in our $113.5 million request are Multifunction 
Information Distribution System kits, which will provide dramatically 
improved emitter identification and location information, Link-16 
connectivity for shared situational awareness, as well as Blue Force 
Tracker capability. We are also conducting close coordination with the 
Air Force to leverage joint development of the Next Generation Jammer, 
the Digital Radio Frequency Memory (DRFM) program, and the Adapted 
Joint C\4\ISR Node program.
    Beyond the Prowler, the Future Electronic Warfare Network for the 
Marine Corps will comprise a ``system of systems''. The constituent 
components of this network include; the F-35B Joint Strike Fighter, 
with its embedded array of electronic warfare capabilities; Unmanned 
Aerial Systems (UAS) capable of carrying scalable and specifically 
tailored electronic warfare suites; ISR payloads, and ground systems 
already fielded and under development. This system will possess both 
offensive and defensive capabilities. A key tenet of our future vision 
is an array of electronic warfare capabilities, not just a single 
electronic warfare platform. The individual pieces of hardware used to 
conduct future electronic warfare will comprise the tentacles of the 
distributed network. This network will serve as the backbone for our 
electronic warfare capability. This is a critical and important 
distinction for the Corps and is what will make future USMC electronic 
warfare capabilities so useful to the MAGTF and the Department of 
Defense.

                            WEAPONS PROGRAMS

    Since 2003, Marine TACAIR have employed 691 Joint Direct Attack 
Munitions (JDAMs), 2,710 Guided Bomb Units, and 268 Maverick missiles 
during combat operations. The fiscal year 2008 Budget supports 
precision-guided munition (PGM) programs that continue to support 
combat operations.

                    DUAL-MODE DIRECT ATTACK WEAPONS

    In combat, our aviators need weapons systems that can respond to 
the changing, dynamic conditions of today's battlefield to support 
ground operations. Based on an urgent needs statement and feedback from 
the combatant commanders in Iraq and Afghanistan, the DoN determined 
that improved responsiveness and flexibility was required for close air 
support (CAS) missions in support of Marine and Army ground forces. To 
address these shortcomings, the Department leveraged congressionally 
directed funding in the research of dual-mode laser-guided weapons and 
successfully developed and integrated Global Positioning System and 
laser guided technologies into a single direct-attack weapon. This 
capability will be fielded on Marine Corps F/A-18 A+/C/D and AV-8B 
aircraft this summer to reduce the number of sorties needed to destroy 
intended targets, while providing the warfighter with increased 
flexibility in adverse weather against all classes of targets. 7000 
Dual Mode Direct Attack Weapons were procured and will be delivered by 
the end of fiscal year 2008. The fiscal year 2008 budget requests $29 
million to develop the Direct Attack Moving Target Capability (DMTC). 
In January, testing was completed on a Low Collateral Damage Bomb 
(LCDB), in response to a CENTCOM requirement for our legacy aircraft. 
The LCDB can be used with existing Direct Attack Laser Guided Bomb 
(DMLGB) or JDAM kits and will be available to our warfighters before 
June.

   JOINT AIR-TO-GROUND MISSILE (JAGM) (FORMERLY JOINT COMMON MISSILE 
                                 (JCM))

    Marine Aviation needs a flexible, all-weather, common air-to-ground 
weapon system to replace the TOW, Hellfire, and Maverick missiles that 
can be employed against both stationary and moving ground targets by 
fixed and rotary wing aircraft. The Marine Corps has expended 1,155 
Hellfire and 991 TOW air-to-ground missiles in support of ground forces 
engaged in combat since 2003. A JROC Memorandum called for a RDT&E 
effort, beginning in fiscal year 2007, to mitigate JROC-validated 
capability gaps in precision munitions by developing the next 
generation Air-to-Ground CAS weapon for fixed-wing, rotary-wing, and 
UAV aircraft. The Marine Corps is participating, with the Joint Staff, 
in an OSD-led Concept Decision Review. The Concept Decision Review will 
obtain a Tri-Chair strategic investment decision on JAGM in the first 
half of this calendar year. A low collateral damage PGM for moving 
targets is critical for Marine Aviation as a replacement for our aging 
stockpiles of TOW, Hellfire and Laser Maverick family of weapons. The 
Services have put $68.5 million in the fiscal year 2008 budget for JAGM 
risk reduction and seeker technology RDT&E.
Modernize the Force
    F-35B
    The F-35B Short Takeoff and Vertical Landing (STOVL) Joint Strike 
Fighter (JSF) is critical for maintaining our preeminence in 
expeditionary operations, exemplified by our legacy AV-8B Harrier jump 
jets during the march to Baghdad during OIF I. The fiscal year 2008 
budget requests $1.7 billion RDT&E for continuation of F-35 System 
Development and Demonstration (SDD) and $1.3 billion APN (including 
spares) for the initial DoN low rate production lot (LRIP 2) for six 
STOVL aircraft with $120 million for long lead funding for eight STOVL 
aircraft as part of LRIP 3. This budget request contains the first 
TACAIR jets procured for the Marine Corps in 10 years. We continue to 
provide the least expensive and most flexible component of our Nation's 
tactical air capability. On any given day, Marine TACAIR is aboard 
carriers, flying from amphibious shipping and operating ashore at 
expeditionary sites, all simultaneously. However, our legacy platforms 
are rapidly dwindling as we operate them at several times the normal 
peace time rates. In order to meet our future operational commitments 
we must maintain a procurement profile supporting a 2012 F-35B Initial 
Operational Capability (IOC) along with quantities to rapidly refill 
our depleted squadrons at an economical rate. The mature, thoughtful 
design of the F-35B and technological advances to replace many 
individual stovepipe capabilities into a single platform will provide 
the Marine Corps with a highly advanced, persistent, and enduring 
tactical aircraft for the next 50 years; the F-35B will act as an 
integrated flying combat system in support of our ground forces and 
will aid in providing full spectrum dominance of the battle space. We 
are managing our current strike fighter shortfall through reinvestment 
of existing squadrons in the rest of our fleet. If IOC of the F-35B is 
deferred past 2012 and the procurement ramp rate is shallowed out, the 
Marine Corps will be unable to fill its future operational commitments.
V-22 Osprey
    As the Commandant of the Marine Corps announced on 13 April, VMM-
263, our first operational MV-22 squadron, will deploy to Iraq in 
September of this year. This deployment directly supports our Corps' 
number one priority--our marines and sailors in combat. With thousands 
of flight hours of testing and training, in environments ranging from 
shipboard to the desert, the MV-22 is a mature technology that Osprey 
crews are eager to employ. The decision to send this aircraft to combat 
in Iraq underscores our confidence in it. The quantum leap in 
capability represented by the Osprey will give the Joint Force 
significantly increased flexibility and reach.
    The fiscal year 2008 budget requests $2 billion of procurement 
funding for 21 MV-22s, associated spares, aircraft retrofit, and 
Economic Ordering Quantity investments supporting fiscal years 2008-
2013 multiyear procurement, and $118 million of RDT&E for continued 
development, testing and evaluation. The V-22 Program will deliver a 
total of 13 aircraft in fiscal year 2008. Recent contractor performance 
has met expectations with on-time deliveries of block B aircraft and 
timely contractor support.
    To date, 29 Block A and 16 Block B aircraft have been delivered to 
support developmental testing, Operational Evaluation (OPEVAL), 
training and initial fleet fielding. The MV-22 completed OPEVAL in 2005 
and fielding is underway at MCAS New River, North Carolina. Three 
squadrons have commenced the transition from the 40-year-old CH-46E to 
Block B MV-22Bs. The first of these two squadrons will provide an IOC 
in fiscal year 2007. In full rate production, the aircraft procurement 
rate will ramp up to 30 aircraft per year. The program of record 
includes 360 MV-22s for the Marine Corps.
    The demands of global war on terrorism and modernization of our 
Expeditionary Warfare capabilities have increased the urgency to 
rapidly field the MV-22 Osprey as a replacement for the 40 year old CH-
46. Its design incorporates advanced technologies in composite 
materials, survivability, airfoil design, fly-by-wire controls, digital 
avionics and manufacturing. The MV-22 is capable of carrying 24 combat-
equipped marines or a 10,000-pound external load, and has a strategic 
self-deployment capability of 2,100 nautical miles with a single aerial 
refueling. It is vastly superior to the CH-46E it replaces, with twice 
the speed, three times the payload, five times the range, and six times 
the survivability. The V-22 Osprey is a joint platform for the Navy, 
Marine Corps, and Air Force. It is providing significant opportunities 
for joint training, tactics development, and mission execution.
KC-130J
    Aerial refueling and assault support are key warfighting tasks 
assigned to the KC-130J in global war on terrorism theaters. The KC-
130J extends the operational flexibility of the MAGTF commander by 
providing increased persistence over the battlefield of our TACAIR 
fleet and critical supplies for our ground forces when and where they 
are needed. Simply put, the Marine Corps KC-130J is the work horse of 
Marine Aviation in OIF. Six aircraft have been continuously deployed in 
support of OIF since IOC and have provided the warfighter state of the 
art, multi-mission, tactical aerial refueling, and fixed wing assault 
support assets that have exceeded expectations. This year's deployment 
of the in-flight refueling capable MV-22 significantly increases the 
tanking requirement of the KC-130J community. The fiscal year 2008 
budget requests $270 million for procurement of four aircraft, 
associated spares, and advanced procurement. The Marine Corps is 
currently in a multiyear procurement program with the Air Force to 
procure a total of 35 aircraft by the end of fiscal year 2008. The 
program calls for the continued procurement of two aircraft per year.

                    UNMANNED AIRCRAFT SYSTEMS (UAS)

    Knowledge is power on the battlefield and the Corps' family of UAS 
aircraft provides critical, persistent ISR capabilities to our 
commanders on the ground in support of combat operations. Marine 
Aviation has the lead for Tier III of the USMC UAS Family of Systems 
that is designed primarily to support a MEF or Joint Task Force-level 
commander. The Pioneer UAS has served us well since 1986 in this role; 
it has proven its worth in the fight against insurgent forces and 
terrorists in Iraq. However, due to the Pioneer's age and obsolescence, 
it has become a logistical challenge for our operational forces. Based 
on these challenges, the Marine Corps decided it will begin to 
transition to the Army Shadow UAS during the fourth quarter of fiscal 
year 2007. The Shadow's capabilities are similar to the Pioneer and 
have been upgraded over the past few years. It will provide commanders 
with a day/night ISR and target acquisition capability. This year's 
Presidential Budget contains a request for $90.3 million for 
procurement for five of 13 required Shadow systems. We envision the 
Shadow serving as an interim system until a Vertical UAS (VUAS) is 
developed and fielded in the 2015 timeframe.
    The VUAS will provide a capability that can be either land or sea-
based. It will provide the future MAGTF with organic, responsive and 
real-time ISR as well as electronic attack, fires, and command and 
control capabilities, operating in concert with all MAGTF assets.

                             CH-53K PROGRAM

    Heavy lift requirements for Marine Aviation are primarily filled by 
the CH-53E. Delivery of critical supplies and equipment to austere 
sites in support of our ground combat element ensures that we remain 
flexible and responsive to needs of the ground commander. Marine Corps 
CH-53E legacy helicopters continue to make significant contributions in 
the Horn of Africa and Iraq, however, these aircraft are in need of 
replacement in the next decade. Vertical heavy-lift capability will 
continue to be critical to successful global operations in future anti-
access, area-denial environments, enabling the joint concepts of Force 
Application and Focused Logistics within the Capstone Concept for Joint 
Operations. The fiscal year 2008 budget requests $417 million of RDT&E 
funds to support development of the CH-53K helicopter that will replace 
the current U.S. Marine Corps' heavy-lift aviation platform, the 
venerable but aging CH-53E Super Stallion.
    The CH-53E, first fielded in 1981, continues to demonstrate its 
strategic value as a fully marinized, expeditionary, heavy-lift 
platform. But the CH-53E is reaching service-life and performance 
limits as the global war on terrorism drives operations from sea level 
to higher altitudes and into hostile environments and austere operating 
sites. The CH-53E cannot support our future operational concepts of Sea 
Basing and Ship to Objective Maneuver (STOM). To keep Fleet Marine 
Forces operationally effective well into the future, the Marine Corps 
is developing the CH-53K, a near-term and cost-effective replacement 
for the CH-53E that remains within the CH-53E shipboard footprint, and 
avoids L-class ship alteration or new ship construction costs. 
Addressing lessons learned from recent operations, the new-build CH-53K 
helicopter will be capable of externally lifting 27,000 pounds on a 
Sea-Level Hot day (103 degrees Fahrenheit (F)) to an unrefueled range 
of 110 nautical miles (NM). This capability is more than double the 
current CH-53E envelope under the same conditions. Additionally, CH-53K 
helicopters will each be capable of routinely carrying 30 combat-loaded 
troops. Major systems improvements which will significantly reduce 
Operations and Support (O&S) costs include: interoperable avionics, 
improved cargo-handling systems, and expanded survivability and force 
protection capabilities.
    A Service Life Assessment completed in 1999 identified a CH-53E 
fatigue life limit of 6,120 airframe hours, which a significant number 
of CH-53E platforms will attain by fiscal year 2011. While the Marine 
Corps is also seeking short-term solutions to diminish the effects of 
this and other CH-53E issues in the fiscal year 2007 budget, these 
solutions will not arrest accelerating attrition, continuing escalation 
of O&S costs, and the ever-increasing maintenance burden on an aircraft 
that is 24 years old. In addition, due to the abnormally high global 
war on terrorism operational tempo, the CH-53E fleet is expending 
service life at a much faster rate than planned.
    Requirements for the CH-53K were developed in consonance with STOM 
concepts from Expeditionary Maneuver Warfare in Marine Corps Strategy 
21, the Naval concept of Sea Basing in Sea Power 21, and with lessons 
learned from recent operational experience. The Joint Requirements 
Oversight Council approved the Operational Requirements Document that 
defines the necessary CH-53K capabilities in December 2004. We intend 
to achieve IOC with the CH-53K, a heavy-lift helicopter with vastly 
enhanced performance capability, survivability and reliability, in 
2015. The CH-53K will be the most capable, marinized, heavy-lift 
helicopter in the world, a truly transformational asset.

                          H-1 UPGRADES PROGRAM

    Our H-1 fleet fills flexible and persistent attack and utility 
requirements for the ground combat element. Each and every day our 
Cobra and Huey crews are flying over the heads of our ground forces 
providing immediate support and security in support of Marine combat 
operations. To ensure continued support to the MAGTF, our H-1 aircraft 
are in need of modernization. The UH-1N, for example, has not received 
any major modifications to its rotor and drive train systems since its 
delivery to the Marine Corps in 1971. This situation has led to a 
decline in the aircraft's power available since its introduction. 
Reduced power margins in the Huey have decreased safety margins for our 
pilots and aircrew. Our AH-1W attack helicopters have been performing 
magnificently in combat operations. In order to maintain this high 
level of performance we need to upgrade the ``W'' to streamline pilot 
workload, increase ordnance carriage, and improve sensor capabilities.
    The H-1 Upgrades Program will replace the Marine Corps' AH-1W and 
UH-1N helicopters with state-of-the-art AH-1Z and UH-1Y models. The 
program is a key modernization effort designed to improve upon existing 
capabilities, enhance operational effectiveness, and extend the service 
life of both aircraft. The UH-1Y, for example, expands utility mission 
capabilities with its improvements in range, speed, endurance, and 
useful payload. Additionally, the commonality gained between the AH-1Z 
and UH-1Y (84 percent) will significantly reduce life-cycle costs and 
logistical footprint, while increasing the maintainability and 
deployability of both aircraft.
    The H-1 Upgrades Program, through a combination of remanufacture 
and build new, will upgrade our current legacy fleet to 100 UH-1Ys and 
180 AH-1Zs. The Defense Acquisition Board will convene in May 2007 to 
authorize a program restructure, approve a fourth LRIP lot, and lay the 
foundation to ``grow the force'' in support of plans for a balanced 
202,000 Marine Corps.
    The fiscal year 2008 budget requests $580 million APN funds to 
procure 20 (15 UH-1Ys and 5 AH-1Zs) aircraft and spares and $3.6 
million RDT&E funds to complete the H-1 Upgrades Engineering and 
Manufacturing Development phase. Production continues on the first 
three LRIP lots, awarded to Bell Helicopter. To date, three aircraft 
(two UH-1Ys and one AH-1Z) have been delivered to the Marines. One 
additional UH-1Y will be delivered by the end of next month. The 
program completed OPEVAL Phase I successfully in November 2006, and 
will enter Phase II later this year.
    The program continues to seek opportunities to reduce unit cost and 
minimize the impact on current and future operational readiness. In 
support of maintaining readiness, the optimum mix of remanufactured and 
newly fabricated aircraft is currently being evaluated; the results 
will be reflected in future budget requests. We are encouraged by 
recent steps Bell has taken to arrest recent cost growth to include 
leadership change and program quality assurance measures. Bell 
Helicopter needs to continue to meet scheduled aircraft deliveries to 
ensure we have the best attack and utility helicopters available to our 
Corps as well as phase out our legacy inventory.
Prepare for the Long War

                    NAVAL AVIATION ENTERPRISE (NAE)

    In order to provide consistent, timely aviation support to the 
ground force when and where it is needed, we must maintain our 
readiness. Marine Aviation's current readiness process is sub-optimized 
to link and relate the various elements of readiness in a way that 
enables us to accurately define requirements. Therefore, Marine 
Aviation is integrating into the NAE and Naval Aviation Readiness 
Integrated Improvement Program to achieve optimal readiness now, but 
also to sustain the health of Marine Aviation into the future. The 
integration strategy has three main phases and stages, and the goals of 
the integration are: increase in-reporting rates; decrease out-of-
reporting rates; improve depot turn-around times; reduce direct 
maintenance man-hours per flight hour; reduce flight hour costs; extend 
airframe service life for legacy platforms; achieve programmed service 
life for new platforms; and increase the core competency of 
organizational and intermediate-level maintenance departments.

                            AVIATION SAFETY

    The Marine Corps is committed to the continued reduction of our 
aviation safety mishap rate. We do not accept the loss of marines or 
aircraft during any type of flight operations, particularly during 
training. In fiscal year 2005, the Commandant of the Marine Corps 
directed 21 operational safety initiatives to address day-to-day flight 
and ground operations. We continue to look for new and innovative 
measures to reduce our aviation mishap rate. We feel confident that our 
most recent internal initiative, ATS, will continue to arrest our 
mishap rate as we strive to reach the Secretary of Defense goal of 50 
percent mishap reduction. The Marine Corps fiscal year 2006 Class A 
flight mishap rate was 1.58 per 100,000 flight hours, a drop from 2.26 
and 5.17 from the previous 2 years.

                                SUMMARY

    The Marine Corps has a heritage of fighting battles and winning 
wars on the sea, on the ground, and in the air. We do so while 
supporting routine deployment cycles and transforming the force. Today 
is no different. My pride in the accomplishments of Marine Aviation 
past and present is only exceeded by my confidence that we are poised 
to meet our future challenges. Our focus remains on the lance corporal 
and ensuring that when he calls for Marine Air, we are there. Thank you 
for your consideration.

    Senator Lieberman. Thank you, General. You made me a little 
nostalgic for Senator McCain, who's off on a mission now, 
because he refers to our colleague from Virginia, fondly and 
respectfully, as ``The Squire.'' [Laughter.]
    Admiral Clingan, thank you.

STATEMENT OF RADM BRUCE W. CLINGAN, USN, DIRECTOR, AIR WARFARE, 
     VICE CHIEF OF NAVAL OPERATIONS, DEPARTMENT OF THE NAVY

    Admiral Clingan. Mr. Chairman, Senator Cornyn, and Senator 
Warner, thank you for the opportunity to appear before you 
today.
    I've prepared a written statement, and ask that it be read 
into the record.
    Senator Lieberman. Will do.
    Admiral Clingan. Naval aviation continues to provide 
tailored effects in support of Operation Iraqi Freedom, 
Operation Enduring Freedom, and the greater global war on 
terrorism. The fiscal year 2008 President's budget balances 
conventional and irregular warfare aviation capabilities, 
reduces excess capacity, and achieves technological superiority 
through costwise investments in recapitalization, sustainment, 
and modernization programs.
    To reserve as much time as possible for your questions, 
I'll forego any additional comments.
    Thank you, sir.
    [The prepared statement of Rear Admiral Clingan follows:]

            Prepared Statement by RADM Bruce W. Clingan, USN

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for this opportunity to appear before you to discuss the Department 
of the Navy's (DoN) fiscal year 2008 tactical aviation programs. I am 
delighted to share this time with my colleagues from the DoN, U.S. 
Marine Corps, and U.S. Air Force to convey the critical needs of 
tactical aviation in our Armed Forces.
    Naval Aviation continues to play a major role in providing tailored 
effects in support of Operations Enduring Freedom (OEF) and Iraqi 
Freedom (OIF), as well as the broader global war on terrorism. The 
ability of naval aviation to shape strategic, operational, and tactical 
environments is reflective of the substantive return on your investment 
in our people, our combat readiness, and our refined spectrum of 
critical warfighting capabilities. These investments--in surveillance, 
command and control, and persistent strike, among others--ensure our 
tactical aircraft can operate effectively from aircraft carriers that 
exploit the vast maneuver space provided by the sea.
    The Navy's aviation programs; comprised of manned aircraft, 
unmanned aerial systems, and weapons; directly support the Sea Strike, 
Sea Shield, Sea Basing, and ForceNet pillars that underpin our Navy 
Strategic Plan and Naval Power 21 strategy. The fiscal year 2008 
President's budget balances conventional and irregular warfare aviation 
capabilities, reduces excess capacity, and achieves technological 
superiority through cost-wise investments in recapitalization, 
sustainment and modernization programs. The adjustments reflected in 
the budget maintain sufficient capacity to meet global presence and 
warfighting requirements, manage overlap with joint capabilities, and 
preserve warfighting relevance through 2024.
    From fiscal year 2008 to fiscal year 2013, the Department's fiscal 
year 2008 budget request procures 1,295 aircraft, reduces the average 
aircraft age from 74 percent to 61 percent of expected service life, 
and concentrates on resourcing capabilities that generate critical 
maritime and joint effects.

                         CARRIER-BASED AIRCRAFT

    Joint Strike Fighter (JSF)--At the core of our tactical air 
(TACAIR) recapitalization plan is the JSF, a stealthy, multi-role 
fighter aircraft that will enhance precision strike capability with 
unprecedented range, sensor fusion, radar performance, combat 
identification and electronic attack capabilities. The carrier variant 
(CV) JSF complements the F/A-18E/F Block II and EA-18G in providing 
long-range strike capability and much improved persistence over the 
battlefield. The short takeoff and vertical landing (STOVL) JSF 
combines the multi-role versatility of the F/A-18 and the basing 
flexibility of the AV-8B with the 5th generation attributes required to 
be effective against emerging peer rivals. The DoN fiscal year 2008 
budget requests $1.7 billion research, development, test, and 
evaluation (RDT&E) to continue JSF System Development and Demonstration 
(SDD) and $1.3 billion APN to procure six STOVL aircraft (including 
spares) in fiscal year 2008 and the long lead requirements for eight 
STOVL aircraft in fiscal year 2009.
    The JSF is executing its 6th year of SDD, with 11 SDD aircraft in 
various stages of assembly. AA-1, the first conventional take-off and 
landing (CTOL) production flight test article, is conducting test 
flights to validate design, fabrication, and flight performance 
parameters. With over approximately 7,300 engine test hours completed 
through early March 2007, engine performance is meeting expectations. 
The progress of the CTOL to date, and the significant commonality 
between the three JSF variants, warrant confidence in the STOVL and CV 
developmental efforts.
    Final detailed design work on the STOVL is nearing completion. 
STOVL weight has remained within requirements since the Critical Design 
Review (CDR) last year, and BF-1, the first STOVL test aircraft, is 
meeting its critical path metrics for a May 2008 first flight. STOVL 
weight control efforts have been effectively leveraged to manage CV 
weight growth over the last 3 months. The bulk of the ongoing 
engineering effort is now focused on the drawing packages required for 
the CV JSF CDR this summer. The JSF program is executing in accordance 
with the approved replan that commenced 2 years ago, and the STOVL and 
CV variants are projected to meet their respective Key Performance 
Parameters.
    JSF Alternate Engine (F-136)--The DoN maintains that developing and 
procuring the F-136 alternate engine for the JSF is undesirable for a 
variety of reasons--Pratt and Whitney F-135 engine development is 
progressing satisfactorily, the form/fit/function parity requirement 
between the F-135 and F-136 engines undermines any competitive 
incentive to improve engine performance, and the business case 
indicates the cost of developing the second engine will not be recouped 
for more than two decades. These factors make the very limited risk 
associated with a single engine manufacturer, commonplace among 
tactical aircraft, an appropriate one to take. Within the context of 
the fiscal constraints and competing investment priorities that 
characterize the Future Years Defense Program (FDYP), the considerable 
resources necessary to develop the F-136 are best applied to the core, 
essential elements of the JSF program and other critical DoN 
capabilities.
    Super Hornets (F/A-18 E/F)--The F/A-18 E/F continues to replace 
retired F-14 and legacy F/A-18 A/B/C/D aircraft, measurably improving 
the strike capability and survivability of the Carrier Air Wing. The 
Super Hornet provides a 40 percent increase in combat radius, 50 
percent increase in endurance, and 25 percent increase in weapons 
payload over legacy Hornets. The fiscal year 2008 budget requests $2.1 
billion to procure 24 F/A-18 E/F aircraft in the 4th year of a 5-year 
multiyear procurement (MYP) contract (fiscal years 2005 to 2009). The 
Super Hornet uses a spiral acquisition approach to develop and 
incorporate new capabilities, such as the Active Electronically Scanned 
Array (AESA) radar system. The AESA radar has completed Initial 
Operational Test and Evaluation and is awaiting a full rate production 
decision. All critical OT deficiencies are expected to be resolved with 
the release of software upgrades in summer 2007. The first F/A-18F 
squadron with AESA radar is scheduled to deploy summer 2008.
    Legacy Hornets (F/A-18 A/B/C/D)--Inventory reductions stemming from 
USN/USMC TACAIR Integration, F/A-18 A/B/C/D service life limits, the 
JSF program replan and lowered JSF procurement ramp have combined to 
create a DoN strike-fighter shortfall that exists today and will extend 
through the transition to JSF. The shortfall is derived from the 
projected DoN TACAIR inventory compared to the USN Carrier Air Wing and 
USMC expeditionary TACAIR requirement for 35 USN and 19 USMC active 
strike-fighter squadrons. This lean force structure is essential to 
meet DoN rotational deployment and major combat operations surge 
requirements. Fiscal year 2008 President's budget based projections 
show legacy strike-fighter shortfalls ranging from about 50 aircraft to 
more than 200, depending on the service life extension for F/A-18 A/B/
C/D aircraft (10,000 or 9,000 hours) and the JSF buy rate (50 or 35 per 
year beginning in fiscal year 2014). Fully funding the strike-fighter 
procurement programs of record through full operational capability 
(FOC) and the legacy aircraft service life extension programs are 
critical first steps in managing this shortfall.
    To begin mitigating the shortfall, the fiscal year 2008 budget 
procures 28 additional F/A-18 E/F above the fiscal year 2007 
Appropriations Bill in fiscal years 2010 through 2012. When the legacy 
Hornet service life assessment program is completed in December 2007, 
the F/A-18 E/F and JSF procurement plans will be adjusted to ensure DoN 
recapitalizes the capacity necessary to deliver the effects expected of 
Naval TACAIR.
    Hornet Sustainment (F/A-18 A-F)--The fiscal year 2008 budget 
requests $442 million to continue replacing the center barrels on up to 
421 legacy Hornets and to procure critical F/A-18 A-F aircraft system 
upgrades. The center barrel replacements will extend the service life 
of the F/A-18 A/C/D aircraft approximately 7 years and are essential to 
help mitigate the strike-fighter shortfall through 2023, when the last 
legacy Hornet is scheduled to retire. Procurement of capability 
enhancements such as the Joint Helmet Mounted Cueing System, Advanced 
Targeting Forward-Looking Infrared Radar, Multi-Function Information 
Distribution System, and Digital Communications System are required to 
ensure that our F/A-18s remain relevant in the rapidly advancing threat 
environment that will characterize the remainder of their service life.
    Airborne Electronic Attack (AEA)--The Navy continues to develop the 
EA-18G as the replacement for the EA-6B AEA aircraft. The fiscal year 
2008 budget requests $273 million for RDT&E and $1.3 billion for the 
procurement of 18 LRIP aircraft. The Navy is leveraging the F/A-18E/F 
and EA-18G MYP contract to buy 18 aircraft in fiscal year 2008. These 
aircraft will support EA-18G Fleet Replacement Squadron stand-up and 
the transition of three EA-6B squadrons to EA-18G, leading to an 
Initial Operational Capability (IOC) in fiscal year 2009 and Full 
Operational Capability (FOC) in fiscal year 2012.
    The Office of Naval Research is working to develop adaptable, 
modular, and open architecture hardware, firmware and software for a 
next generation jamming capability that will be hosted on the EA-18G. 
In this regard, the Navy is working with the Air Force on jamming 
transmitters, and has leveraged previous work completed as part of 
their B-52 Stand-Off Jammer program that has since been cancelled. The 
Navy and Air Force technology teams continue to meet quarterly to 
ensure their efforts are coordinated and duplication does not occur.
    The EA-6B, Department of Defense's (DOD) only tactical electronic 
attack aircraft with full spectrum jamming capabilities, has been in 
high demand to provide direct support to counter-improvised explosive 
device, Special Operating Force and time-sensitive targeting operations 
in OIF/OEF. The fiscal year 2008 budget requests $24.2 million in RDT&E 
and $30.6 million in procurement to field critical EA-6B capability 
enhancements and readiness improvements required to increase the 
operational availability of this low-density, high-demand aircraft. 
This funding also procures ten Low Band Transmitters that will replace 
the aging transmitters that are employed nearly continuously today in 
Iraq and Afghanistan, as well as provide new jamming capability. In 
addition, the budget procures essential avionics and structural 
equipment in support of the EA-6B Operational Safety Improvement 
Program.
    Advanced Hawkeye (E-2D)--The fiscal year 2008 budget requests $809 
million to procure three E-2D Pilot Production aircraft and supporting 
systems for Operational Test and standup of the first operational 
squadron in 2011. The E-2D Advanced Hawkeye provides essential battle 
management command and control, and is a key enabler for maritime 
intelligence, surveillance, and reconnaissance. Its significantly 
upgraded radar provides unparalleled overland capability against 
current and future cruise missile targets, in addition to 
transformational surveillance that meets theater air and missile 
defense requirements. The E-2D, with its ability to meet the current 
threat and pace the emerging threat posed by potential peer rivals, is 
programmed to replace the legacy E-2C fleet over the next decade.

                                WEAPONS

    The fiscal year 2008 budget procures and develops a mix of legacy, 
advanced and next generation weapons that are lethal throughout the 
entire range of military operations. The demands of irregular warfare 
and counterinsurgency operations require adaptation of our legacy 
weapons to a wide variety of tactical environments.
    Hellfire missile (AGM-114) improvements are being implemented in 
response to urban warfare requirements that mandate minimal collateral 
damage. Thermobaric warhead improvements that contain blast effects 
were deemed operationally effective in 2006, and will be complemented 
by trajectory shaping--which allows flight crews to select the missile 
flight profile most effective for the particular engagement. The fiscal 
year 2008 budget request includes $45.7 million to procure 439 weapons 
and components to address these requirements.
    The BLU-126/B warhead, otherwise known as the low-collateral-damage 
bomb (LCDB) bridges a capability gap identified by CENTCOM. The LCDB is 
a low cost solution identified by the Naval Aviation Enterprise (NAE) 
that has been approved for use with the Joint Direct Attack Munitions 
(JDAM) and Laser Guided Bomb (LGB) precision guidance kits. It will be 
fielded in March 2007 using General Purpose Bomb funds.
    The Navy continues to pursue a Network Enabled Weapon Strategy with 
Joint Standoff Weapon (JSOW), Standoff Land Attack Missile-Expanded 
Response (SLAM-ER), Harpoon, and Small Diameter Bomb II (SDB II) 
capabilities. The fiscal year 2008 budget requests technical risk 
reduction funding for SDB II leading to IOC on JSF in fiscal year 2016. 
SDB II moving target, through-the-weather capability is a key future 
capability for the JSF.
    Direct Attack Moving Target Capability (DAMTC)--The fiscal year 
2008 budget requests $29.1 million in fiscal year 2008 and $214.6 
million across the FDYP for the DAMTC program, which seeks to use JDAM 
and/or LGB weapons as the foundation for a dual mode weapon that is 
capable of prosecuting targets moving at speeds up to 70 mph. An open 
competition will be expeditiously conducted in response to the urgent 
need for a fixed wing aircraft moving target weapon that will culminate 
in a fielded solution following operational testing in fiscal year 
2009.
    This low cost, rapid integration program adds significant 
capability while leveraging the existing industrial base to procure 
17,720 DAMTC weapons.
    Joint Standoff Weapon (JSOW)--The combat-proven JSOW family of Navy 
and Air Force air-to-ground weapons has achieved on-time deliveries for 
5 consecutive years and delivered its 2,000th weapon in 2006. Cost 
reduction initiatives and Foreign Military Sales have resulted in a 6-
percent reduction in JSOW-C Average Procurement Unit Cost (APUC) 
compared to the Fiscal Year 2007 Appropriations Bill. The fiscal year 
2008 budget requests $131.3 million to procure 421 JSOW-Cs, a highly 
lethal precision weapon that employs an imaging infrared seeker, GPS/
INS, and an augmenting charge with a follow-through penetrator bomb for 
use against hardened targets. Production of other JSOW variants remains 
deferred as we continue to work with the Office of the Secretary of 
Defense and our sister Services to resolve unexploded battlefield 
ordnance issues that are of concern to the DoN and our Allies. The 
fiscal year 2008 budget also includes $24.9 million to continue 
development of a network enabled weapon, termed JSOW-C-1, in order to 
fill a critical mission capability gap against moving ships at 
tactically significant ranges.
    Harpoon Block III (AGM-84M)--The Navy requires an upgrade to the 
air-launched Harpoon cruise missile to provide an all-weather, over the 
horizon, anti-surface warfare capability with `improved selectivity' in 
the cluttered littoral environment. This initiative is in direct 
support of the most recent Pacific Command Integrated Priorities List. 
The Harpoon BLK III Program will integrate a two-way data-link and GPS 
to achieve the enhanced selectivity that will facilitate employment 
under stringent rules of engagement. This program will leverage the 
surface Harpoon program's efforts already started with fiscal year 2007 
RDT&E funds. Data-link development and NSA certification costs are 
being shared with the Navy JSOW program. The fiscal year 2008 budget 
requests $3.3 million in RDT&E to initiate the air launched Harpoon 
Block III effort. Procurement of 300 Harpoon III missile kits and 
associated systems in the outyears requires $58.0 million in fiscal 
year 2011 through fiscal year 2013.
    Advanced Anti-Radiation Guided Missile (AARGM)--The fiscal year 
2008 budget requests $32.8 million for finalization of the AARGM SDD, 
and requests $41.3 million for the first increment of LRIP tactical and 
training weapons. AARGM utilizes legacy High-Speed Anti-Radiation 
Missile (HARM) weapon components with advanced multi-spectral/multi-
sensor technologies to transform the AGM-88 weapon system from a 
Suppression of Enemy Air Defenses (SEAD) capability to a Destruction of 
Enemy Air Defenses (DEAD) capability. The program is expected to reach 
Milestone C and begin Operational Evaluation (OPEVAL) in fiscal year 
2008. AARGM's high speed and extended stand-off capability to engage 
long-range threats with GPS precision; coupled with the geolocation 
precision resident in the EA-18G or F/A-18 E/F with AESA; will provide 
the Navy a critical time sensitive strike capability. AARGM is 
scheduled to reach IOC in fiscal year 2009 on the F/A-18 C/D Hornet, 
followed by the F/A-18 E/F Super Hornet and EA-18G Growler in fiscal 
year 2011.
    Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120)--AMRAAM 
is a Joint Navy/Air Force (Air Force-led) advanced, medium range 
missile that counters existing aircraft and cruise missile threats. 
AMRAAM incorporates advanced electronic attack capabilities and is 
effective against a broad spectrum of targets operating at high/low 
altitudes beyond and within visual range. AMRAAM provides an essential 
air-to-air first look, first shot, first kill capability that exploits 
the networked environment supporting Sea Power 21's Theater Air and 
Missile Defense mission area. The AIM-120D missile is currently in SDD 
with a planned first live shot in June 2007. The fiscal year 2008 
budget requests $4.6 million in RDT&E to complete AIM-120D 
developmental efforts and $87.5 million for production of 79 AIM-120D 
all-up rounds and associated hardware. This procurement is critical to 
begin building an inventory of air-to-air weapons effective against 
emerging threats.
    Sidewinder Air-to-Air Missile (AIM-9X)--The Joint Navy/Air Force 
(Navy-led) Sidewinder missile is the only short-range infrared air-to-
air missile integrated on USN/USAF strike-fighter aircraft. The AIM-9X 
is the newest variant in the Sidewinder family and is a 5th Generation 
weapon that incorporates high off-bore sight acquisition capability, 
thrust vectoring to achieve superior maneuverability, and increased 
seeker sensitivity through imaging infrared focal plane array 
technology and advanced processing. The fiscal year 2008 budget 
requests $54.9 million for production of 110 all-up round missiles, 74 
Captive Air Training Missiles (CATMs), and the associated hardware 
required to make the capability available to our strike-fighter 
squadrons.

                        SELF PROTECTION SYSTEMS

    Integrated Defensive Electronic Countermeasures (IDECM)--The fiscal 
year 2008 budget requests $131.4 million in aircraft procurement 
funding for 61 ALQ-214 on-board Radio Frequency Countermeasures systems 
and $24.4 million Ammunition Procurement funding for 581 ALE-55 Fiber 
Optic Towed Decoys, pending a full rate production decision. IDECM 
Block 3/ALE-55 Operational Testing and Evaluation identified a number 
of deficiencies that are being expeditiously corrected. A full rate 
production decision is expected in fiscal year 2008.
    Digital Radio Frequency Memory (DRFM) Onboard Jammer--The fiscal 
year 2008 budget requests $8.2 million in RDT&E for development of an 
onboard jammer that will employ state-of-the-art Digital Radio 
Frequency Memory devices to replace the ALQ-126B Jammer that was last 
produced in 1991. This effort will measurably improve the survivability 
of Naval tactical aircraft by delaying, denying, and defeating threat 
air-to-air and surface-to-air missile systems operating in the radio 
frequency spectrum. The lead platform for the DRFM program is the F/A-
18 C/D, followed by the AV-8B. An Analysis of Alternatives has been 
initiated to investigate alternative solutions, costs, and schedules. 
This developmental effort and the resulting capability is required to 
pace rapidly proliferating threat systems.
    Tactical Aircraft Directed Infrared Countermeasures (TADIRCM)--The 
fiscal year 2008 budget requests $27.6 million in RDT&E for development 
of an improved Missile Warning System (MWS) and Infrared Countermeasure 
(IRCM) system for Navy and Marine Corps helicopters. This system will 
provide aircrew protection against current and next generation IR 
guided man-portable air defense systems. The Analysis of Alternatives 
for TADIRCM has been completed and the program is working toward a 
Milestone B in fiscal year 2008.

                  NAVY UNMANNED AIRCRAFT SYSTEMS (UAS)

    Since its initial experience with UAS during Operation Desert 
Storm, operating Pioneer from the sea, the Navy has pursued a strategy 
of developing a family of maritime intelligence surveillance and 
reconnaissance (ISR) UAS that supports our Navy Strategic Plan and 
Naval Power 21 strategy.
    This family of systems encompasses small tactical, tactical, 
persistent, and penetrating platforms that are being developed to 
provide maritime domain awareness across the Sea Shield, Base, and 
Strike pillars that embody naval power in the 21st century.
    Scan Eagle--During the past year, Scan Eagle ISR fee-for-service 
contracts provided persistent ISR coverage for deployed Expeditionary 
Strike Groups (ESG), Expeditionary Action Groups (EAG), and independent 
naval ships, as well as land-based operations in the Central Command 
area of responsibility. There are currently three contracts (two ship-
based and one shore-based) in use, with a follow-on contract in work. 
To date Scan Eagle UAS have completed in excess of 925 sorties/7,700 
hours. A typical contract provides 10 hours of ISR coverage per day/300 
hours per month. Reliability data is not directly tracked, but mishap 
rates for the Scan Eagle system have averaged 1 air vehicle loss per 
214 hours historically. The mishap rate for recent shipboard operations 
has improved to 1 per 500 hours (or one to two lost air vehicles per 6 
month deployment). A loss in this case is categorized as an air vehicle 
that is no longer in an airworthy status. This rate is not atypical for 
this size/class of ``expendable'' air vehicle. Scan Eagle video has 
been linked to its Ground Control Station, Toughbook-based Remote Video 
Terminal (RVT), and Rover III RVTs.
    Small Tactical UAS (STUAS)--The fiscal year 2008 budget includes a 
request for $6.1 million in RDT&E that will be used to begin SDD 
efforts for a small tactical UAS akin to Scan Eagle. This funding will 
support a combined Navy and Marine Corps acquisition program (an 
additional $5.7 million RDT&E is funded by USMC) that will field a 
small, persistent ISR platform in fiscal year 2010 that can be operated 
from both ships and land facilities.
    Fire Scout Vertical Takeoff UAV (VTUAV)--The fiscal year 2008 
budget requests $33.0 million in RDT&E and $37.7 million in APN for the 
Fire Scout program. Fire Scout is on track to complete test and 
evaluation in 2008 and reach IOC in 4Q fiscal year 2008 onboard the 
Littoral Combat Ship. Procurement funds will be used to buy 3 Low Rate 
Initial Production (LRIP) air vehicles, plus associated Ground Control 
Stations (GCS) and equipment. Analysis supporting the Navy's employment 
of Fire Scout VTUAV includes an LCS aviation warfighting requirements 
analysis, LCS and draft VTUAV concept of operations (CONOPs), the 
campaign analysis completed in support of the DoN fiscal year 2008 
budget submission, and the applicable Joint Capabilities Integration 
and Development System documents. The procurement profile in fiscal 
year 2008 begins the process of fielding VTUAV systems aligned to meet 
LCS mission module deliveries in the FYDP and beyond.
    Broad Area Maritime Surveillance (BAMS) UAS--The fiscal year 2008 
budget requests $116.7 million to continue development of the BAMS UAS. 
BAMS UAS will provide a persistent, multi-sensor, maritime 
Intelligence, Surveillance and Reconnaissance (ISR) capability and 
communications relay in support of major combat operations and the 
global war on terrorism. BAMS is a key component of the Navy's future 
Maritime Patrol and Reconnaissance Force, which includes the P-8A 
Multi-Mission Maritime Aircraft (MMA) and the EPX Information 
Operations aircraft. The BAMS UAS program is now scheduled for 
Milestone B in fourth quarter fiscal year 2007, leading to an IOC in 
late fiscal year 2014. A competitive request for proposal was issued to 
industry on 14 February 2007. Responses are due in April and the source 
selection results will be part of the MS B decision process.
    Global Hawk Maritime Demonstration System (GHMD)--The fiscal year 
2008 budget requests $17.7 million in O&M,N funding to support CONOPS 
development, fleet battle experiments, and BAMS risk reduction 
initiatives with the two Global Hawk UAS the Navy procured in concert 
with Air Force production. As part of the GHMD program, the Global Hawk 
Integrated Sensor System radar software has been modified to provide 
the wide area search, maritime moving target indicator (MMTI), and 
inverse synthetic aperture radar modes that are required in the high 
clutter maritime environment. The fiscal year 2008 budget includes $5.9 
million in APN to procure needed spares to support continued GHMD 
operations.
    Navy Unmanned Combat Air System--The fiscal year 2008 budget 
requests $161.7 million to continue development of the Navy's carrier-
suitable, Unmanned Combat Air System (UCAS). Navy is committed to a 
carrier-based, penetrating, persistent UCAS to provide the Joint 
warfighter with a responsive ISR and time-sensitive strike capability 
that fills the gap identified in the Joint Strike Enabler Initial 
Capability Document. To field that capability, the Navy is conducting a 
risk reduction carrier suitability demonstration of a relevant low 
observable platform air vehicle. This carrier demonstration, scheduled 
to complete in fiscal year 2013, will inform UCAS development in a 
program that will leverage the technology maturation initiatives of all 
the Services' manned and unmanned programs.
    Tactical Control System (TCS)--The fiscal year 2008 budget requests 
$9.4 million to continue TCS development. TCS provides mission 
planning, command and control, and C\4\I interface commonality for 
tactical and medium altitude unmanned UAS. The TCS program incorporates 
a standards-based architecture compliant with North Atlantic Treaty 
Organization Standardization Agreement 4586 that integrates Fire Scout 
functionality with LCS, and facilitates future interoperability and 
payload capability enhancements. TCS will IOC in fiscal year 2008 as 
part of the Fire Scout VTUAV system. With the help of $1.0 million 
provided by Congress in fiscal year 2007, the TCS program is also 
transitioning to open architecture and open source software.
    Other UAS Initiatives--The Navy, as the lead service for Explosive 
Ordnance Disposal (EOD), is sponsoring the demonstration of small UAS 
capabilities in support of EOD forces deployed in the global war on 
terrorism. This in-theater demonstration, scheduled during 3Q fiscal 
year 2007, will employ 3 Silver Fox UAS and 10 Micro Air Vehicle (MAV) 
systems in response to a validated joint urgent operational need.
    Additionally, the Navy continues to support the Marine Corps' 
Pioneer program. Program management, testing, and training support for 
its currently fielded systems is programmed through fiscal year 2008.

              MARITIME PATROL AND RECONNAISSANCE AIRCRAFT

    Aerial Common Sensor (ACS)--Since the ACS contract with Lockheed 
Martin was cancelled by the Army in January 2006, an OSD-directed Joint 
ISR (JISR) study co-led by Army and Navy has been completed. This study 
reexamined the multi-intelligence requirements that were the core of 
the ACS program, and considered potential manned and unmanned 
solutions. The JISR study validated the need for a manned, multi-Int 
platform to meet the tactical commander's direct support ISR needs and 
highlighted the specific attributes required to be effective in this 
regard.
    Additionally, Navy campaign analysis for POM-08 refined the 
electronic warfare capabilities required to meet the threat posed by 
emerging peer rivals. Specifically, the Navy requires a platform with 
an unrefueled on station time of 4 hours at a combat radius of 1,200 
NM. While collaboration on the mission system continues with our sister 
Services, the significant difference in range and endurance 
requirements for the Army and Navy have prompted both Services to 
pursue separate platform solutions. In the case of the Navy, the 
follow-on to the EP-3E is being called the EPX, pending development of 
the acquisition strategy. The EPX will be an integral part of the 
Maritime Patrol and Reconnaissance Force family of systems that 
includes the MMA and BAMS UAS and is planned to reach IOC in 2019.
    EP-3E--The EP-3E flew more than 8,700 mission hours in support of 
Maritime Component Commanders and Combatant Commander global war on 
terrorism missions worldwide in 2006. The details of those missions are 
classified, but can be provided upon request. The Navy is fully 
committed to sustaining the EP-3E airframe and keeping its mission 
systems effective until the EPX is fielded. Three spiral upgrades to 
the mission system and installation of Special Structural Inspection 
Kits similar to the P-3 are programmed to sustain the EP-3E through 
2019. Of note, the EPX will incorporate the EP-3E Spiral 3 capabilities 
as the baseline for EPX Block 0, plus additional capabilities that will 
result in a true multi-intelligence platform.
    P-8A Multi-mission Maritime Aircraft (MMA)--The P-8A will replace 
the P-3C Orion on a less than 1:1 basis. It will significantly enhance 
naval lethality in the broad area maritime and littoral armed Anti-
Submarine Warfare and Anti-Surface Warfare mission areas. The P-8A 
fills combatant commander requirements in major combat and shaping 
operations, as well as the war on terror and homeland defense. The 
program is in the detailed design phase and has been executing on time 
and on budget. The fiscal year 2008 budget requests $880 million in 
research and development funds to keep the program on track to achieve 
IOC in fiscal year 2013.
    MH-60R/S Multi-Mission Helicopter--The MH-60R is a cornerstone of 
the Navy's helicopter CONOPs, which reduces the number of variants in 
service from six to two. The MH-60R Multi-Mission helicopter will 
replace the surface combatant-based SH-60B, carrier-based SH-60F, and 
anti-surface capabilities of the S-3 with a newly manufactured airframe 
and enhanced mission system. Sea control missions include Undersea and 
Surface Warfare. The MH-60R provides forward-deployed capabilities to 
defeat area-denial strategies, allowing Joint forces to project and 
sustain power. Full rate production was approved in March 2006. The 
fiscal year 2008 budget requests $998 million to procure 27 aircraft.
    The MH-60S is designed to support Carrier and Expeditionary Strike 
Groups in Combat Logistics, Search and Rescue, Vertical Replenishment, 
Anti-Surface Warfare, Airborne Mine Countermeasures, Combat Search and 
Rescue, and Naval Special Warfare mission areas. This program is in 
production. In fiscal year 2007 the first of five Organic Airborne Mine 
Countermeasures systems (AQS-20) will reach IOC. The remaining four 
airborne mine countermeasure systems will reach IOC between fiscal 
years 2008-2010.
    An Armed Helicopter capability is also expected to enter service in 
2007. The fiscal year 2008 budget requests $504 million to procure 18 
aircraft.

                                SUMMARY

    Mr. Chairman, and distinguished members of this subcommittee, I 
would like to thank you for your continued support of naval aviation 
and Navy TACAIR in particular. This budget submission--balanced with 
other Naval aviation budget priorities--ensures our young men and 
women, who fight daily with courage and commitment, have what it takes 
to win. Our budget submission makes sound investments in capabilities 
that make relevant contributions to irregular warfare, pace the threat 
posed by potential adversaries, and ensure Navy Aviation remains an 
effective anti-access force in major combat operations. Thank you again 
for this opportunity to appear today to speak on behalf of Navy 
aviation.

    Senator Lieberman. Thanks, Admiral.
    Thank you all. A good beginning.
    I'd like to start with you, Admiral.
    I say to my colleagues that I think we'll start with 8-
minute rounds, then we can keep it going as long as we have 
questions.
    I want to ask you about this projected shortfall of the F-
18 aircraft. We've heard that during the next decade, it could 
be as large as 150 less than the number required to support the 
10 aircraft carrier wings. I also understand that the shortfall 
assumes that we will be able to operate the F-18s for up to 
10,000 flight hours. So, this raises a couple of questions. 
One, will the Navy be able to maintain its Fleet Response Plan, 
being able to surge 5 or 6 carriers within 30 days of 
notification, followed by another carrier within 90 days, if 
you end up 150 aircraft below requirements?
    Admiral Clingan. Thank you for the opportunity, Mr. 
Chairman, to address this question.
    Senator Lieberman. Sure.
    Admiral Clingan. Over the course of the preparation of the 
budget, and in our work to support Congress's efforts as they 
explore the budget, we have discussed a strike-fighter 
shortfall that ranges from approximately 50 aircraft to over 
200. Those numbers stem from excursions that we ran to 
understand how sensitive our potential shortfall is to the 
differences in the flight hours that we could sustain our 
legacy Hornets to, and the buy rate of the JSF. The program of 
record depicted in the President's budget 2008 assumes 10,000 
flight hours for the legacy Hornets, and a buy rate which 
reaches 50 outside this Future Years Defense Program. In that 
program of record, we project that the strike-fighter shortfall 
for carrier-based aircraft will be approximately 50 in 2018. 
Over the course of our preparation of the fiscal year 2009 
budget, we'll be making sure that we refine the model which has 
informed the discussion to date, and in preparation of the 
fiscal year 2010 budget, with a Service Life Assessment Program 
which is scheduled to complete in December 2007. We'll make 
further adjustments, potentially, to mitigate a shortfall to 
guarantee we can meet the combatant commanders' requirements 
and the surge requirements that you alluded to.
    Senator Lieberman. Okay. So, at this point you continue to 
feel that you can fulfill your responsibilities under the Fleet 
Response Plan, and the Navy's prepared to take action to make 
sure that that will continue to be so.
    Admiral Clingan. Yes, sir, we are.
    Senator Lieberman. Are we exposing ourselves, or those who 
are in the planes, particularly, to excessive risk by assuming 
that this aircraft can go the 10,000 hours, even though I know 
it was designed originally for 8,000?
    Admiral Clingan. We have an ongoing Service Life Assessment 
Program which is putting that airplane through a rigorous 
fatigue analysis, and we are about 63 percent complete. We are 
increasingly confident that we'll be able to extend the life 
beyond its current 8,000-hour limit, to 10,000 hours. That will 
involve an intrusive repair cycle, but our experience in doing 
service life extensions of other aircraft gives us confidence 
that we're learning what we need to do. We'll be able to 
develop the engineering packages to accomplish that service 
life.
    Senator Lieberman. Good. Thanks.
    General Castellaw, since the Marine Corps is also flying 
the F-18s, and is contributing squadrons to some carrier air 
wings, how, if at all, is this potential gap likely to affect 
the Marine Corps' ability to meet its commitments?
    General Castellaw. Sir, as I indicated, our strike- fighter 
shortfall is now.
    Senator Lieberman. Yes.
    General Castellaw. We're taking down two squadrons to cadre 
status, with the intention of bringing them back when we start 
bringing in the F-35. It is exceedingly important to us to 
address the attrition and the shortfall in aircraft that we 
keep the F-35 Bravo on schedule. We're right at the cutting 
edge now, in terms of the numbers that are in the procurement 
plan. We are planning to initialize operational capability on 
this aircraft in 2012, and in order to do that, we need to 
stick to the schedule that we are now. It's on the bare edge.
    Admiral Clingan and I are cooperating very closely in 
managing the Hornets, the legacy Hornets, as one entity.
    Senator Lieberman. Right
    General Castellaw. We do not manage Marine Hornets and Navy 
Hornets. For instance, we have Navy Hornets that are tapped 
out, that have so many carrier landings they are no longer able 
to go aboard the carrier, and we're moving aircraft into the 
Navy, painting over the word ``Marines'' and putting ``Navy'' 
on it, so we can continue to meet those requirements.
    So, right now, we are working with them by doing the 
draconian measure that we are, and taking down squadrons to 
cadre status by working with the Navy. We are managing by 
continuing to get the funding for center-barrel replacements, 
and continuing to do the life assessments. We are doing 
everything we can to continue the life of these legacy aircraft 
and squeeze every bit of juice we can out of them.
    Senator Lieberman. General Chandler, is the Air Force 
facing any fighter shortages comparable to the ones that we 
just talked about for the F-18?
    General Chandler. Mr. Chairman, I would tell you that any 
potential ``fighter bathtub'' that we would have is directly 
dependent on the numbers, but, more importantly, how quickly we 
bring the F-35 online.
    Senator Lieberman. The JSF, yes.
    General Chandler. Yes, sir, that's correct.
    Because we bought the F-16 in large numbers, we bought as 
many as 180 a year in its beginning, obviously, those aircraft 
are going to age out in fairly large numbers. Now, we've done 
the Service Life Extension Program to take the F-16 to 8,000 
hours, as well as Avionics Improvements Programs too. I 
personally feel that's about as far as we're going to be able 
to take that aircraft. So, our program of record buys us the 
1,763 fighters that we've said we need to continue to do the 
job we're being asked to do.
    Senator Lieberman. I was just thinking, I remember, at a 
hearing last year, General Magnus, from the Marine Corps, 
talked about how important the JSF program was, and if it 
didn't come online in time he would really feel he'd be putting 
some marines in jeopardy, that that's how important it was. I'm 
not inviting a comment, but I just remembered it as we talked 
about it.
    This reminds us of another thing; although the size of the 
DOD budget is obviously large, some of it has to do with 
ongoing activities in Iraq and Afghanistan. There's a lot of 
stress on the force, both to carry out the responsibilities of 
today and to prepare for the continued role of America as a 
world power and a guarantor of our security, and the security 
of a lot of our allies.
    So, I want to ask one more question about the MP-RTIP as I 
mentioned it briefly in my introduction. General Chandler, let 
me ask you, why did the Air Force terminate the E-10 program?
    General Chandler. Sir, I would tell you, quite honestly, it 
was a matter of budget and other priorities.
    Senator Lieberman. Understood. So, if you had your 
druthers, you wouldn't have done it.
    General Chandler. No.
    Senator Lieberman. If you had the money, let's put that, 
rather than ``your druthers,'' if you had the dollars, you 
wouldn't have done it.
    General Chandler. Yes, sir. In a perfect world, with the 
right amount of money, from an operational perspective, we love 
the technology.
    Senator Lieberman. Yes. That's the next point I wanted to 
raise. There's a lot of satisfaction in the Air Force, and 
across the services, I gather, with the MP-RTIP technology.
    General Chandler. Yes, sir.
    General Hoffman. Mr. Chairman, if I could add, from an 
acquisitions standpoint it's one program that is green-green-
green, cost-schedule-performance was doing very well. We just 
could not afford it. It is going on the Global Hawk, but from a 
cruise-missile-defense-mission standpoint, as you alluded to, 
it doesn't satisfy that role. We'd very much like to graft it 
onto the JSTARS aircraft, if we could afford that.
    Senator Lieberman. Right. Take just a minute, because my 
time's about up, and just briefly describe what the MP-RTIP 
does, what capabilities it gives you.
    General Hoffman. It's an active electronically scanned 
array, so instead of a mechanically scanned antenna, it has all 
these little subtiles in there that can be electronically 
scanned, so it very rapidly can search its field of regard, it 
can get very precise pictures of the ground, and discern very 
small and slow-moving ground-moving targets and air-moving 
targets.
    Senator Lieberman. So, I appreciate that. Is it fair to say 
that the Department and the Air Force intends to keep the MP-
RTIP technology moving forward?
    General Hoffman. We are using our 2007 dollars to go as far 
as we can with the 2007 funding to keep the technology and keep 
the workforce actively engaged, so if we do transition and have 
to put it on the shelf, that we've garnered as much knowledge 
as we can from that.
    Senator Lieberman. Does the plan potentially include 
backfitting some number of existing JSTARS aircraft with this 
radar?
    General Hoffman. There's no funding support for going on 
the JSTARS at this time. That would take several billions of 
dollars.
    Senator Lieberman. Yes, understood.
    Thank you. My time's up.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    The reason why I wrote down 60 years of service for the Air 
Force is my dad started in the Army Air Corps and then 
continued on in the United States Air Force for 31 years.
    I want to talk a little bit about the JSF, as you might 
imagine. I know Senator Warner has questions about this, as 
well, but let me get it started off.
    Congress acted last year to restore funding for the 
development of a second engine production source, and required 
several reports on the acquisition strategy for the JSF engine 
program. The Department has, once again, eliminated funding for 
a second source before the required reports have been 
evaluated, and I'd like to get your explanation, if you can, of 
the rationale for overturning the statutory guidance from 
Congress, providing for the JSF engine procurement before the 
results of the required studies were performed. I'd like to 
find out whether the Navy and Air Force both support the 
Department's decision, and why, or why not?
    General Hoffman?
    General Hoffman. Senator, Mr. Balderson and I were both at 
the House testimony, where the three reports were actually 
briefed, and only one report has actually come out in report 
format, and that is the Government Accountability Office (GAO) 
report. The other two were verbally briefed, and, as I 
understand it, they have not yet physically delivered the 
reports.
    All three reports talk about the goodness of a second 
engine, and there are good elements to having a second engine, 
for risk reduction and so forth, competitive nature of a dual 
source, industrial-based concerns, and so forth. The three 
reports vary on the amount of money it would take to complete a 
second engine, and to sustain a second engine through a life-
cycle cost standpoint. They all vary somewhat on how much 
competitive advantage you would have to have to recoup those 
costs.
    From a Department standpoint, this was not a service 
decision, this was a collective Department position that the 
risks that are involved in a single engine are balanced by the 
reliability and the track record we have right now on both the 
F-22 engine and the JSF engine, that has over 7,000 test hours 
on it, that those risks are balanced and prudent with respect 
to the cost, and it's simply a fiscally-driven decision 
requiring $2 billion if we want to continue on with the second 
engine procurement.
    Senator Cornyn. I have to be honest with you that my 
instincts are always for competition, because it usually makes 
us all better, improves our performance, and usually the 
quality of the product. Why? What's overridden that principle 
that competition would ordinarily provide better-quality 
service and a better-quality product?
    Senator Warner. Would you yield for clarification?
    Senator Cornyn. Sure.
    Senator Warner. You used the term ``Department'' three 
times. Is that the Department of the Air Force or the DOD?
    General Hoffman. The DOD, sir.
    Senator Warner. Thank you.
    Senator Cornyn. Mr. Balderson, were you going to respond?
    Mr. Balderson. Yes, sir. If I could just make a couple of 
comments.
    As General Hoffman mentioned, we had this discussion 
recently with the House Armed Services Committee. From the 
Navy's standpoint, we would put this in the same category that 
the General put MP-RTIP. This is a decision we wish we had not 
had to make. We're not opposed to an F-136 engine, and we do 
see benefits. As all three of the reports that were directed 
from the National Defense Authorization Act last year 
indicated, there are benefits to the competition, and we 
certainly concur with that. The problem that we have, Senator, 
is that we believe, based on our analysis within the Navy, I 
think the analysis within the Department that the Cost and 
Analysis Improvement Group did, and then the other assessments 
that GAO and the Institute for Defense Analyse did, the 
additional investment, which would be in excess of $1.5 billion 
to continue development of the second source, that it is not at 
all likely that we would recoup this investment.
    In addition to that, we also feel that, from the Navy's 
standpoint, the norm is one engine supplier per aircraft. 
Although in a less fiscally-constrained environment there 
certainly are benefits to having a second source, we feel very 
comfortable with the F-119 core engine that is the F-135; I 
think it has in excess of 50,000 flight hours, high reliability 
and performing very well.
    The distinction I would make is, it's not so much being 
opposed to competition, because we're absolutely not, it's the 
cost of carrying a second source. That's the distinction that I 
would make. It is costly to carry a second source, and what you 
do when you split a competition like this, of course, if you 
were to carry the two sources, you end up with lower 
procurement quantities for each vendor, which increases the 
per-unit cost. The Navy's experience--and I harken back to my 
Tomahawk days, where, for industrial surge reasons, we carried 
two Tomahawk sources; usually, one source or the other, very 
early on, gets in a position where they're not as competitive 
and forces you to pay a great premium for those units. Our 
assessment within the Navy, and, I think, within the 
Department, is that even some of the reports that have assumed 
a viable competition and a competitive environment for both 
sources may be overstated, and it may be more difficult than 
those reports stated to recoup that investment in the two-
source environment.
    Senator Cornyn. What I worry about is that most Government 
studies and reports are invariably wrong; you just don't know 
if they're going to be too high or too low. So, it's hard to 
read into the future. But I trust there'll be some more 
questions on that in a moment.
    Let me ask you about medium- and high-altitude UAVs. We had 
a chance to ask the Army, yesterday, about this subject, and I 
want to get the take of the Air Force, Navy, and Marine Corps 
on it.
    General Moseley spelled out the case for the Air Force 
becoming executive agent for all medium- and high-altitude 
UAVs. He stated his desire to follow up with a comprehensive 
plan to optimize the Nation's intelligence, surveillance and 
reconnaissance assets. This committee has long supported 
jointness over parochial interests when it comes to acquisition 
of military capabilities; however, previous joint programs have 
not been very successful.
    Why does the Air Force think their role as the executive 
agent would be more successful than previous joint procurement 
efforts?
    General Chandler. Senator, if I may, I'll start.
    That question, to the Air Force, revolves around three 
issues that I'll try to describe briefly.
    First is, very simply, acquisition efficiencies. We think 
if the Department approaches this from a joint perspective led 
by an executive agent, we can gain some efficiencies in the 
process.
    The second would be interoperability. Bandwidth, radio 
frequencies, radios, the ability to work together is something 
that an executive agent could pull together, and do that for 
the Department in a fashion that would make warfighting, I 
think, easier for all of us.
    Then, the third issue is a related issue that has to do 
with operational control. Today, in every theater, there's 
what's called a coordination altitude. Above that altitude, 
every manned aircraft that flies in that airspace has certain 
capabilities. That allows the commander to control that 
airspace and defend that airspace for the joint force 
commander. What our Chief is asking for, in terms of executive 
agency, is only to apply that same rule to medium- and high-
altitude UAVs that would be flying in that airspace, and, in 
that way, allow the joint force to be more effective, if you 
will, for the joint force commander.
    Senator Cornyn. Okay, I want to pitch you a nice soft one 
to the Navy and the Marine Corps. What do you think of the Air 
Force's proposal?
    General Castellaw. Sir, in terms of jointness, the Marine 
Corps, right now, is benefitting from working with the Army, 
for example, on Shadows. We're going to sundown our Pioneer, 
which is a unique system that only the Marine Corps has been 
operating, so we are going to jump in on that. The Army has 
been very good to us and is going to let us get into the 
production line so that we can equip our squadron that's going 
to make the next deployment to Iraq. We're working with the 
Special Operations Command, the Army, and others, also, for 
instance, on what we call our Tier II, which is the Raven that 
we're operating. So, there is no separation, I think, between 
us when we talk about: we want to have uniform, we want to 
eliminate duplication. The issue is, how do we go about that? 
Quite frankly, I think the Commandant--and, of course, I 
believe in what the Commandant says--is that this is a 
discussion that ought to go on within the Services, outside the 
media, and away from the Hill until we come up with a common 
position before we come over here to you. I think that's pretty 
much where we are on it, sir.
    Senator Cornyn. Sounds like the Commandant has a good idea. 
We look forward to hearing that joint report and 
recommendation.
    I recognize that the C-5 and the C-17 aircraft actually 
fall under the Seapower Subcommittee purview, but I'm going to 
take advantage of the opportunity of having two senior Air 
Force acquisition officials before us and discuss, briefly, the 
Air Force's plans for the future of the C-5 and C-17 fleets.
    Committee staff has been made aware of the recent Air Force 
initiative to retire up to 30 C-5s and acquire 30 additional C-
17 aircraft. Would you care to comment on that?
    General Hoffman. Senator, if I could, first of all, program 
of record on C-17 is 190, with last year's add. The 
manufacturer has already started the shutdown process at the 
sub-tier levels, because the orders are being fulfilled. C-5 is 
going through a midlife upgrade. There's the Avionics 
Modernization Program. Over two dozen aircraft were modified. 
That updates all the wiring in the cockpit to comply with new 
navigational standards and safety standards. That's going very 
well. The other major program is the Reliability Enhancement 
and Re-engining Program. That's what really gives it the muscle 
that allows the capability rate to increase by, we think, 10 
percent in mission capability rate. All three of those aircraft 
that have been modified are in the test program now. We think, 
technically, it'll be successful, and gives us tremendous 
capability to the C-5 to get heavier loads up to altitude 
faster and so forth.
    The big question on C-5 Reliability Enhancement and Re-
engineering Program will be the cost. We've had previous 
business-case analysis that says it'll pay for itself in 
reduced operating cost. We know we have program cost growth. We 
don't know how much yet. We won't know until later this summer, 
when we get our costing studies in. So, at this point, right 
now, any comparison between old and new, from a dollar 
standpoint, is probably premature. But we know it's going to 
cost more than what the previous studies have indicated as a 
business-case solution.
    That leaves Congress in the dilemma, right now, with 
imperfect information, to have to make an industrial-based 
decision, reference C-17, because if no decision is made, that, 
in fact, is a decision, and the C-17 factory will start to shut 
down, which becomes very costly to reopen at a later date.
    So, that's where we are in those two strategic airlift 
programs.
    Senator Cornyn. Thank you, General Hoffman.
    Senator Lieberman. Thanks, Senator Cornyn.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman.
    General Castellaw, I thank you very much for your personal 
reference about my background, so let me return the favor to 
you. I noticed that you were commissioned from the University 
of Tennessee-Martin, in 1972. That's when our career began 
together. I was Secretary of the Navy. That must make you, if I 
may say--and it's quite an honor to have it--one of the last 
serving Active Duty marines from the Vietnam era. Is that 
correct?
    General Castellaw. Yes, sir. There's a few more of them out 
there, sir.
    Senator Warner. You can almost count them on your fingers, 
though, can't you?
    General Castellaw. Yes, sir. I think I have your name on my 
commissioning document, as well, so I'm afraid we're going to 
be connected for a long time. [Laughter.]
    Senator Warner. Well, that's fine. I hope you proudly 
display that on your wall. [Laughter.]
    General Castellaw. I do, sir. [Laughter.]
    Senator Warner. Which brings me to a very important part of 
your testimony. There are no page numbers, but it's entitled V-
22 Osprey. As the Commandant of the Marine Corps announced, on 
13 April, a VMM-263, our first operational MV-22 squadron, 
deployed to Iraq in September this year. What were some of the 
factors that drove that decision? Because this aircraft has 
gone through a very historic chapter of development, with a lot 
of courage and dedication shown by marines. Many times I, and 
other colleagues on this committee, in my 29 years, have had 
hearings on it, and more than once it looked like it was going 
to go over the horizon and disappear, but the courage of the 
Corps kept it going, and now it appears to be working.
    But I must say, based on some trips that I've had, and all 
of us have had a number of trips into that environment in Iraq, 
it is becoming a more ground-to-air hostile environment. To 
what extent were all of the considerations weighed as that 
deployment decision was made?
    General Castellaw. Well, sir, the first one, and the most 
important one, is the one that many of you have already 
indicated here today, is what your goal and what our goal is, 
is to provide marines, sailors, airmen, soldiers, coast 
guardsmen with the most capable and survivable equipment 
possible. The MV-22 is the most capable and survivable aircraft 
that we can fly our most valuable weapons system in, and that's 
the marine rifleman. It has the airspeed, it has the built-in 
survivability, it has the defensive systems, and it has the 
capability for us to improve the ability of our marines, 
primarily, and the sailors that serve with us, to survive in 
that environment. Let me just talk about this; you can be at 
over 200 knots in 18 seconds, and you can be climbing through 
altitude outside the heart of the envelope of groundfire, and 
that includes Man-portable Air Defense System. We expect to 
operate this aircraft in what has hereto been known as the 
fixed-wing sanctuary, up around 13,000 feet. We can fly ground 
personnel around for about 3 hours at 13,000 feet above it. We 
can get just about anywhere in Iraq or any of these other 
locations in that period of time, and we can arrange, as we 
always do in our planning, for escorts to be available when 
they come down into their zone. I said in 18 seconds we can be 
at 200-plus. In 18 seconds, we can go from 200-plus down to 
hovering. It is an extremely agile, powerful aircraft that is 
giving us the best survivability for the marines that we're 
going to haul.
    Now, we have carefully looked at the logistics support, 
we've carefully looked at the training, we established metrics 
to be met so that we are assured that this aircraft, when it 
goes, is going to have the people flying it that are prepared 
and the logistical support that's necessary for it to achieve 
the readiness that we have to have. So, we're quite confident 
that we're doing what needs to be done to support our forces.
    Senator Warner. That's very encouraging, and I'm delighted 
to hear that our record will contain a specific reference to 
the very careful preparation that the Corps went through to 
make that recommendation to the Secretary of Defense. I assume 
he chopped on that one personally.
    General Castellaw. Senior leadership, yes, sir. Secretary 
of Defense.
    Senator Warner. Moving on, on that question, are you at 
liberty, in this unclassified forum, to say about how many 
units could become operational over what period of time?
    General Castellaw. The V-22?
    Senator Warner. Yes.
    General Castellaw. We currently have five squadrons. We 
have test squadron----
    Senator Warner. No, in-country, in Iraq, how many are 
likely to be operational in the timeframe projected?
    General Castellaw. Right now, over the next year we plan to 
deploy two in rotation.
    Senator Warner. Two in rotation. That answers the question.
    General Castellaw. Yes, sir.
    Senator Warner. There will just be two aircraft squadrons 
in country.
    To our Air Force witnesses, have you all taken a look at 
this aircraft, in terms of your mission to do ground support 
for the Army? Is there any thought about getting into the 
program?
    General Chandler. Senator, the Air Force Special Operations 
Command will buy 50 of these aircraft.
    Senator Warner. Under the Department of the Air Force, the 
contracting officer?
    General Chandler. Yes, sir.
    Senator Warner. That's quite interesting. When does that 
begin?
    General Hoffman. We have our first three aircraft in right 
now for training and test. We are buying our aircraft behind 
the Marine Corps aircraft.
    Senator Warner. Good. That's fine.
    General Castellaw. Sir, can I jump in on that? We are in 
close cooperation with the Air Force Special Operations Command 
on this. We intend to have Air Force personnel who will go with 
that squadron when it deploys so they can gain experience and 
roll it back into their squadrons when they deploy.
    Senator Warner. On-the-job training. That's a very wise 
decision.
    Gentlemen, I appreciate, very much, the deference that you 
proceed with in addressing this dual-engine question. We have 
honest differences of opinion, perhaps, on this panel. But I 
just want to ask some basic questions, which, after reading the 
testimony, I'm not sure are covered fully.
    I respect that, when I asked the question of General 
Hoffman, it was a DOD decision. The old phrase says, ``salute 
and march off,'' and I think you've done a credible job on it. 
But, nevertheless, the job falls to Congress to take a look at 
an independent assessment of this.
    Clearly, it's budget-driven, all odds being, and all 
options being, if it weren't for the budget pressures, I think 
we'd take a good long look at this. For this reason, and that 
is, in my own history of studying procurement, which goes back 
a good period of time, both here in Congress and in the 
building, I cannot think of anything using real-term dollars or 
any other dollars, that would approach the magnitude of this 
engine contract over the life of the JSF. We're talking about a 
potential of $100 billion for one single contractor, and their 
partners, in this engine. Is that about right, gentlemen?
    General Hoffman. Sir, it's 4,000 engines.
    Senator Warner. That translates into a figure of that 
amount, making it difficult to grasp. The competition, which, 
historically, has generated savings and has, through the 
intensity, particularly in the engineering departments, 
resulted in some technological advances over the life of the 
engine, because both of them are fiercely competing to get 
sequential contracts. So, I just don't know. I find it 
staggering; one contractor with $100 billion just on an engine.
    Then we have the question of our foreign partners. They 
have expressed an interest in having the two engines for the 
same reason that many of us have advocated. I, frankly, think 
there's cost savings there, and engineering advantages. But, 
putting aside that, it's the reliability issue. What has been 
the attitude? Did you consult with the foreign partners in 
making this decision, or was that above your paygrade in DOD? 
Because last time, I have to tell you, there was an abysmal 
failure by the Department to timely inform the foreign partners 
of the decision, and they learned it, in many instances, 
through the media. Now, I hope this time they at least were 
consulted before the decision was made. Is there anyone before 
us today that can testify to that?
    Mr. Balderson. Senator, as a part of JSF oversight, we have 
several boards. The one that we have that includes all of the 
international partners, including the U.S. executives, is 
called a Configuration Steering Board. It meets quarterly, and 
it's the forum where these sorts of things are vetted, any 
sorts of significant program decisions----
    Senator Warner. I'm fully familiar with all the tiers.
    Mr. Balderson. Yes, sir.
    Senator Warner. The question was, were they consulted 
fully?
    Mr. Balderson. Yes, sir. This was vetted at the 
Configuration Steering Board. That's generally at the two- and 
three-star level with these various international partners.
    Senator Warner. We have a couple of three-stars here. I 
mean, you need a couple more? We'll go get them. Where are the 
people who sat down and did the consultation with the foreign 
partners?
    Mr. Balderson. This was vetted in that forum, and all of 
the foreign partners were aware of the decision that the 
Department had made. I'm not in a position to say what sort of 
communication within the partner countries occurred, but, at 
the two- and three-star level, prior to this decision being 
made, this was vetted in that----
    Senator Warner. Let me go to my last point very quickly, 
and I thank the indulgence of the chair.
    From the Marine Corps and the certain tactical maneuvers 
that you hope to take in the vertical/short takeoff and 
landing-type mode, liftoff and things of that nature, are you 
ready to say that the F135 engines will give as much 
performance as projected by the F136 in added lift to perform 
that rather critical envelope for the plane's flight pattern?
    General Castellaw. First of all, sir, we're very fortunate 
that we have two engines that would serve the F-35 well. In 
terms of what the Marine Corps sees, right now the F135, it's 
matched with both the lift fan and the push you get out of the 
rear end of the aircraft. What it comes down to is this, quite 
frankly, as I indicated before, it is absolutely essential that 
we IOC this aircraft in 2012, that we start replacing the 
attrition that we're having in our squadrons----
    Senator Warner. We're kind of drifting off a little bit, 
General. I respect that you want to make your IOC, but look at 
those Gold Wings. We're talking about pilot safety. We're 
talking about mission safety. Now, press reports say that on 
that aircraft iteration is going to be somewhat heavier, 
overall, than the other aircraft. Is that correct?
    General Castellaw. Sir, I think all of them are going to be 
about the same. The difference is that we, in the short 
takeoff, vertical landing (STOVL), carry less gas than the 
others, because we have the lift fan in there. So, the range is 
not as great with a STOVL as with the other aircraft, but 
they're approximately the same, in terms of gross weight.
    Senator Warner. So, you think both engines will have about 
the same lift performance in the vertical mode. Is that 
correct?
    General Castellaw. Yes, sir. When you match the engine with 
the lift fan--and right now the characteristics of the engine 
and the characteristics of the lift fan are balanced. So we 
have an engine that, with the F135, can do that.
    But, again, sir, if you'll let me finish up on the other, 
the deal for us is this, quite frankly--why I was making the 
point about the IOC, it takes money to buy the second engine. 
That money has to come from somewhere. It's an affordability 
issue for us. Admiral Clingan and others can talk very lucidly 
about the logistical and the other, and Bill can talk about the 
competition element of it. But, for us, when you take the money 
away, then you slide the IOC, and that is a tremendous issue 
for the Marine Corps.
    Senator Warner. We'll give further attention.
    I'd like to ask that I may place some questions in for the 
record on the engine and other issues.
    Senator Lieberman. Without objection.
    Senator Warner. I thank the chair.
    Senator Lieberman. Thank you, Senator Warner.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I'd just like to follow up on the UAV question. I really 
got interested in this several years ago, General Castellaw. 
Our escort officer was a Navy P-3 pilot. He was flying in 
support of downed marines. He told me some of the work that he 
had done with the Forward-Looking Infrared Radar and other 
capabilities they had to help the ground people. Then we 
discovered, after the battle of Fallujah--I was there--you used 
a different aircraft UAV, as you just mentioned. It always 
seemed to me, two things--one, we needed more intensive unity 
in developing the best optics and the best capabilities, and 
buying enough numbers to get the cost down as low as possible 
so that those marines and soldiers on the ground have the 
protection that they need.
    Right now, I mean, there are a lot of ideas for UAVs, 
important parts and capabilities for strategic issues, and 
they're very expensive. But, for me, right now, going back, 
again, soon to Iraq, for the sixth time, I'm worried about 
those guys on the ground, and I want to be sure that, when this 
is done, General Chandler, that the ground forces are involved 
in this. I've been working on it for some years now. I just 
think we can do better to make sure that they are fully taken 
care of. I know there must been an agreement. General Casey 
said, yesterday, we ought to just talk about it within the 
building. So, maybe you all should talk about it within the 
building, but we have a concern.
    How about the question of a joint cargo aircraft? I 
understand some progress has been made in working out the joint 
requirements on that. I guess, General Chandler, maybe you're 
the person to respond to that. But we're kind of getting to the 
point where we need to be moving forward, as I understand. 
General Cody told us, several years ago, that that was, he 
felt, critical to his people in Iraq, that they needed this 
capability.
    General Chandler. Yes, sir, I was in a meeting with both 
Vice Chiefs. I believe it was about 2 weeks ago now. I will 
tell you that we're in agreement to reach a Milestone C 
decision by the end of May. I think the program's come together 
very well, in terms of the Joint Program Office and what 
they've been able to do.
    There are some minor differences between the two aircraft. 
It's the same basic airframe. But, again, we're on track for a 
Milestone C decision, and those differences are going to be so 
minor that whatever we need to do with those, we'll have plenty 
of time to make adjustments as we work the program through.
    Senator Sessions. Well, this is somewhat behind your 
original projections of reaching that agreement, is it not?
    General Chandler. Sir, earlier, the Milestone C decision 
was going to be in the first part of May. That has been pushed 
back to the end of May.
    Senator Sessions. Okay. I was thinking it was earlier than 
that. That's good.
    We had a very interesting hearing with some opinions 
expressed by some well-known military people last week. General 
McCaffrey was there, General Scales, Lawrence Korb. They talked 
a lot about the combatant commanders' need for lift in the 
theater, and talked about the need for more C-17s, whether 130s 
should be kept in the fleet, and whether C-5s should be 
maintained out there. They had a lot of opinions. I'm sure they 
are of some value. But I'm sure they may not be as attuned to 
the latest developments, as each of you are.
    But I guess I've been thinking about the refueling tanker 
and how those assets, as we replace existing KC-135 with the 
KC-X, and that process that goes along, these old heads 
expressed real concern about lift capability.
    General Chandler, would you think that we are giving the 
capability of a refueling tanker to also carry cargo and 
personnel? Is that being considered in your evaluation process?
    General Chandler. Yes, sir, it has. In fact, ever since the 
early days of the KC-97, we've used the ability of that tanker 
to carry personnel and equipment. In some cases, we've used 
them for aeromedical evacuation, as well. We've counted on that 
residual capability. Quite frankly, if the capability is there, 
we think we should take advantage of it. It provides a 
versatility in that aircraft so that we don't have a single-
trick pony, if you will. That doesn't do any of us much good. 
It's good to have an aircraft that has a certain amount of 
versatility.
    So, I would tell you that we count on having that 
capability, to some degree, and have had, in the history of 
tankers in the United States Air Force.
    Senator Sessions. We're talking about a large number of 
them in that capacity. I think it would be important.
    Mr. Chairman, thank you for your leadership, and Senator 
Cornyn, and I'm pleased to work with you. That takes care of 
me.
    Senator Lieberman. Thanks, Senator Sessions. Thanks for all 
you contribute to this committee. It's always a pleasure to 
work with you.
    I have a few more questions, and I'm happy to stay through 
part of a second round, with anyone else who does.
    I want to come back to the JSF and the alternate-engine 
question, which is the question, in popular language, about 
whether we're going to have one engine or two engines built for 
this extraordinary program. My point of view on this is clear. 
We argued it out last year. I accept, as compelling, the 
conclusion of the relevant parts of the DOD here, which is that 
this one engine, which is a Pratt & Whitney engine, has 
performed very well. It's always good to have a second engine, 
but this one will cost $1.5 billion to have a second--$1.5 
billion to $2 billion. The money will come out of the JSF 
program. This is actually where the circumstances, as it comes 
back to me, when General Magnus made this statement, because 
the four Vice Chiefs were before us, all quite strong about 
both how it would be great to have a second engine, but it just 
wasn't needed, and it would cost too much. I just want to set 
it in context, because, Mr. Balderson, you said--and I know 
that's true--that the Navy norm is for a one-engine requirement 
on aviation programs?
    Mr. Balderson. Yes, sir.
    Senator Lieberman. On the F/A-18, therefore, there is a 
single-engine program.
    Mr. Balderson. General Electric (GE) engine, yes, sir.
    Senator Lieberman. Yes, that's the irony I was going to 
point out here. That's the way these things work. Life is based 
on your perspective, I guess. So, it happens to be GE, which is 
the single source. Just give us a sense of the range of the 
scope of this buy at this point for the engines for the F/A-18. 
How many?
    Mr. Balderson. Of the F-18? Yes, sir. There is some 
uncertainty, at this point, because the F-18 is participating 
in some potential foreign military sales coming up.
    Senator Lieberman. Right.
    Mr. Balderson. You're probably aware that it's not a done 
deal yet, but the Australians have signed up for an additional 
24. Of course, as Admiral Clingan commented, we do have to 
balance both sides of the equation, and we're very committed to 
JSF but there may be needs and opportunities to buy additional 
Super Hornets through that.
    Having said all of that, with that uncertainty, the current 
program of record, the current Multiyear 2 runs out in fiscal 
year 2009, so we will continue to buy through fiscal year 2009 
at a rate of 42 Hornets a year, a combination of the E/A-18G 
Growler and the E&F Super Hornet. Then, there is a smaller buy 
in 2010 and 2011, and, at that point, the current run of F-18 
would end.
    Senator Lieberman. So, the ballpark range for the total 
number of aircraft and engines required?
    Mr. Balderson. Seven, 8, 9, 10--I would say, at this point, 
probably a couple hundred additional. But that----
    Senator Lieberman. You don't know----
    Mr. Balderson. I can take that for the record, if you----
    Senator Lieberman. Well, we'll get it. I'm just making a 
point that there's a lot of engines over the total life of the 
program, a lot of engines have been purchased on a single-
source basis.
    Mr. Balderson. Yes, sir.
    [The information referred to follows:]

    The total inventory for the F/A-18E/F and EA-18G programs is 490 F/
A-18E/Fs and 84 EA-18Gs for a total of 574 aircraft at 2 engines per 
aircraft. As of fiscal year 2007, a total of 398 aircraft have been 
procured, 386 F/A-18E/Fs and 12 E/A-18Gs. Between fiscal year 2008 and 
fiscal year 2012, the remaining 176 aircraft will be procured, 104 F/A-
18E/F and 72 EA-18Gs. In addition to production engines, the program 
has procured spare engines with a total of 61 planned to be procured or 
approximately 6 percent. The engine can be broken down into six modules 
and the program has/will procure spare modules based on planned 
estimated usage of the modules that varies from 3 percent to 15 
percent.

    Senator Lieberman. Am I right, General Hoffman, this falls 
under your area, acquisitions generally speaking, with the 
exception, I think, of the F-16, that the Air Force has had a 
single source of engines for its aircraft?
    General Hoffman. Both our F-15s and F-16s, we have the 
option for either engine to go in there. They're not 
interchangeable, like on the JSF program. We have to pull out 
one, put the other one in. From an operator's standpoint, it's 
exactly the same. So within the Air Force, we generally have 
wings that operate one flavor of engine or the other, so all 
the sustainers are trained up on that one engine, and the 
pilots operate within the limitations of that one engine. But 
we've had an experience, throughout our several decades of 
operating the 15 and 16, of having two engines available.
    Senator Lieberman. Am I right, that their reason for that 
was that there were, at that point, some failures in engine 
performance?
    General Hoffman. In the first decade of our experience with 
the single-engine vendor we had both responsiveness issues from 
the vendor, and we had performance issues, and so forth. That's 
why a second qualified vendor was brought in.
    Senator Lieberman. But that has not been the case with the 
Pratt & Whitney engine that's being set for the JSF.
    General Hoffman. Both our experiences on the F-22 and our 
history to date on the JSF have been solid.
    Senator Lieberman. Good.
    Mr. Balderson, let me go at this from another point of 
view, just for assurance of public interest here. How will the 
Department ensure quality and performance of the Pratt & 
Whitney F-135 engine if it is the sole engine and, therefore, 
in the absence of competition?
    Mr. Balderson. Yes, sir.
    Mr. Chairman, if I could make one comment as a lead-in, and 
it gets a little bit to what Senator Cornyn was saying earlier, 
and, I believe, Senator Warner was getting at, too. We're not 
opposed to competition. What we believe is that we have 
effectively had a competition between the F135 and F136, since 
the inception of the program.
    Senator Lieberman. Right.
    Mr. Balderson. Both from the standpoint of technological 
advancement, corporate investments, and price, we believe we 
have seen the primary benefits of competition.
    We're in the process, right now, as we speak, of 
negotiating the first limited-rate production lot for the first 
two Air Force conventional take-off and landing aircraft, and 
the engines to support that buy. Both for the aircraft and the 
engine, these are critical negotiations, because they will 
establish what we call T1, the unit price of the first system, 
where you would normally expect the learning curve to come down 
from there. So, establishing the baseline from which the rest 
of the aircraft and the engines will be procured is very, very 
critical.
    So, there are two things. We believe that we've achieved 
the benefits of competition, and it has put us in a very good 
position now to negotiate a solid unit price for T1 of that 
first limited/low-rate initial production buy. From that point 
on, we will continue to incentivize the contractor through 
reliability investments and through cost incentives in our 
contracting process, but we also have that baseline for the 
first year, that it would be very difficult, at this point, I 
think, for Pratt & Whitney. I would have no expectation that 
they would try to put us in a position where they would take 
advantage of the sole-source buy, because we will have had that 
cost history as a backup.
    Senator Lieberman. Thank you. I appreciate that answer.
    Let me move to another subject, and that is the readiness 
of nondeployed forces. As you probably know, there's a lot of 
concern on the committee, I know there's a lot of concern in 
the Pentagon, about the stress that the Army and the Marine 
Corps are under as a result of our dependence on the ground 
forces of the Army and the Marine Corps in the war on 
terrorism, and the fact that we have not given those two 
Services the support to meet the demands on them. We were 
focused, in these hearings, particularly, on some Army and 
Marine Corps units that are not deployed which have experienced 
declining levels of readiness due to personnel and equipment 
shortages. So, I want to ask you today. What is the situation, 
in this regard, with Air Force, Navy, and Marine Corps aviation 
units? Specifically, are these units fully staffed? Do they 
have the equipment, munitions, and spare parts that they need 
to keep up their levels of readiness?
    General Chandler, why don't we start with you and go across 
the table.
    General Chandler. Yes, sir.
    Senator, if I may, to stay at the unclassified level--I'm 
not trying to be evasive but I can say that, since 2001, the C 
status, C1 and C2, the top two readiness levels of our major 
combat units, has come down about 17 percent across the board. 
Now, that is typically driven by a few pockets of those systems 
that have been used very, very heavily since the beginning of 
the global war on terror, those units that have not had an 
opportunity to reconstitute, things like Predator, Global Hawk, 
some of our Air Force Special Operations Command aircraft, 
JSTARS. Without going any deeper into that, I can tell you that 
there are shortages in some of those areas across the board, 
simply because of how hard those systems have been used over 
the last few years.
    Senator Lieberman. General Hoffman, you want to add 
anything to that?
    General Hoffman. No, sir.
    Senator Lieberman. Right.
    Mr. Balderson?
    Mr. Balderson. No, sir. I'll defer to my operational 
friends here.
    Senator Lieberman. General Castellaw?
    General Castellaw. Sir, in Marine aviation, with our rotary 
wing aircraft, we are at less than 1-to-2 dwell. That means 
that for every day deployed, they're at home less than 2 days. 
In fact, we have some units that are less than 1 to 1, 
particularly the Cobras and the unit activation schedule (UAS) 
units. So, what we're seeing is a reduction in the overall C 
rating. We're seeing it in a migration of readiness to deploy 
moving closer to the time they actually deploy. We're seeing 
stress on the ordnance, particularly such weapons as Mavericks. 
Laser Mavericks are in short supply. We're trying to work to 
get a replacement for that.
    So, those items--training, ordnance support, the 
operational deployment--are all stress indicators on our 
forces; and, just like the ground units, the aviation units, 
particularly the rotary wing, are in about the same level of 
readiness.
    Senator Lieberman. Admiral?
    Admiral Clingan. Mr. Chairman, as an air wing makes its way 
through its cycle--and we call it the Fleet Response Plan, 
which has a number of phases; a maintenance phase, a basic 
training phase, an advanced training phase, in which case it's 
prepared to emergency sortie, deployed phase, and a post-
deployment sustainment phase--we make our way through that 
process with tiered readiness that reflects where it is in that 
cycle. The air wings that are deploying are going forward fully 
manned and equipped and trained to meet the combatant 
commanders' requirements. Similarly, the equipment is provided 
by entitlements, so our emergency deployed and postdeployed 
forces are fully equipped.
    Senator Lieberman. Thanks.
    I want to say that this subcommittee would like to work 
with the Marine Corps and the Air Force to see if we can do 
something to alleviate some of that stress that you've just 
testified to. I thank you for that.
    Senator Cornyn.
    Senator Cornyn. Admiral Clingan, General Chandler, General 
Hoffman, let me explore the delays in the emergency 
supplemental appropriation. Specifically, Secretary Gates and I 
believe that General Pace have noted that because of the delay 
in Congress passing an emergency war supplemental, that the 
Army and Marine Corps are having to reprogram funds from Air 
Force and Navy accounts. I'd just like for you to tell me, if 
you can, what you know about the impact that's having on your 
branches of the Service.
    General Chandler. Sir, if I understand the question 
correctly, the money that we're talking about would come 
principally from personnel accounts. That would affect moving 
people--permanent change of station, for example--other types 
of things like that.
    We are counting on, obviously, getting those funds back. 
The Chief has said that, and we have no indication that we will 
not be reimbursed so that we can continue to meet the bills 
further into the fiscal year. At this point, I would tell you, 
there is no impact.
    Now, having said that, should it require more reprogramming 
from the Air Force top line, we will have to make some fairly 
draconian decisions about some of the things we will be 
required to do regarding flying aircraft, continuing to train 
people, for example, and other areas where we'll have to look 
to harvest money.
    Senator Cornyn. When would those kinds of decisions have to 
be made?
    General Chandler. Sir, we have already started to look at 
where we go do that.
    Senator Cornyn. Not knowing when the money's coming you've 
made contingency plans.
    General Chandler. Yes, sir. That's correct.
    Senator Cornyn. Yes.
    Admiral Clingan.
    Admiral Clingan. Senator, I have a perception, but I think 
the subcommittee will be best served if I take that one for the 
record.
    [The information referred to follows:]

    Supplemental funding is required for the incremental costs of war. 
Title IX funding has been key in avoiding substantial ``cash flowing'' 
of war costs from our baseline readiness accounts in fiscal year 2007 
and previous years. However, these advance funds do not satisfy the 
full-year request. Any significant delay in the enactment of the full-
year supplemental request will have detrimental effects on our 
readiness.
    If supplemental funds are not received, Navy will reduce non-war 
related flying and steaming hours, defer weapons/systems and depot 
maintenance, and eliminate non-readiness training and infrastructure 
support. Specifically, non-global war on terror training exercises will 
have to be cancelled; contracted services for base operations such as 
trash collection and mess hall services will have to be scaled back or 
curtailed; Facilities, Sustainment, Restoration, and Modernization 
projects will be placed on hold or deferred, which will cause higher 
costs and potential services disruption and attendant costs. 
Additionally, planned depot maintenance will have to be deferred as 
funds are reapplied to higher priority requirements. These delays, 
deferments and cancellations will force the Department to accept more 
risk for future deployed forces. In addition, to the extent that 
investment accounts are needed to finance current operations, the 
resulting cancellations will increase costs and delay delivery of much 
needed weapon systems.
    These costs are associated with personnel, personnel support and 
operations (including steaming days, flying hours, ground equipment and 
transportation). In addition, funds are required for depot maintenance 
of aircraft, ships, and ground equipment.

    Senator Cornyn. By ``personnel costs,'' General Chandler, 
are you talking about moving families?
    General Chandler. Yes, sir.
    Senator Cornyn. In other words, we're not just talking 
about uniformed servicemembers, impacts on them, you're talking 
about the families, as well.
    General Chandler. Yes, sir.
    Senator Cornyn. As I alluded earlier, growing up in a 
military family, I can identify with the importance of making 
sure that families are taken care of, because, of course, 
they're an all-volunteer military; it's very important, in 
terms of ability to retain good people, that we take care of 
their families.
    General Castellaw and General Chandler, I wanted to ask 
just a brief question about the V-22. I've been on the assembly 
line in Amarillo, and I'm acquainted with the early history and 
the tragedy associated with the early development of the V-22. 
I've heard various people comment on their confidence in the 
capability of that particular aircraft and with the significant 
investment we're making with the human cargo it's going to be 
holding. I'd like to get your comments on the record as to your 
level of confidence in the capability and functioning of that 
aircraft.
    General Castellaw. Sir, I'm an H-46 pilot, a helicopter 
pilot, and the V-22 is replacing the 46. It's 40 years old. 
It's time that we retired that old warhorse. We couldn't find a 
better aircraft than what we have now with the V-22. It's twice 
as fast, carries three times the payload, goes five times as 
far, and is, more importantly, six to seven times more 
survivable. So, what we have is an aircraft that carries our 
most important weapons system, as I said before, the marine 
rifleman, and having flown both aircraft, the V-22 is much more 
powerful, much more agile, much more responsive than the old 
aircraft that it's replacing. I'm proud to be able to support 
and testify to the capabilities of that aircraft.
    Senator Cornyn. Well, just having seen it in production, 
it's a miracle of engineering science. I'm glad to hear you say 
what you just said.
    General Chandler, do you have anything to add?
    General Chandler. Sir, I would tell you that our feelings 
are much the same. The HH-53 has been with us in about the same 
numbers that the H-46 has been with the Marine Corps. It's been 
a good aircraft, but it's a tired aircraft. Special Operations 
is looking forward to getting their hands on the V-22. Based on 
the speed, the range, the payload, and just the capability of 
the aircraft, we feel like the aircraft is safe, and it's ready 
to fly.
    Senator Cornyn. Thank you very much.
    Mr. Balderson, let me ask you just one quick question about 
the Pratt & Whitney engine, and make sure I understood you 
correctly. I have a document in my hand here that appears to 
indicate that the contract for this engine, for the F135, was 
not competitively procured. There's a date here, if I'm reading 
this correctly, January 23, 1997; another date, October 26, 
2001. Am I misreading this, or is there some variance between 
what this document appears to say and your earlier statement 
about competitive----
    Mr. Balderson. I think I probably wasn't clear. To be very 
honest with you----
    Senator Cornyn. Well, it may not have been your fault. I 
may not have understood, but I can give you a chance to 
clarify.
    Mr. Balderson. I'll take the specific question for the 
record, because that far precedes my time on the program, and I 
should know, but I don't know, whether the F135 was initially 
procured competitively through the Government or whether it was 
a Lockheed Martin decision or what.
    [The information referred to follows:]

    The Department submitted a report to the Congressional Defense 
Committees on the engine development strategy for the demonstrator 
aircraft in the Joint Advanced Strike Technology program dated January 
27, 1996. Contracts were awarded to Pratt & Whitney (P&W) and General 
Electric for Concept Exploration Phase and Concept Development Phase 
efforts. Subsequently, all three Program Weapon System Contractors 
independently selected either the basic, or a derivative of, the P&W 
F119 as the cruise engine for their preferred weapons system concepts 
and demonstrator aircraft. A follow-on contract was awarded to P&W in 
fiscal year 1996 to provide hardware and engineering support as 
government furnished equipment for the weapon system concept 
demonstration efforts commencing in fiscal year 1997.

    Mr. Balderson. But that notwithstanding, the fact is, we 
did proceed sole-source with the F135. What I meant, in 
response to Chairman Lieberman's question, is that as we were 
developing the F135, and then the Department made the decision, 
a number of years ago, to bring along the second source, the 
F136, at that point in time. As we went through dual 
development and both contractors anticipated dual production, 
all of the forces of competition that we would normally see, I 
believe, were, in effect, on both contractors. Normally what we 
do in a competition is, we would bring along two contractors, 
and, at a point prior to production, we would do a winner-take-
all, and we would establish a source to continue with the 
program. Of course, in this case, the difference, as I 
mentioned, is, the plan had been, we would not do a winner-
take-all, we would continue those two sources through 
production.
    All I was trying to say is that I believe GE clearly felt 
the pressure of the F135 as they developed and moved toward 
production of their engine. But I also believe--and there's no 
question in my mind--that Pratt & Whitney felt the competitive 
effects of our funding the F136 engine, and that that drilled 
decisions they made, in terms of reliability, investment in 
technology, and cost-reduction initiatives. My point was, as we 
now are at the point of negotiating the price of those first 
production aircraft of the F135, I believe we've gained most of 
the competitive advantage that we would get. At this point, 
continuing to split the buy, I think, would offer us little 
opportunity to reduce or recoup those costs. I don't know if 
that's clear. It's a little confusing. I may not be explaining 
it well.
    Senator Cornyn. That helps. If, on further review, you have 
any additional comments or clarifications, if you'll supplement 
the record with that, I would appreciate that.
    Mr. Balderson. Yes, sir.
    Senator Cornyn. I'd like to ask our Air Force witnesses--
we've been notified that the C-130 aircraft modernization 
program has suffered a Nunn-McCurdy breach, and is awaiting 
recertification by the Under Secretary of Defense for 
Acquisition. Would you care to comment on where we are with the 
program? In your view, are there reasonable alternatives that 
will provide for equal, or greater, capability at lower cost, 
going forward?
    General Hoffman. Senator, that's exactly the second 
question that has to be certified to. The first is; is it 
essential to national security? The second question that has to 
be answered during a Nunn-McCurdy process is; are there 
alternatives? That's exactly what the DOD is doing right now, 
and the other two questions are, are their production costs 
reasonable? Is there a management structure that's going to 
control costs in future success of the program? So, those four 
questions have to be answered for the Secretary of Defense to 
certify the Nunn-McCurdy process. If we can't certify it, the 
program stops. If we can satisfactorily answer those questions, 
then the program continues on in a rebaseline form.
    So, we owe you, Congress, that answer by the first week of 
June, and we're on track to answer those questions.
    [Additional information follows:]

    On 4 June, Kenneth Krieg, Under Secretary of Defense, Acquisition, 
Technology, and Logistics, signed the C-130 AMP Nunn-McCurdy 
certification letters to the Congressional Defense Committees, the 
President of the Senate and the Speaker of the House--in compliance 
with title 10, U.S.C., section 2433. The letters were delivered June 5 
to meet the statutory Nunn-McCurdy certification deadline.

    Senator Cornyn. Thank you, sir.
    My time's expired. Thank you.
    Senator Lieberman. Thanks, Senator Cornyn.
    I want to thank our witnesses.
    We're going to keep the record of the hearing open for 10 
days, in case you want to add anything, and in case we want to 
ask any more.
    Senator Lieberman. Okay, I want to thank the five of you 
for your testimony today. In my opinion, you've been a very 
impressive group of witnesses. You know your stuff and you've 
spoken responsively to us. I think we're very fortunate to have 
people of your quality serving our country, particularly at 
this time, when our security is so directly threatened.
    So, I end with admiration and gratitude for what you're 
doing.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman, for calling the 
hearing. It's been very edifying, and I know there's additional 
dialogue we want to undertake on this important matter. I look 
forward to continuing to work with you and the subcommittee as 
we report our conclusions to the full committee and debate some 
of these important issues.
    Thank you.
    Senator Lieberman. Thank you.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

         Questions Submitted by Senator Hillary Rodham Clinton

      NEXT GENERATION COMBAT SEARCH AND RESCUE HELICOPTER PROGRAM

    1. Senator Clinton. General Hoffman, the April 27, 2007 Air Force 
press release identified that the Air Force will be providing ``fair 
and open competition'' with the amended request for proposals (RFPs) in 
regard to the next generation combat search and rescue helicopter 
(CSAR-X) program. However, the statement also denotes that ``offerors 
will only be given an opportunity to substantive manpower efficiencies 
based on reliability and maintainability characteristics of the 
proposed aircraft,'' signifying limited options to rectify this 
acquisition. Will this process meet timetables for the original program 
schedule and be the most efficient?
    General Hoffman. The Air Force's desire is to minimize the impacts 
the protests will have on the program, including schedule. The March 
29, 2007, Government Accountability Office (GAO) decision regarding the 
Air Force's request for reconsideration validated the Air Force's 
evaluation regarding three of the four CSAR-X stated evaluation 
factors. The single area where the GAO found an inconsistency in our 
stated approach versus our actual evaluation was in the Operations and 
Support (O&S) cost portion of the Price/Cost factor, and this is where 
the Air Force's corrective action is aimed. Additionally, the Air Force 
is going beyond just clarifying our stated evaluation approach and has 
developed a way for the offerors to quantify and substantiate potential 
manpower efficiencies based on the reliability and maintainability 
characteristics of their proposed aircraft. This allows the Air Force 
to conduct a new best value assessment based on integration of the new 
maintenance manpower information along with the results of the original 
evaluation in the areas where the GAO found no problems.

                             VH-71 PROGRAM

    2. Senator Clinton. Mr. Balderson, the Navy recently announced that 
the VH-71 program will be accelerated and operational by the proposed 
2009 initial operational capability (IOC) target date. Will all testing 
and safety requirements be met under this accelerated schedule?
    Mr. Balderson. Yes, all testing and safety requirements will be met 
before any IOC is declared.

    3. Senator Clinton. Mr. Balderson, as the 2009 launch draws closer 
for the VH-71, how would you summarize the progress of the program?
    Mr. Balderson. The Increment 1 strategy purposely acknowledged a 
high schedule risk to meet urgent needs for safe and reliable 
Presidential transport. The Increment 1 program schedule has been 
affected by slow progress in requirements definition, design 
completion, and lack of coordination of the proposed design between 
Lockheed Martin System Integrator--Owego and their subcontractors, all 
of which resulted in a 10-month slip to the Increment 1 Critical Design 
Review. The program continues execution to an aggressive schedule to 
meet Increment 1 IOC.
    Increment 2 serves as the long-term solution and follows a more 
traditional acquisition approach. Program of Record challenges include 
budget phasing, schedule perturbations due to Increment 1 delays, 
concurrency among Increment 1 and Increment 2 testing, and full 
definition of a design solution that meets the requirements. The 
program is in the process of reassessing Increment 2, culminating with 
a system requirements review and revised schedule and government cost 
estimate.

    4. Senator Clinton. Mr. Balderson, has the Navy made a decision on 
the location of the future VH-71 aircraft production facility?
    Mr. Balderson. Final assembly for Increment 2 Low Rate Initial 
Production and Full Rate Production aircraft will be carried out in the 
United States. A specific United States location is still being 
determined.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

          NEXT GENERATION COMBAT SEARCH AND RESCUE HELICOPTER

    5. Senator Cornyn. General Chandler and General Hoffman, after 
Boeing won the contract for development of the CSAR-X for the Air 
Force, I understand both Lockheed and Sikorsky protested to the GAO. In 
a rare decision, GAO upheld the protest on a technical point of 
lifecycle costs. Now the ball is in the Air Force's court, so to speak. 
What is the Air Force's way ahead on the CSAR-X program?
    General Chandler and General Hoffman. The Air Force released an 
amendment to the CSAR-X RFPs. The amendment will clarify the Air 
Force's evaluation of O&S costs and also give the offerors an 
opportunity to quantify and substantiate potential manpower 
efficiencies based on the reliability and maintainability 
characteristics of the proposed aircraft.
    Once the Air Force receives revised proposals from the offerors, 
Air Force officials will review and evaluate the offerors' proposed O&S 
efficiencies, and will conduct a new best value assessment based on an 
integration of the new O&S information along with the results of the 
original evaluation in the areas where the GAO found no problems.

    6. Senator Cornyn. General Chandler and General Hoffman, does the 
Air Force still think they can make their target of IOC by 2012?
    General Chandler and General Hoffman. The Air Force will take 
appropriate steps to mitigate the impacts caused by protests in order 
to get this capability into the hands of the warfighter as soon as 
possible. Schedule impacts to CSAR-X are unknown until the Air Force is 
able to award the contract.

               AIR POWER IN THE NEW COUNTERINSURGENCY ERA

    7. Senator Cornyn. General Chandler, General Hoffman, Mr. 
Balderson, General Castellaw, and Admiral Clingan, yesterday, the 
acting Secretary of the Army and the Chief of Staff of the Army 
testified before this subcommittee on their ongoing efforts to shape 
and restructure the Army for the new counterinsurgency era that we find 
ourselves in. Coincidentally, RAND has just released a new book, titled 
``Air Power in the New Counterinsurgency Era.'' Please provide comments 
on the recommendations made. Please briefly discuss ongoing efforts to 
restructure or reshape our Nation's aviation assets to be more 
responsive to the counterinsurgency threat we are facing.
    General Chandler and General Hoffman. RAND made five 
recommendations in ``Air Power in the New Counterinsurgency Era:''

          (1) Make counterinsurgency an institutional priority

                  a. USAF is participating fully in the Irregular 
                Warfare (IW) roadmap mandated by Quadrennial Defense 
                Review (QDR) 06.
                  b. Air Force Doctrine Center is in final coordination 
                for publishing a brand new doctrine document titled IR 
                (AFDD 2-3). This document will complement the recently 
                published Army Field Manual 3-24, Counterinsurgency 
                (COIN).
                  c. AF Doctrine Center is also in final coordination 
                for publication of updated AFDD 2-3.1, Foreign Internal 
                Defense (FID).

          (2) Create organizations and processes to oversee USAF 
        counterinsurgency efforts

                  a. USAF has formally stood up a coalition and 
                Irregular Warfare Center of Excellence (CIWC) at Nellis 
                AFB. Final staffing should be complete by fall 2007. 
                CIWC's mission it to facilitate the development of 
                relevant airpower capabilities, capacities and 
                relationships in partner nations in the global war on 
                terror.

          (3) Develop and nurture counterinsurgency expertise 
        throughout USAF

                  a. COIN and FID are not new missions for the Air 
                Force. The 6th SOS at Hurlburt has been performing this 
                mission since 1962. This has been a small effort 
                though, relative to the rest of the Air Force. Recently 
                the squadron nearly doubled in size, to meet the 
                growing demand in COIN and FID.
                  b. Recently the Air Force initiated the 
                Transformational Aircrew Management Initiative for the 
                21st Century (TAMI-21). This program will move 80 
                fighter pilots and 40 bomber pilots into Air Force 
                Special Operations Command (AFSOC) and Unmanned 
                Aircraft System (UAS) growth areas.

          (4) Create a wing-level organization for aviation advising

                  a. AFSOC recently published a white paper outlining a 
                concept for an IW wing. The paper was signed by the 
                AFSOC Commander, Lieutenant General Wooley. Full 
                development of the concept awaits CSAF approval/
                guidance.

          (5) Enhance U.S. Air Force combat capabilities for 
        counterinsurgencies.

                  a. While AFSOC has always focused on 
                counterinsurgency operations, other Air Force units 
                have had to adapt to the counterinsurgency fight in 
                Iraq and Afghanistan, as we did in Vietnam. 
                Enhancements to adapt these capabilities and platforms 
                for COIN operations include, but are not limited to:

                          i. Introduction of Remotely Operated Video 
                        Enhanced Receiver transmitters and receivers-
                        greatly enhanced ability to perform COIN/CAS in 
                        urban environment
                          ii. Use of targeting pods and other electro-
                        optical devices in a nontraditional ISR role to 
                        support ground units in COIN ops
                          iii. Various counter IED measures
                          iv. Introduction of Small Diameter Bomb-
                        provides a lower collateral damage weapon for 
                        COIN ops.
                          v. Integration of Hellfire on Predator UAS.
                          vi. Use of Fighters and Bombers in non-lethal 
                        show of force maneuvers
                          vii. Use of a variety of air mobility 
                        platforms to support ground forces conducting 
                        COIN/FID operations, reducing overland convoys' 
                        exposure to enemy IEDs and ambushes.

    RAND has several other on-going studies that further investigate 
the role of the Air Force and Airpower in a counterinsurgency/IW 
environment. Preliminary findings indicate that a focus on COIN and IW 
is needed. One of the CSAF's ``2007 initiatives'' is an evaluation of 
COIN aircraft and AFSOC has published a concept for an IW wing. As an 
Air Force we continue to study this issue with an eye towards balancing 
a force with an appropriate focus on both IW and major combat 
operations.
    AFSOC's IW wing would be equipped (notionally) with light attack 
aircraft, light utility aircraft, medium lift, heavy lift, manned ISR 
and helos. While the missions these aircraft would perform can be done 
by our current frontline aircraft, many of our existing and future 
allies in the global war on terrorism can not afford such platforms. An 
IW wing would provide the Air Force a useful capability in COIN 
operations such as Iraq and Afghanistan, while at the same time 
providing a direct means of supporting FID operations with nations 
unable to procure or sustain expensive frontline weapons systems.
    The speed, range, flexibility, versatility, and persistence of 
airpower capabilities allow the Air Force to operate over vast denied 
areas and provide a critical portfolio of options for dealing with a 
myriad of challenges. As we look to the future we face the very real 
possibility of major theater war as well as increased COIN and IW 
operations. We are evaluating our force posture to maximize our 
contributions across the spectrum of conflict.
    Mr. Balderson and Admiral Clingan. The RAND Corporation Project Air 
Force monograph series referenced, titled ``Air Power in the New 
Counterinsurgency Era,'' is an Air Force study in which the 
recommendations address USAF force structure and mission. It would be 
inappropriate for me to comment on those specific recommendations.
    Naval Aviation continues to play a major role in providing tailored 
effects in support of Operations Enduring Freedom (OEF) and Iraqi 
Freedom (OIF), as well as the broader global war on terrorism. The Navy 
carefully balances investments across the aviation portfolio to 
guarantee it can deliver the effects required by maritime and Joint 
commanders in both major combat operations and IW. The 2008 President's 
budget and Navy supplemental requests continue procurement and 
sustainment of platforms, systems and weapons that enhance 
counterinsurgency operations by improving speed, range, persistence, 
flexibility, and lethality--all ``unique advantages of air power'' as 
noted in the RAND study. In many cases, the investments are the direct 
result of combatant commander requests for capabilities related to 
counterinsurgency operations, as highlighted below.
Weapons
    The RAND Study observes (page 74): ``The intermingling of 
insurgents with civilian populations presents severe challenges for 
intelligence, surveillance, and reconnaissance capabilities and makes 
it desirable to have a variety of munitions with very limited 
effects.'' The President's budget 2008 procures and develops a mix of 
legacy, advanced and next generation weapons that are lethal throughout 
the entire range of military operations, including urban warfare:
    Hellfire missile (AGM-114)--Thermobaric warhead improvements that 
contain blast effects to minimize collateral damage in an urban 
environment were deemed operationally effective in 2006. This 
capability will be complemented by trajectory shaping, which will allow 
flight crews to select the missile flight profile most effective for 
the particular engagement. The President's budget 2008 request includes 
$45.7 million to procure 439 weapons and the components to address 
these requirements.
    BLU-126/B--Low-collateral-damage bomb (LCDB) bridges a capability 
gap identified by U.S. Central Command (CENTCOM). The LCDB is a low 
cost solution identified by the Naval Aviation Enterprise for use with 
the Joint Direct Attack Munitions (JDAM) and Laser Guided Bomb (LGB) 
precision guidance kits. It uses 20 percent of the explosive fill of a 
standard 500 pound MK82 to create a precise, air-delivered weapon 
effect when limited collateral damage is paramount. The BLU-126/B is 
currently in production and approximately 1,500 LCD bomb bodies are 
available to the Joint Force Commander.
    Direct Attack Moving Target Capability (DAMTC)--The President's 
budget 2008 requests $29.1 million in fiscal year 2008 and $214.5 
million across the FDYP for the DAMTC program, which seeks to use JDAM 
and/or LGB weapons as the foundation for a dual mode weapon that is 
capable of prosecuting targets moving at speeds up to 70 mph. An open 
competition will be expeditiously conducted in response to the urgent 
need for a fixed wing aircraft moving target weapon that will culminate 
in a fielded solution following operational testing in fiscal year 
2009. This low cost, rapid integration program adds significant 
capability while leveraging the existing industrial base to procure 
17,720 DAMTC weapons.
    Future Naval Strike Weapon plans continue to address the importance 
of supporting the warfighter in the global war on terrorism and 
counterinsurgency operations. The Navy and Marine Corp have studied the 
utility and feasibility of transforming the current inventory of 
unguided 2.75 and 5 rockets into precise weapons using laser and IR 
seekers. The potential precision and flexibility of a guided rocket 
system exemplifies how naval aviation continues to transform air power 
to meet the challenges of counterinsurgency operations.
Self Protection Systems
    Tactical Aircraft Directed Infrared Countermeasures (TADIRCM)--The 
President's budget 2008 requests $27.6 million in research, 
development, test, and evaluation (RDT&E) for development of an 
improved Missile Warning System (MWS) and Infrared CounterMeasure 
(IRCM) system for Navy and Marine Corps helicopters. This system will 
provide aircrew protection against current and next generation IR 
guided man-portable air defense systems (MANPADS). The Analysis of 
Alternatives for TADIRCM has been completed and the program is working 
toward a Milestone B in fiscal year 2008.
    Countermeasure Dispensing System capacity is being added to rotary 
winged aircraft to increase the number of flare dispensing events per 
mission and to provide forward firing flares for advanced threats. 
Additionally, the existing AAR-47A(V)2 Missile Warning System is being 
upgraded to the AAR-47B(V)2 to enhance survivability in background 
clutter environments.
    Large Aircraft InfraRed CounterMeasures (USAF LAIRCM) system is 
being installed on CH-53E/D, CH-46E, and MV-22 aircraft through the 
Rapid Deployment Capability process, to get the best IRCM capability to 
the fleet as soon as possible, while the TADIRCM system is developed 
for smaller aircraft that cannot take the LAIRCM.
Aircraft and Aircraft Systems
    F/A-18E/F (Distributed Targeting and Sensor Integration)--The 
President's budget 2008 requests $12.7 million to continue RDT&E and 
capitalize on the $9.7 million previously funded by Congress to develop 
quicker reaction time on the battlefield for strike platforms. 
Distributed Targeting and Sensor Integration provide autonomous 
identification and all weather precision strike capability on surface 
targets. These systems will allow the F/A-18E/F to identify ground 
targets, provide precision target coordinates from onboard imagery 
(ATFLIR and AESA), and generate templates for reactive JSOW-C usage and 
for future weapons including dual mode JDAM and JAGM.
    SHARP--In addition, the SHAred Reconnaissance Pod (SHARP) carried 
on the F/A-18E/F is a dual mode (electro-optical/Infrared) pod being 
heavily employed by CENTCOM. SHARP is currently evaluating a 
hyperspectral sensor which will support automatic detection, 
classification and identification of camouflaged and concealed targets, 
in all weather conditions. Concurrently, efforts are underway to 
improve in-cockpit viewing and selection of imagery which will then be 
data-linked to other aircraft and/or ground forces for strike or 
situational awareness.
    EA-6B/EA-18G--Navy is directly supporting the ground warfighter 
with EA-6Bs deployed from carriers and in the expeditionary role that 
provide on-call nonkinetic fires critical to counterinsurgency 
operations. Significant investments in the capabilities of this 
platform's weapons system are in direct response to combatant commander 
requirements in past years and again the President's budget 2008. The 
details of these capabilities are available if desired in the 
classified format. Enhanced capabilities, resident in the EA-18G, will 
begin to generate battlefield effects as the Navy begins to transition 
its carrier-based EA-6Bs to the EA-18G in 2009. The Navy has requested 
$1,318.8 million of APN in the fiscal year 2008 budget to procure 18 
aircraft. These aircraft will be configured with the AN/ALQ-227 
Communications Countermeasures Set receiver system. The EA-18G ALQ-227 
system will use the AN/ALQ-99 Low Band Transmitter for communications 
jamming. The fiscal year 2008 budget also contains $21.8 million of APN 
to procure 10 Low Band Transmitters and to sustain the EA-6B Prowler's 
counterinsurgency capabilities. Both of these investments are in direct 
response to requirements stemming from the global war on terror and 
counterinsurgency operations.
    EP-3E/EP-X--Today the EP-3E is deployed globally and fully supports 
all combatant commander counterinsurgency tasking by collecting signals 
of interest and passing the identification and/or location to the 
supported commanders. In the next decade, the EP-3E will be replaced by 
the EPX aircraft, currently in the requirements development phase. The 
EPX will be a multi-intelligence collection platform with a more robust 
capability to collect, process, fuse and target IW signals of interest.
    MH-60S/MH-60R--The Navy's Helicopter Master Plan introduces 
significantly improved major combat operation and IW capabilities that 
support insertion and extraction, crew served weapons support, sniper 
platform and C2 of Special Operation Forces; Maritime/Leadership 
Interdiction Operations; Maritime Domain Awareness; ISR and Combat 
Search and Rescue. Helicopter detachments can deploy worldwide on any 
naval combatant and possess the ability to operate in austere 
environments with only limited support. These aircraft can conduct 
missions in all weather, day or night, taking advantage or night vision 
devices, EO/IR systems and precision laser guided munitions.
Unmanned Aircraft Systems (UAS)
    UAS play a key role in providing intelligence, surveillance, and 
reconnaissance (ISR) support to counterinsurgency operations. Navy 
investments are focused on fielding unmanned systems tailored for 
single units and striking forces that will be effective in both 
permissive and non-permissive environments. Specific examples include:
    Small Tactical UAS/Tier II UAS--The Navy and Marine Corps will 
begin a combined program of record in fiscal year 2008, leading to 
development of an organic, persistent ISR platform that will support 
Navy ship/small unit commanders and Marine Regiment/Battalion/ 
Expeditionary Unit commanders with a planned IOC in fiscal year 2010. 
This program will fill capability gaps currently addressed through ISR 
service contracts, which will be continued to meet capability 
shortfalls in the short term. A Marine Corps Warfighting Lab (MCWL) 
demonstration is also planned to examine the feasibility of operating 
these UASs with ground units.
    VTUAV--The Navy's Fire Scout UAS will reach IOC in fourth quarter 
fiscal year 2008 onboard LCS. This UAS system will provide baseline EO/
IR/Laser Designator and communications relay support for all LCS 
mission modules, and will be very valuable during littoral 
counterinsurgency operations.
    During fiscal year 2007, as the lead service for Explosive Ordnance 
Disposal (EOD), the Navy will sponsor the demonstration of small UAS 
capabilities in support of EOD forces deployed in the global war on 
terrorism. This in-theater demonstration, scheduled during 3Q fiscal 
year 2007, will employ 3 Silver Fox UAS and 10 Micro Air Vehicle (MAV) 
systems in response to a validated Joint Urgent Operational Need 
(JUON).
    The President's budget 2008 requests funding for a broad spectrum 
of capabilities that are relevant and essential to both IW and major 
combat operations. It strikes a thoughtful balance between legitimately 
competing imperatives, and ensures naval aviation will be capable of 
delivering timely, precisely tailored effects in support of IW 
throughout the world. The persistence of naval forces, conducting 
counterinsurgency operations from international waters with speed and 
precision, is a hallmark of the United States Navy.
    Genral Castellaw. The Rand Corporation Project Air Force monograph 
series titled, ``Air Power in the New Counterinsurgency Era,'' 
referenced is an Air Force Centric study and the recommendations 
concern primarily USAF force structure and mission. It would be 
inappropriate for me to comment on those specific recommendations. The 
Naval Aviation fiscal year 2008 budget procures and develops a mix of 
legacy, advanced and next generation weapons that are effective 
throughout the entire range of military operations, including IW.
Weapon Systems
    Hellfire missile (AGM-114) improvements are being implemented in 
response to urban warfare requirements that mandate minimal collateral 
damage. Thermobaric warhead improvements that contain blast effects 
were deemed operationally effective in 2006. The fiscal year 2008 
budget request includes $45.7 million to procure 439 weapons and 
components to address these requirements. The LCDB bridges a capability 
gap identified by CENTCOM. The LCDB is a low cost solution identified 
by the Naval Aviation Enterprise (NAE) that has been approved for use 
with the JDAMs and LGB precision guidance kits. It was fielded in March 
2007 using General Purpose Bomb funds.
    DAMTC--The fiscal year 2008 budget requests $29.1 million in fiscal 
year 2008 and $214.6 million across the FDYP for the DAMTC program, 
which seeks to use JDAM and/or LGB weapons as the foundation for a dual 
mode weapon that is capable of prosecuting targets moving at speeds up 
to 70 mph. This low cost, rapid integration program adds significant 
capability while leveraging the existing industrial base to procure 
17,720 DAMTC weapons.
Self Protection Systems
    TADIRCM--The fiscal year 2008 budget requests $27.6 million in 
RDT&E for development of an improved Missile Warning System (MWS) and 
Infrared Countermeasure (IRCM) system for Navy and Marine Corps 
helicopters. This system will provide aircrew protection against 
current and next generation IR guided MANPADS. The Analysis of 
Alternatives for TADIRCM has been completed and the program is working 
toward a Milestone B in fiscal year 2008.
Aircraft
    Specific to counterinsurgency efforts, the MV-22 and F-35B will 
fill critical roles for the U.S. Marine Corps as early as this fiscal 
year with the deployment of the Corps' first MV-22 tactical squadron, 
VMM-263. Counterinsurgency efforts must be supported by aircraft that 
possess capabilities across the spectrum of conflict; from humanitarian 
assistance to kinetic fires, the MV-22 and F-35B will provide vastly 
greater operational reach, persistence on the battlefield, and 
connectivity across all lines of effort. The MV-22 can reach anywhere 
within 500,000 square miles from its point of origin on a single refuel 
that will allow the ground commander to deploy and resupply troops at 
the time and place of his choosing. Likewise, the F-35B, due to its 
unique and flexible basing characteristics, will provide persistent 
fires as well as ISR and connectively to forward deployed troops in 
support of mission objectives.
Command and Control
    The ability to swiftly and decisively act upon time sensitive 
intelligence in support of counterinsurgency efforts requires a high 
degree of coordination and control of aviation assets. Coupled with the 
capabilities of manned and unmanned aircraft in the U.S. Marine Corps 
inventory, effective command and control ensures that the right 
aviation assets are where they need to be when they are needed. To this 
end the Marine Corps is heavily investing in our next generation 
aviation command and control system (CAC2S). CAC2S will provide crucial 
linkages within the MAGTF to ensure a high degree of shared situational 
awareness and the efficient tasking of high-demand, low-density assets.

                           COMMERCIAL TANKERS

    8. Senator Cornyn. General Chandler and General Hoffman, the 
original proposal to replace the aging KC-135 tanker fleet had a Part B 
section which called for developing a plan for the Government to use 
commercial tanker aircraft to fulfill some of the military's tanking 
needs. The committee understands that a pilot project is in 
development; when can we expect to see something from it?
    General Chandler and General Hoffman. The Air Force has completed 
the initial strategy development for a commercial tanker ``fee-for-
service'' demonstration. Briefings on Capitol Hill are in progress. The 
Senate Armed Services Committee has been briefed (31 May 2007) with 
briefing to the House Armed Services Committee anticipated during the 
week of 5-8 June 2007.


                      IMPROVISED EXPLOSIVE DEVICES

    9. Senator Cornyn. General Chandler, General Hoffman, Mr. 
Balderson, General Castellaw, and Admiral Clingan, what technology 
strategy and level of investment is being proposed in the Air Force and 
Navy budgets to support our ability to get on top of and ahead of the 
improvised explosive device (IED) threat?
    General Chandler and General Hoffman. In response to April 2006 
direction to the Services, the Air Force programmed approximately $9.9 
million per year through fiscal year 2013 ($59.443 million total) for 
procurement and sustainment costs directly associated with Counter-
Improvised Explosive Device (C-IED) equipment/systems. This funding is 
specifically for Specialized Search Dogs (the Air Force is the 
Department of Defense Executive Agency for Military Working Dogs), 
Explosive Ordnance Disposal Robots, and Air Force funded requirements 
for up-armor modification kits for the Service's fleet of High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs) in the theater of operations.

                        [In millions of dollars]
Specialized Search Dogs....................................       $5.843
Robotics...................................................         19.6
Up-Armored HUMMWVs.........................................         34.0
                                                            ------------
  Total programmed:........................................      $59.443


    The Air Force does not have any other dedicated or independent 
funding lines for C-IED initiatives. However, the Air Force also makes 
significant contributions to C-IED efforts with a variety of 
initiatives that are corporately vetted through the Air Force's Rapid 
Response Process--the most promising of these initiatives are 
championed by the Service for potential Joint IED Defeat Organization 
(JIEDDO) funding. To date JIEDDO has funded 14 Air Force initiatives 
for $87.035M.
    Regarding strategy, the Air Combat Command (ACC), acting as the Air 
Force's lead Major Command (MAJCOM) warfighter force provider, recently 
signed a C-IED Operating Concept to ensure Air Force efforts are 
synchronized and cohesive in the campaign to overcome the threat and 
loss of personnel/resources posed by adversary use of IEDs. This 
operating concept provides a standardized approach with the JIEDDO, 
U.S. CENTCOM, U.S. Central Command Air Forces (CENTAF), and ACC C-IED 
efforts by using common constructs and terminologies. The ACC's C-IED 
Concept directly supports and is congruent with CENTCOM's C-IED 
Campaign plan through mutual focus on defeating the IED system. To 
execute this framework, ACC, with assistance from the Army and CENTCOM, 
recently completed a draft Concept of Employment (CONEMP) that is 
written from an airman's perspective taking a constrained and 
unconstrained approach to interdicting the IED system. Following CONEMP 
execution, ACC will look to identify capability and tactics, techniques 
and procedures (TTP) gaps permitting sound analysis/actions for 
Doctrine, Organization, Training, Materiel, Leadership, Personnel, and 
Facilities (DOTMLPF) improvements.
    There are also a number of technologies within the Air Force 
Science and Technology (S&T) Program that could be applicable to 
countering the IED threat; however, S&T efforts are typically non-
system specific and support a wide range of potential applications--as 
such, there is not a dedicated S&T investment line in this area. For 
example, one of the Air Force S&T Program's Focused Long-Term 
Challenges is to Dominate Difficult Surface Target Engagement/Defeat, 
which includes technologies that could be used to find, identify, 
track, and engage IEDs, such as: adversarial modeling; improved 
operator interfaces for enhanced unmanned aerial vehicles (UAVs); and a 
wide range of command, control, communications, computers, 
intelligence, surveillance, and reconnaissance technologies.
    Beyond S&T, the Air Force continues to improve existing platforms 
like Compass Call and Predator, which have proven useful in C-IED 
missions. Compass Call improvements provide a very effective C-IED 
classified capability, while planned Fiscal Year 2008 Predator 
improvements enhance Predator support to C-IED missions. In addition, 
the Air Force requested global war on terrorism Supplemental funding in 
both fiscal years 2007 and 2008 to field a net-centric beyond line-of-
sight (BLOS) secure communications capability across the Joint 
Surveillance and Target Attack Radar System (Joint STARS) fleet. This 
improvement, combined with a future Network Centric Collaborative 
Targeting (NCCT) capability, will enable Joint STARS to rapidly 
collaborate with other sensors and intelligence sources to produce 
actionable intelligence. CENTCOM has recently identified BLOS secure 
communications as an Urgent Operational Need and this funding will 
enable the Air Force to achieve an IOC for Joint STARS BLOS 
communications by March 2008. The Air Force will consider funding for 
NCCT in its fiscal year 2010 budget request.
    Mr. Balderson and Admiral Clingan. IEDs are a significant threat to 
U.S. forces deployed in Iraq and Afghanistan. They are the primary 
source of U.S. casualties. The JIEDDO, together with the military 
Services and all of the Department of Defense, is working to win the 
IED fight in a holistic way, using a balance of intelligence, training 
and technology. This counter-IED effort is a combined Joint Service, 
interagency, multi-national program designed to leverage all available 
resources and technologies in a coordinated campaign to eliminate IEDs 
as weapons of strategic influence.
    The Office of Naval Research (ONR), acting in its role as the 
Science and Technology (S&T) provider for the Navy, invites JIEDDO 
participation in semi-annual program reviews for the ONR CIED Basic 
Research initiatives (Basic Research is a name for S&T that addresses 
phenomenology, versus applied research or engineering). ONR has also 
brought JIEDDO into discussions that have involved new or innovative 
technical discussions such as a preliminary outbriefing at the National 
Academies for Science, and ONR participates in JIEDDO sponsored events 
such as their Technology Outreach Conference). Our relationship is 
collaborative where collaboration is possible and practical. ONR's 
basic research is intended for future application into applied research 
programs or R&D/engineering as performed by Naval entities or by 
JIEDDO. JIEDDO does not perform or fund S&T; JIEDDO is focused on 
addressing immediate (6-18 month time horizon) warfighter requirements. 
So, in terms of coordination, ONR and JIEDDO pursue inherently 
different but complementary technology goals--ONR the long-term S&T, 
and JIEDDO the near-term R&D and engineering. There is virtually no 
overlap between the two organizations, nor should any overlap exist.
    The Commanding General, Marine Corps Warfighting Laboratory (CG 
MCWL) represents U.S. Marine Corps within the JIEDDO Integrated Process 
Team (JIPT), the top-level decision-making body. The MCWL-led U.S. 
Marine Corps IED Working Group supports CG MCWL through daily 
engagement with various JIEDDO sub-IPTs, developing and delivering 
technology to the warfighter and eliminating redundancy.
    As to RDT&E,N funding requested in fiscal year 2008 for counter IED 
efforts (in all lines), $104.351 million. As for that which has been 
executed in fiscal year 2006 and in fiscal year 2007 (to date), $36.032 
million was executed in fiscal year 2006 and $26.769 million is 
allocated for execution in fiscal year 2007 in support of CIED efforts.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                  Fiscal Year
                                     -----------------------------------
                                         2006        2007        2008
------------------------------------------------------------------------
6.1.................................      22.755      15.659      24.001
6.2.................................       8.164       5.118       4.400
6.3.................................     * 5.113     * 5.492    * 14.550
6.4.................................                     0.5      61.400
                                     -----------------------------------
  Total.............................      36.032      26.769     104.351
------------------------------------------------------------------------
* Includes 2.023 in fiscal year 2006, 3.515 in fiscal year 2007, and
  12.000 in fiscal year 2008 for MCWL

    General Castellaw. Aerial reconnaissance is provided by all fixed 
and rotary wing platforms visually (naked eye), as well as with 
Litening equipped F/A-18, AV-8B and EA-6B aircraft, in order to 
identify and warn ground forces of potential IED locations or tracking 
triggermen after an event. The Litening ISR pod is used to spot 
potential IED emplacement areas, warn ground forces, and track fleeing 
insurgents after an IED attack. The U.S. Marine Corps is adding the 
Litening capability to the EA-6B aircraft, which will be introduced as 
a global war on terrorism TAC DEMO in fiscal year 2007. Using the 
Change Detection Workstation (CDWS), Advanced Tactical Air 
Reconnaissance System (ATARS) equipped F/A-18s have identified changes 
in the environment that would indicate potential IED emplacements.

         CDWS is a Windows-based desktop PC with imagery comparison 
        software designed to create imagery mosaics of areas of 
        interest. These mosaics are compared to a baseline mosaic and 
        changes are identified through an automated comparison 
        processing and manual comparison.
         CDWS compares existing F/A-18D ATARS Electro-optical (EO) 
        imagery, exporting imagery from the solid state digital 
        recorder at the squadron ground station (SGS) or MEF G-2 
        Tactical Exploitation Group (TEG) to CDWS.
         Recent funding will allow ATARS to incorporate CDWS into 
        SHARC, for multi-service compatibility, as well as providing an 
        automatic functionality.
         TTPs continue to evolve to identify likely IED emplacements, 
        suspicious vehicles and activities as well as to track and 
        report movement of suspicious vehicles and personnel after IED 
        attacks. The U.S. Marine Corps is introducing an Electronic 
        Attack (EA) payload for the Pioneer UAV.
         Pioneer EA Payload is a U.S. Marine Corps fiscal year 2007 
        TAC DEMO leveraging the successes of the Iron Nail program 
        initially created for the Army.
         JIEDDO has funded the effort. Specific capabilities and 
        operational concepts are classified.
                                 ______
                                 
               Questions Submitted by Senator John Warner

 STUDIES ON THE SECOND ENGINE SOURCE FOR THE F-35 JOINT STRIKE FIGHTER

    10. Senator Warner. General Chandler, General Hoffman, Mr. 
Balderson, General Castellaw, and Admiral Clingan, in the National 
Defense Authorization Act (NDAA) for Fiscal Year 2007, Congress 
required that three separate studies be conducted on the cost and 
benefits of having a second engine production source for the F-35 Joint 
Strike Fighter (JSF). Two of the studies, from the Institute for 
Defense Analyses and the Cost Analysis Improvement Group, cite a 
potential problem with the F135 engine inlet temperature versus the 
F136 engine. Given this condition, are you satisfied with the level of 
risk associated with solely using the F135 engine?
    General Chandler and General Hoffman. With 7,300+ test hours on 12 
engines through early April 2007, engine performance is meeting 
expectations. Recent experience with engine development indicates there 
is low operational risk to the warfighter with a single engine 
supplier. The Department's decision to cancel the F136 program provides 
the best balance of risk and cost. The conclusions of the studies 
required by the National Defense Authorization Act for Fiscal Year 
2007, while supportive of competition in general, support the 
Department's initial findings that the expected savings from 
competition do not outweigh the investment costs. The Department 
considered the intangible benefits and determined they were not 
sufficient to warrant the production of a second engine for the F-35.
    Mr. Balderson and Admiral Clingan. With approximately 7,300+ engine 
test hours on 12 engines completed through early April 2007, engine 
performance is meeting expectations. Recent experience with engine 
development indicates there is low operational risk to the warfighter 
with a single engine supplier. The Department's decision to cancel the 
F136 program is strictly based on affordability, providing the best 
balance of risk and cost. The conclusions of the studies required by 
the National Defense Authorization Act for Fiscal Year 2007, while 
supportive of competition in general, support the Department's initial 
findings that the expected savings from competition do not outweigh the 
investment costs. The studies also concluded that other benefits might 
result from competition. The Department believes the cost of 
competition outweighs the benefits. The Department considered all of 
the intangible benefits and determined that the other benefits were not 
sufficient to warrant an engine competition for the F-35.
    General Castellaw. We are satisfied the risk associated with the 
F135 engine is acceptable. The Marine Corps does not support any action 
that delays or otherwise negatively impacts the delivery and IOC of the 
F-35B. While there is goodness in having a second F-35 engine 
competition, it simply does not outweigh the operational impacts of 
delaying F-35B introduction and additional program cost.

     CONSTRUCTION OF OUTLYING LANDING FIELD, WASHINGTON COUNTY, NC

    11. Senator Warner. Mr. Balderson and Admiral Clingan, the 
Department of the Navy has a requirement to acquire land and to 
construct an outlying landing field (OLF) on the East Coast of the 
United States to support aircraft operations at Naval Air Station (NAS) 
Oceana, VA, and Marine Corps Air Station (MCAS) Cherry Point, North 
Carolina. For the past 4 years, the Department of the Navy has studied 
an area in Washington County, North Carolina, as the preferred location 
as it is approximately half-way between NAS Oceana and MCAS Cherry 
Point by air. As required by the National Environmental Policy Act 
(NEPA), an Environmental Impact Statement (EIS) was prepared by the 
Department of the Navy to study the impact of a new OLF on the local 
environment and nearby nature preserves in North Carolina. This study 
has been the subject of intense scrutiny and lawsuits, which eventually 
resulted in a Federal court order to the Department of the Navy to 
expand its scope of the environmental study.
    The Department of the Navy has included in the budget request for 
fiscal year 2008 military construction funds totaling $10.0 million to 
be used to acquire land and initiate construction activities. This is 
the fourth year in which the Department of the Navy has requested funds 
for this project, and in each of those years, Congress has rescinded 
funds due to the inability of the Department of the Navy to obligate 
them in a timely manner. This background, coupled with the reported 
opposition by certain segments of the local community, suggests that it 
may be prudent to examine other locations for the OLF. Has the 
Department of the Navy given consideration to a reassessment of the 
final location of the OLF? If so, would this reassessment include 
reconsideration of the 2003 decision by the Department of the Navy to 
base eight squadrons of F-18 Superhornets at NAS Oceana and another two 
squadrons at MCAS Cherry Point?
    Mr. Balderson and Admiral Clingan. While the Washington County, 
North Carolina location remains the Navy's preferred site among the 
five OLF alternative sites in Northeastern North Carolina considered in 
the Final Environmental Impact Statement and the draft Supplemental 
Environmental Impact Statement (SEIS), the views that have been 
expressed about those alternatives by the citizens of North Carolina 
and their elected leaders deserve our most careful consideration before 
final decisions are made. If the Navy receives new information about 
additional sites that potentially meet our OLF siting requirements, the 
Navy will consider and evaluate that new information and determine 
whether adjustments in the current SEIS process are warranted to enable 
formal analysis and consideration of additional sites under the 
National Environmental Policy Act.
    There is no plan at this time to reconsider the aircraft homebasing 
decision.

    12. Senator Warner. Mr. Balderson and Admiral Clingan, what is the 
current status of the Navy's supplemental EIS actions?
    Mr. Balderson and Admiral Clingan. The Draft SEIS was released for 
public comment on 23 Feb 07. Public hearings have been conducted in 
each of the six counties in Northeastern North Carolina that could be 
impacted by a final decision on the OLF site. At the request of Senator 
Dole, a seventh public hearing was held in Charlotte, North Carolina on 
17 April. The public comment period is scheduled to end on May 9, 2007. 
The Navy is collating and cataloguing the public comments which will be 
included in the Final SEIS along with the Navy's response where 
appropriate.

    13. Senator Warner. Mr. Balderson and Admiral Clingan, what is the 
estimated date for the release of a record of decision?
    Mr. Balderson and Admiral Clingan. The Final SEIS is expected in 
fall 2007, to be followed by a Record of Decision in late 2007.

    14. Senator Warner. Mr. Balderson and Admiral Clingan, what further 
actions are required by the U.S. Government to satisfy the Federal 
court order and to be able to proceed unencumbered with the land 
acquisition and construction of the OLF?
    Mr. Balderson and Admiral Clingan. The Navy must complete and 
publish the Final SEIS and the Record of Decision to satisfy the 
Federal court order. At Record of Decision the Navy can advertise for a 
construction contract and can begin to acquire the necessary property 
interests at the selected OLF site unless there is further litigation 
and an injunction that prevents us from proceeding.

    5. Senator Warner. Mr. Balderson and Admiral Clingan, does NAS 
Oceana have the capability in terms of aircraft parking ramps, hangars, 
and support facilities to be able to accommodate the basing of all 10 
F-18 squadrons? If so, would a revised decision to base all 10 
squadrons at NAS Oceana expand the range of potential locations for 
construction of a new OLF to meet the training requirements for carrier 
pilots?
    Mr. Balderson and Admiral Clingan. The two F/A-18 E/F Super Hornet 
squadrons scheduled to be homebased at MCAS Cherry Point could be based 
at NAS Oceana in currently available facilities (and will be while 
facilities at MCAS Cherry Point are being upgraded to support these two 
squadrons), but permanent stationing would require additions to two 
hangars to meet recommended Facilities Planning Criteria.
    Siting all 10 F/A-18 E/F Super Hornet squadrons and the Fleet 
Replacement Squadron at NAS Oceana does not expand the range of 
potential locations for construction of a new OLF based on current OLF 
siting criteria. The study area radius around a homebase is based 
primarily upon fuel consumption rates for flights to and from the OLF 
and performing field carrier landing practice, and the required safety 
margin.

    16. Senator Warner. Mr. Balderson and Admiral Clingan, in your 
judgment, might an OLF located at Ft. Pickett, Virginia, meet the needs 
of the naval aviation community?
    Mr. Balderson and Admiral Clingan. The Navy is continuing to review 
information regarding Fort Pickett.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                        F-22 MULTIYEAR CONTRACT

    17. Senator Chambliss. General Chandler and General Hoffman, in the 
NDAA for Fiscal Year 2007, Congress provided the Air Force authority to 
enter a multiyear contract for the F-22. The NDAA for Fiscal Year 2007 
also required that the Secretary of the Air Force certify that the 
proposed multiyear contract satisfies the conditions in title 10, 2306b 
for multiyear contracting. Where is the Air Force in the process of 
providing that certification?
    General Chandler and General Hoffman. The SECDEF is plans to 
deliver the required certifications and final RAND report to Congress 
in July to support a planned MYP contract award in August.
    F-22 Multiyear Procurement (MYP) negotiations are nearly finished. 
Once negotiations are complete, RAND will finalize their report on the 
estimate of savings.

    18. Senator Chambliss. General Chandler and General Hoffman, what, 
in your opinion, are the benefits of multiyear contracting?
    General Chandler and General Hoffman. Multiyear contracting allows 
the contractor to plan a more efficient production; such a contract can 
reduce the cost of an acquisition compared with buying the items 
through a series of annual procurement contracts. Savings can come from 
several sources, such as investments in equipment and facilities, 
investments in the contractor's workforce, and orders for component 
parts in economically efficient quantities. With stable program 
funding, the contractor will be able to focus on long-term program and 
performance expectations.

    19. Senator Chambliss. General Chandler and General Hoffman, do you 
believe that any changes to the statute governing multiyear 
contracting, 10 U.S.C. 2306b, are necessary or would be appropriate at 
this time?
    General Chandler and General Hoffman. We have no legislative 
initiatives governing multiyear contracting to offer at this time.

    20. Senator Chambliss. General Chandler and General Hoffman, how 
are deliveries of the F-22 aircraft to operational units progressing?
    General Chandler and General Hoffman. Combat capable F-22s are 
delivering on time to operational units. Raptors are delivering on time 
at a rate of two per month. Langley AFB has two operational combat 
squadrons. Additionally, F-22s for Elmendorf AFB are being delivered to 
Langley now and will transition to Alaska this summer.

    21. Senator Chambliss. General Chandler and General Hoffman, what 
in your opinion is the number of F-22s the Nation needs?
    General Chandler and General Hoffman. Both Air Force and 
independent analyses have substantiated that 381 is the minimum 
requirement to meet the National Military Strategy (NMS). The OSD-led 
2006 QDR Joint Air Dominance study revealed two key points: The U.S. 
has a critical requirement to re-capitalize TACAIR force, and with 
sufficient 5th generation fighters, especially F-22, joint air forces 
win the first MCO with enough forces left to win the next MCO. Without 
sufficient F-22s, attrition is unacceptably high using a legacy-heavy 
force and jeopardizes the follow-on win. Meeting the requirement of 381 
F-22s means fewer mobility assets are required for smaller force 
packaging and lower combat attrition. The Average Procurement Unit Cost 
(APUC) is reduced as we build to our requirement. Finally, 381 Raptors 
meets the National Defense Strategy requirements with reasonable risk 
and provides a sustainable ops tempo.

               AIRCRAFT RETIREMENTS AND RECAPITALIZATION

    22. Senator Chambliss. General Chandler and General Hoffman, can 
you explain how aircraft retirement restrictions are hindering your 
ability to recapitalize your fleet?
    General Chandler and General Hoffman. Additional relief from 
legislative restrictions would allow for flexibility and increased 
options for fleet management. For example, if we were able to retire 
the older C-5s, we could recapitalize the airlift capability with C-17 
platforms off a production line that is still open. It we wait, we may 
not have that option. Restrictions translate into costs to modify, 
operate and support aircraft with funds that could otherwise be spent 
on newer platforms that would be sustainable for a longer period of 
time. Once retired, we also need the flexibility to harvest parts so 
that we can increase the mission readiness of the remaining fleet. 
Present language that says store in a ``recallable'' status precludes 
us from doing that.

    23. Senator Chambliss. General Chandler and General Hoffman, can 
you characterize the current state of the C-130 fleet and the need to 
recapitalize due to Iraq and Afghanistan related ``wear and tear?''
    General Chandler and General Hoffman. The Global War on Terrorism 
continues to place very high demands on the Air Force combat delivery 
and special mission C-130 fleets. As a result, C-130 structural 
fatigue, especially on the Center Wing Box (CWB), has accelerated 
aircraft restrictions, groundings and cracks.
    To address increased wear and tear and substantial modernization/
sustainability costs, the Air Force needs to continue retiring C-130Es 
and invest in fleet recapitalization efforts. The 2005 Mobility 
Capabilities Study identified a range of 395-674 combat delivery C-130s 
to support National Military Strategy objectives with acceptable risk. 
The approval of 20 additional C-130Js via fiscal years 2007 and 2008 
supplementals is a start. In the low-density and high-demand (LD/HD) 
special mission fleet, 37 MC-130Ps and Es and 37 HC-130Ps and Ns need 
to be replaced while addressing LD/HD issues. At this time, the number 
and type of replacement aircraft for special missions has not been 
determined.

    24. Senator Chambliss. General Chandler and General Hoffman, can 
you quantity the approximate number of C-130s the Air Force needs to 
buy to meet the requirements of Air Combat Command, Air Mobility 
Command, and AFSOC?
    General Chandler and General Hoffman. For Air Mobility Command, the 
2005 Mobility Capabilities Study identified a range of 395 to 674 
combat delivery C-130s to support National Military Strategy objectives 
with acceptable risk. As the Air Force retires legacy C-130s, they need 
to be replaced to ensure a minimum of 395 combat delivery C-130s. As a 
start, the Air Force requested 20 more C-130Js in the fiscal year 2007 
and 2008 supplemental.
    In the global war on terror, the special mission C-130 fleet is in 
low-density and high-demand (LD/HD). Air Combat Command needs to 
replace its 37 HC-130Ps and Ns while addressing LD/HD for Combat Search 
and Rescue assets. AFSOC also needs to replace its 37 MC-130Ps and Es 
while addressing Special Operations Force growth. At this time, the 
quantity and type of replacement aircraft for these special mission C-
130s has not been determined.

    25. Senator Chambliss. General Castellaw, can you quantity the 
current U.S. Marine Corps' requirement for additional KC-130Js?
    General Castellaw. The U.S. Marine Corps is currently funded for 31 
KC-130J aircraft. This is 20 aircraft short of its program requirement. 
The requirement is based on a Mobility Capability Study which 
determined a KC-130 operational requirement range of 77 (high risk) to 
129 (low risk). The legacy KC-130 F and R model aircraft are being 
retired due to service life and fatigue due to age and over-utilization 
during the early stages of OEF and OIF. These aircraft flew more than 
twice their programmed flight hours which resulted in accelerated 
retirement/replacement. The last legacy aircraft are scheduled to be 
retired in December 2008.
    The U.S. Marine Corps's KC-130 fleet comprises 45 percent of DOD's 
helicopter refueling assets. The U.S. Marine Corps's aerial refueling 
requirement will increase greatly as 360 MV-22s replace non-aerial 
refuelable CH-46E and CH-53D helicopters. The KC-130 is the only 
aircraft capable of refueling the MV-22 in flight, and the MV-22 relies 
on the KC-130J to self-deploy. In addition, a reduction in operating 
costs and an increase in reliability have been realized as the U.S. 
Marine Corps transitions from its 46 and 29 year-old legacy KC-130F/Rs 
to the new and more capable KC-130J.

    26. Senator Chambliss. General Chandler and General Castellaw, 
given the total number of aircraft required for both Services, would it 
make sense to have another joint multiyear procurement contract for C-
130Js?
    General Chandler and General Hoffman. The Air Force and Marine 
Corps are currently procuring aircraft under the existing C 130J 
multiyear procurement (MYP) contract ending in fiscal year 2008. At 
this time the Air Force does not have any C-130J procurements 
programmed beyond fiscal year 2008 to justify a second MYP contract for 
C-130Js.

                   E-10 TERMINATION AND RADAR OPTIONS

    27. Senator Chambliss. General Chandler and General Hoffman, in the 
fiscal year 2008 President's budget the Air Force stopped the 
development of the E-10 program including the development of the large 
radar. Is there still an operational requirement for this program?
    General Chandler and General Hoffman. The operational requirement 
for the capability has not changed. The Air Force is mitigating what 
the Multi Platform--Radar Technology Insertion Program (MP-RTIP) Wide 
Area Surveillance (WAS) radar would have provided by procuring three 
additional Global Hawk (GH) Block 40 for a total of 15 GH Block 40s. 
The GH Block 40 will provide some of the E-10's ground moving target 
indicator (GMTI) and synthetic aperture radar (SAR) capability, but 
with reduced coverage and resolution. The cruise missile defense 
capability the E-10 was bringing to the warfighter will be an unfilled 
capability gap.
    On 13 December 2006, OSD directed ``United States Strategic Command 
(USSTRATCOM) and USD (AT&L), in coordination with the services, to lead 
a study to assess the likely effectiveness of the United States air and 
cruise missile defense architecture and systems in fiscal year 2015.'' 
Additionally, USSTRATCOM will leverage the results completed on the 
Sensor Weapon Pairing Task Force Study and the ongoing integrated Air 
and Missile Evaluation of Alternatives to provide more complete 
coverage for air and missile defense. If warranted, USSTRATCOM will 
provide recommendations for suggested improvement in capabilities and 
present the results by August 15, 2007 to the Deputy Secretary of 
Defense.

    28. Senator Chambliss. General Chandler and General Hoffman, do you 
believe the large radar is still needed for force protection, including 
against cruise missiles? If so, how will you meet this operational 
requirement?
    General Chandler and General Hoffman. Yes, the Air Force still 
believes the large radar is needed for force protection including the 
capability to defend against cruise missiles. Component commanders 
still have a valid requirement to see low-observable low-altitude 
activities, today and in the future. Although Joint STARS doesn't 
provide cruise missile defense, Joint STARS is providing GMTI and SAR 
for the warfighter. The capability that Global Hawk Block 40 will bring 
in 2011 will add to the GMTI and SAR range/coverage beyond Joint STARS' 
capability. For cruise missile defense, there will be a capability gap 
that will not be met and the Air Force is accepting the risk based on 
fiscal constraints.

    29. Senator Chambliss. General Chandler and General Hoffman, have 
you considered moving the large radar to the Joint STARS aircraft by 
installing the new radar on the fleet of already operational aircraft?
    General Chandler and General Hoffman. Yes, the Air Force has 
assessed the value to migrate the Cruise Missile Defense (CMD) mission 
to Joint STARS. However, in light of budget considerations, the ongoing 
Air and Cruise Missile Defense architecture study, and the assessed CMD 
capability with MP-RTIP on Joint STARS, it was not deemed critical to 
replace the Joint STARS radar at this time. However, if the decision 
was made to replace the Joint STARS radar, it could be replaced with 
the MP-RTIP.

    30. Senator Chambliss. General Chandler and General Hoffman, the 
Air Force placed the MP-RTIP radar in their top 20 programs on the 
unfunded requirements list. If funded, does the Air Force have an 
intended platform on which to integrate the MP-RTIP radar?
    General Chandler and General Hoffman. The Unfunded Priority List 
(UPL) request for MP-RTIP would be applied to continue the development 
activity on the Wide Area Surveillance (WAS) large radar variant 
associated with a wide body platform. This funding would only provide 
for 1 additional year of development headed towards a flight test. 
Additional funding would be required to reach a flight test.

    31. Senator Chambliss. General Chandler and General Hoffman, in the 
fiscal year 2008 global war on terror supplemental request, the Air 
Force requested funding for upgrading the back end of Joint STARS to 
handle MP-RTIP data, as well as funding for further development of the 
large MP-RTIP; however, the Air Force also requested funding for the E-
10. If the Air Force already cancelled the E-10, could this additional 
funding have been used to move the radar to the Joint STARS platform 
instead of continuing E-10 funding?
    General Chandler and General Hoffman. The fiscal year 2008 
President's budget funding requested under the E-10 program is not for 
continuing the E-10 development, but rather to complete the development 
and flight testing of the MP-RTIP variant for Global Hawk Block 40. 
This activity is on schedule to be operational in 2011. We evaluated 
transitioning the MP-RTIP technology to Joint STARS. However, the 
global war on terrorism funding requested to address the diminishing 
manufacturing sources related to the Joint STARS mission equipment is 
only a small fraction of the funding required to transition the MP-RTIP 
to Joint STARS. The notion of keeping the large radar technology alive 
and perhaps to put it on the Joint STARS in the future is why it was 
placed on the UPL as the # 15 priority.

    32. Senator Chambliss. General Chandler and General Hoffman, can 
you quantity the improved performance, operational capability, and 
additional support to the warfighter that will result from a re-engined 
Joint STARS fleet?
    General Chandler and General Hoffman. Current Joint STARS engines 
do not meet the performance requirements. Based on the analysis 
conducted during source selection, the new engines will meet or exceed 
the increased range and time-on-station, improve efficiency, and reduce 
dependence on tankers.

------------------------------------------------------------------------
                                    Current Engine     Pratt and Whitney
                                       TF33-102C           JT8D-219
------------------------------------------------------------------------
Altitude (Ft) (ORD: 34-42K).....  25-31K............  34-42K
Mission Time (Hrs) (ORD: 10)....  8 Hours Avg.......  12.1
Fuel Efficiency.................  Baseline..........  17 percent
                                                       Improvement
Noise/Emission..................  Non-Compliant.....  Compliant
------------------------------------------------------------------------

    The warfighter will see improved support in multiple areas. 
Increased operating altitudes translate into more effective GMTI, 
improved tracking of targets of interest, and better communications 
with tasked fighter and helicopter assets. Overall, this means far 
improved mission support to ground units.

                                 CSAR-X

    33. Senator Chambliss. General Chandler and General Hoffman, in 
relation to CSAR-X source selection, did the Air Force place any value 
on an aircraft's performance in brownout conditions?
    General Chandler and General Hoffman. The CSAR-X evaluation 
included the requirement for aircraft to provide sufficient situational 
awareness for the aircrew to permit safe and effective completion of 
the CSAR mission, which included the capability to manage, monitor and 
control aircraft drift in all three axes while in zero visibility.

    34. Senator Chambliss. General Chandler and General Hoffman, did 
the source selection consider an aircraft's landing footprint for 
landing in a terminal area?
    General Chandler and General Hoffman. An aircraft ``footprint'' was 
not a CSAR-X requirement; the CSAR-X requirements specified a 
capability not a design.

    35. Senator Chambliss. General Chandler and General Hoffman, did 
the Air Force evaluate acoustic signatures and an aircraft's ability to 
enter a terminal area quietly?
    General Chandler and General Hoffman. The CSAR-X capability-based 
requirements included the reduction of aircraft signature (including 
acoustic). The CSAR-X solicitation required that all offered aircraft 
meet all CSAR-X minimum capability-based requirements to be eligible 
for contract award.

    [Whereupon, at 4:34 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
